<html>
<title> - THE ROLE OF FAITH-BASED ORGANIZATIONS IN PROVIDING EFFECTIVE SOCIAL SERVICES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
  THE ROLE OF FAITH-BASED ORGANIZATIONS IN PROVIDING EFFECTIVE SOCIAL 
                                SERVICES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 2, 2003

                               __________

                           Serial No. 108-87

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform








                   U.S. GOVERNMENT PRINTING OFFICE
91-133                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Christopher Donesa, Staff Director
               Elizabeth Meyer, Professional Staff Member
                         Nicole Garrett, Clerk




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 2, 2003.....................................     1
Statement of:
    Dautrich, Philip, program manager, Innerchange Freedom 
      Initiative.................................................    29
    Garcia, Freddie, pastor, Victory Fellowship..................     5
    Garcia, Jubal, Victory Fellowship............................     6
    Garcia, Ninfa, Victory Fellowship............................     5
    Grubbs, Leslie, program director, Urban Connection...........    87
    Kepferle, Greg, executive director, Catholic Charities of 
      Central New Mexico.........................................    49
    Oettinger, Jill, executive director, Good Samaritan Center...    96
    Peterson, James, Innerchange Freedom Initiative Graduate.....    40
    Sudolsky, Mitch, director, Jewish Family Services............    61
    Tellez, Mike, Character Kids.................................   103
    Willome, Joe, Victory Fellowship.............................     7
Letters, statements, etc., submitted for the record by:
    Dautrich, Philip, program manager, Innerchange Freedom 
      Initiative, prepared statement of..........................    33
    Garcia, Ninfa, Victory Fellowship, prepared statement of.....    28
    Grubbs, Leslie, program director, Urban Connection, prepared 
      statement of...............................................    91
    Kepferle, Greg, executive director, Catholic Charities of 
      Central New Mexico, prepared statement of..................    53
    Oettinger, Jill, executive director, Good Samaritan Center, 
      prepared statement of......................................    99
    Peterson, James, Innerchange Freedom Initiative Graduate, 
      prepared statement of......................................    43
    Sudolsky, Mitch, director, Jewish Family Services, prepared 
      statement of...............................................    66
    Tellez, Mike, Character Kids, prepared statement of..........   106


  THE ROLE OF FAITH-BASED ORGANIZATIONS IN PROVIDING EFFECTIVE SOCIAL 
                                SERVICES

                              ----------                              


                        WEDNESDAY, JULY 2, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                   San Antonio, TX.
    The subcommittee met, pursuant to notice, at 9 a.m., at the 
Victory Fellowship Annex Building, 2102 Buena Vista, San 
Antonio, TX, Hon. Mark E. Souder (chairman of the subcommittee) 
presiding.
    Present: Representative Souder.
    Staff present: Elizabeth Meyer, professional staff and 
counsel; and Nicole Garrett, clerk.
    Mr. Souder. This hearing will come to order. I'm going to 
give a basic opening statement, explain a little bit what we're 
doing here this morning and then we'll go to your procedural 
matters and the panel.
    Good morning. Thank you all for coming. I've happy to be 
here in San Antonio. We originally tried to schedule this 
hearing earlier and they went voting into Friday night and we 
thought they were going to vote Saturday, so I appreciate 
everybody being cooperative and trying to reschedule this 
hearing and coordinate with our schedule. It's caused some 
chaos at our level on how to do it, too, but we're going to get 
this done.
    This is our second in a series of hearings that we are 
doing across the United States on what characteristics make 
faith-based providers especially effective in serving the needs 
of their communities. As we will hear from our witnesses today, 
faith-based organizations around the country are raising the 
bar for social service providers through their tireless efforts 
and unsurpassed dedication of their volunteers. Many people 
toil away day in and day out in our community trying to help 
those who are less fortunate. For these workers service is not 
simply a 9 to 5 job but a calling. They know there is a need in 
their community and they are compelled to help. By doing so 
they have been making a difference and cannot be denied. I have 
had the opportunity to visit many faith-based organizations, 
and time and time again I have heard the testimony of men and 
women who have seen their lives transformed thanks to the love 
and support they receive from volunteers and leaders in the 
faith community.
    At a minimum, government must not only allow but should 
demand the best resources this nation possesses. They target to 
help those of us who face the greatest daily struggles. We must 
embrace new approaches and foster new cooperations to improve 
upon the existing social programs. We know that as vast as its 
resources are, the Federal Government simply cannot adequately 
address all of society's needs. Services provided by faith-
based organizations are by no means the only way to reach all 
people in need. Rather they offer a unique dimension to that 
service, a corps of people motivated in many cases by their 
faith who are ready, willing and able to help their neighbors 
around the clock.
    I believe that we cannot begin to address the many and 
diverse social demands of our nation without the help of 
grassroots, faith and community incentives in every city across 
the country. A recognition that faith-based organizations are 
competently filling the gap in community services has led to 
legislation and regulations that encourage these organizations 
to become more involved in their communities through both 
action by Congress and the leadership of President Bush.
    Charitable choice programs have allowed faith-based 
organizations to compete for government grants on the same 
basis as secular providers so that they can reach more people 
in need. As we expand that involvement, we must fully consider 
the specific characteristics and methods that make faith-based 
groups successful at transforming lives.
    Today we will hear from organizations that provide care to 
children and its prison inmates and the community as a whole. 
We need to understand how the unique element of faith impacts 
the structure and success of these programs. It is also 
important that we understand how your programs transform lives 
by building self-confidence and self-esteem. Our witnesses 
today represent just a fraction of the countless faith-based 
organizations that are raising the bar for the quality of 
services they are providing to their communities.
    I expect that our witnesses today will provide valuable 
insights on the provision of social services and where 
government can best assist community organizations of all 
types, provide the best possible care for people in need and I 
look very much forward to the testimony.
    As I mentioned in my formal opening statement, let me just 
briefly describe what we're doing in this process of these 
hearings. We've held a hearing in Nashville, TN. In August 
we'll be in Chicago, IL. Later this fall we'll be doing one up 
northeast. We haven't made a final decision between Boston and 
Philadelphia yet. Then we'll be in Los Angeles and we'll be 
doing one in Florida. That's our plan for around 9 months. We 
plan to do that in addition to today.
    All of your testimony, anything additional we insert, any 
written testimony we get, we have a court reporter who takes 
all of it down. It will come out in booklet form probably in 
about a year. It takes it a while to get it through the 
Government Printing Office. Then it's available through the 
Government Printing Office. We're building a record through 
each hearing and then a final report will summarize and make 
some conclusions and supplement with some of the national 
organizations we're working with.
    For example, in Tennessee there is an organization that 
works with prisons in 28 States and they have six major 
programs that they're working with inmate rehabilitation.
    And so we're following up after that hearing with each of 
those 28 States with the best programs and then we'll get 
examples from them. So while they may not testify at a hearing 
again, they'll be in the final report with information from 
their programs and illustrations of different things, some that 
may have worked, some that worked less, some that worked a 
little better. And we're building a record so that people who 
look and study the faith-based issues can work with this.
    Now, in Washington we have several hearings going on as 
well. We've had several there. Mostly in Washington we're 
debating the legal questions. What can be done precisely with 
the money? What are the restrictions on the money? And 
generally speaking when we have hearings in Washington, while 
there might be a few people from the grassroots who testify, 
most of them are representatives, executive directors or board 
chairmen from their organizations, and they are having a 
different type of debate than we get when we go out into the 
different neighbors.
    One of the big challenges of the faith-based organizations 
and one of the intents when I sponsored many of the parts of 
the bills that now are being implemented by the Bush 
administration, whether it be welfare reform or what we did in 
social services block grants was in trying to define how the 
money can be used. Partly we're trying to see that more of the 
dollars can get down to the grassroots neighborhood level and 
how we can bring a broader base of people into the system, 
particularly in the urban centers that are neighborhood based 
and not just corporate center based.
    It is a huge challenge. It's not a criticism of the people 
who have been doing this, but we're trying to figure out how to 
be more effective. So much of what today's hearing will be 
about will not necessarily--although we'll get into some--every 
hearing we've ever had on this we get into some of the debate 
and I can tell by going through the testimony we're going to 
have some more of that today on what are the roles, what are 
the accountability and the measurements? But I also want to 
hear exactly what's being done, what are the successes, what 
are the things that we as policymakers should be looking for.
    And let me lay one other ground principle out. What I've 
seen in State after State is it doesn't matter whether there is 
a Republican Governor or a Democratic Governor. It doesn't 
matter whether the Republicans control the State House or the 
State Senate or the Democrats control the State House and State 
Senate. In Indiana, my home State, the Democrats have 
controlled the Governor's office for 16 years. Social service 
spending at best is flat. The amount of money that goes for 
probation, for child abuse, for spouse abuse, for welfare, for 
public housing has barely kept up with inflation and mostly has 
declined in real dollars. That it doesn't matter which party, 
that--and so we have to figure out as governing officials how 
we're going to deal with increasing problems when the dollars 
are at best flat. And we have to figure out how to extend 
these, how to make them more effective.
    This isn't a debate about how much money we are going to 
spend. That is a different debate. That's an appropriations 
debate. The bottom line is--our goal is try to figure out what 
we're doing inside this because every organization knows with 
more money they can reach more people, whether it's tax money 
or nontax money. What we're trying to figure out is the best 
way to be effective.
    Now, as a procedural matter, I've got a couple of things. 
As a unanimous consent that all Members have 5 legislative days 
to submit written statements and questions for the hearing 
record and any answers to written questions provided by the 
witnesses also be included in the record. That objection is so 
ordered. But that means--by the way, because we have a large 
number of people here, what that means is that any other member 
of this subcommittee or full committee can send written 
questions to people who are testifying today or can submit 
statements in so that the hearing book isn't just me who's 
here, but if anybody else wants to participate. And by the way, 
the whole committee had to sign off on us going ahead with the 
committee to be able to do this today, which they have.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and witnesses may be 
included in the hearing record and that all Members be 
permitted to revise and extend their remarks.
    Without objection, so ordered.
    Now, our first panel is already up here, it includes our 
host for the hearing today Pastor Freddie Garcia and his wife 
Ninfa, who I have met a number of times and really appreciate 
their work in this community and their witness. We are very 
happy to be here and thank you again for your hospitality this 
morning and the last time that I was down here and the other 
times as well.
    Also joining the Garcias at the table is their son, Jubal, 
and Jack Willome?
    Mr. Willome. Willome.
    Mr. Souder. Willome, Jack Willome. I have trouble with the 
more Anglo type names. As an oversight committee it's our 
standard practice to ask witnesses to testify under oath. If 
you'll raise your right hand and I'll administer the oath to 
you.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have 
each answered in the affirmative.
    We're an oversight committee. There are committees that 
authorize legislation, committees that appropriate the dollars 
and we--our job is to see that the programs that we pass in 
Congress are administered, therefore we have an oath. Very few 
people have ever been prosecuted for false testimony, but this 
committee has had that happen. We're the people that have done 
the Waco investigations. We did the China investigations. The 
Whitewater, lots of those type of investigations come through 
the full committee and that's why our committee has those type 
of things, but it's a routine matter here.
    So with that, the witnesses will now be recognized for any 
opening statements. We'll ask you to summarize your testimony. 
Any full statement you want to submit later will be included in 
the record. And this panel, I know you're kind of doing this as 
a team approach, so I'll turn it over to Freddie and see how 
you'd like to proceed.

     STATEMENT OF PASTOR FREDDIE GARCIA, VICTORY FELLOWSHIP

    Mr. Freddie Garcia. My name is Freddie Garcia and I'm a 
former crack addict. I started drugs when I was about 11 years 
old on marijuana and pills and graduated to heroin. And my wife 
and I ran the streets using drugs, mugging people, breaking 
into apartments, and there was no hope for us. There was no 
program that had the solution for drug addiction. There was 
nowhere we could go that would help us cure this drug addiction 
problem. And it was through a spiritual experience that I found 
through Jesus Christ that I found the answer to drug addiction.
    That's why I believe in this ministry, in the faith-based 
program because I believe that drug addiction is a spiritual 
problem and I believe that Jesus is the total cure for the 
total man. And I found the answer in Christ. It was through an 
experience with Jesus Christ that I found the answer in 1966, 
and I gave Jesus all the praise and all the honor and all the 
glory for changing me and from drug addiction.
    Mr. Souder. Thank you.

         STATEMENT OF NINFA GARCIA, VICTORY FELLOWSHIP

    Mrs. Ninfa Garcia. I'm Ninfa Garcia and I too walked the 
streets with Freddie. I came from a very, very square home, if 
you please. My mom didn't smoke. She didn't drink, but there 
was an emptiness in me that launched me out in search of 
happiness. And I found myself in the drug life, like I said, 
walking the streets with Freddie. I gave my first son away. My 
second child I had an illegal abortion. My third child roamed 
the streets with me.
    And at that point in my life I had already traveled 5\1/2\ 
years in the drug world with Freddie. And I was at the point of 
I thought he was to blame, so I contemplated killing him 
because I thought that my solution would be killing him. But 
then I said if I kill him, I'm going to do time and my 2 year 
old is going to stay behind. So in my sick mind I decided to go 
ahead and kill my 2 year old. And then I said but if I kill him 
and I kill my 2 year old, I'm going to be left with the 
desperation and the pain, so I contemplated suicide. And that 
was at that point in my life when the Lord came and rescued him 
and I saw a transformation before my eyes. This man came and 
told me, ``Look, Ninfa, we've shacked up for 5\1/2\ years,'' he 
said, ``but Jesus changed my life.'' He says, ``Now, if you 
want to follow the Lord, I'll marry you right in the sight of 
God. And if you don't, I'm going to have to cut you loose 
because I want to follow Christ.''
    And so what happened was that I didn't have the faith to 
believe, but I was interested in a marriage relationship 
because we had been literally shacking up for 5\1/2\ years and 
I had this love and hate relationship with him. I loved him, 
but I hated where we were at. So I said yes to the marriage 
contract, but I went into that church and I heard--I was 
exposed to the gospel of Jesus Christ for the first time in my 
life. I heard that Jesus could take the burden off my back. And 
I thank the Lord today and give him praise that on July 1st, in 
fact, yesterday was my anniversary, in my marriage vows and it 
was my anniversary in knowing the Lord as my personal Savior.
    On July 1, 1966 the Lord came and changed my life, a total 
transformation. My sick mind was gone. My heart was lifted up. 
My life was transformed, and it's been since 1966 that we've 
walked with the Lord and there has been a total turnaround. 
I've been--through the gospel I've learned to be a wife. I've 
learned to be a mother and I've learned that the love of God 
goes beyond self and extends his love to others in need and 
that's what we've committed our life to serving the Lord full 
time till he calls us home.

         STATEMENT OF JUBAL GARCIA, VICTORY FELLOWSHIP

    Mr. Jubal Garcia. Good morning. My name is Jubal Garcia. I 
grew up in this ministry seeing my mom and my dad reach out to 
the addict, to the criminal and I enjoyed every minute of 
growing up in this ministry. But I always thought like, OK, you 
know what, these guys are off the streets, they need help. 
They're on drugs or on alcohol. You know, so it's great what 
they're doing and I love being a part of it, but that's not the 
same answer that I need, you know, because I'm not addicted to 
anything like drugs or anything.
    So I began to live my life never making a personal decision 
to accept Christ in my part. Till about the age of 18 I began 
to realize, you know what, I'm almost in the same--I'm in the 
same position these men are. I'm searching for something, too. 
And it was right before I turned 18. I was looking for answers 
in my life. I was miserable because I was going to school. I 
was doing everything I wanted to do, but I was still miserable.
    And I remember it was funny because my dad was in 
Washington, DC, and I called him at about 1:30 a.m., and he was 
in his hotel and he was asleep. And I said, ``Dad, I need 
answers in my life, man.'' I said, ``And I'm coming to the 
conclusion that the only answer for my life is Jesus.'' And I 
never thought that because I was never an addict, I was never a 
criminal, but I never met my father as a drug addict and I 
never met my mother as a drug addict.
    I've always known my parents serving the Lord, so I never 
had a point of reference of how--what kind of life they used to 
live. And I began to realize that, you know what, it doesn't 
matter what kind of walk of life you come from, whether you're 
on drugs or alcohol, whether you're--you don't grow up with a 
family like that.
    If you grow up in a Christian home--I grew up in a 
Christian home not knowing and not personally making the 
decision. They had told me that Jesus was the answer, but I 
said that's not for me. I'm not in that kind of life. I wasn't 
like you guys, but it came to the point where I had to find 
answers in my life and the only answer I found was Jesus. And 
it was at that moment that I realized that, like I said, it 
doesn't matter where you come from, Jesus is the answer for 
every solution in your life.
    And from that moment on I began to--growing up in this 
ministry and once I accepted the Lord in my heart, I said, man, 
you know, this is what I want to do, man. I want to do the same 
thing my dad is doing because the joy of never knowing my 
father as an addict is something that I thank the Lord for 
every day and to reach out to people in the same situation and 
to be able to help families and to help men restore their 
families back and to be able to--for children to grow up the 
way I did, not seeing their father as addicts.
    And growing up in this ministry my heart has really, really 
been driven to continue the work that he started that God give 
him. So my plan in my life is to continue this vision and move 
forward and for me, myself and my staff to continue reaching 
out to the addict and to reach out to the lost and reach out to 
the person on the street and not change to the pattern that we 
have here, man, to continue what God has started and to 
continue the vision that God has given us. So thank you for 
having us here this morning.

          STATEMENT OF JOE WILLOME, VICTORY FELLOWSHIP

    Mr. Willome. Mr. Chairman, my name is Jack Willome and I'm 
here as a volunteer with this ministry. I'm privileged to be 
here, but really unqualified to speak. These are practitioners 
and I come alongside and I'm an observer, so I'll share with 
you some of my observations about what I've experienced in my 
involvement with this family and this ministry for the last 3-
plus years.
    The vision of Victory Fellowship is to transform crime and 
drug infested neighborhoods through the gospel of Jesus Christ. 
And their perspective is that addiction and criminal gang 
behavior is a symptom of the problem and not the problem 
itself, and that the problem is the condition of the human 
soul. According to the scripture the soul is the mind, will and 
emotions and the character of a person is dependent on the 
condition of their soul. And so that's what they're after, and 
the vision of this ministry and the transformation of 
neighborhoods.
    Their core is the transformation of the character of that 
criminal and that addict. It's well beyond the traditional 
``treatment model.'' The traditional treatment model thinks 
that--address the symptom and says if you take a person and 
sequester them and isolate them and get them out of their 
environment for 30 or 60 or 90 days that you can change their 
behavior to be able to put them back into that environment and 
they'll be able to live successfully, and it is met with 
failure after failure after failure.
    This ministry is based on the belief that according to 
scripture the power of the gospel of Jesus Christ has the power 
to transform the character of a human being, and that only that 
has the power to transform the character of the human being.
    This is an indigenous grassroots ministry, which means that 
all of the people who are leaders in this ministry have the 
same background that Freddie and Ninfa described or have a 
similar background to what Jubal described. They have lived 
with--they have either been addicts and criminals or they have 
lived in families that have been dominated by that type of 
character and they've experienced the life transforming power 
of the gospel of Jesus.
    And so they--according to scripture they have become agents 
and Ambassadors of the life transforming power of Jesus to go 
back into the same crime and drug infested neighborhoods that 
they came from to be agents of reconciliation of 
transformation. That's the core of what this ministry is about.
    When Freddie and Ninfa got started, the first thing that 
they did was to get out of their little apartment and go back 
into the crime and drug infested neighborhoods and express the 
love of God that was flowing through them. This anointing, as 
they refer to it, to criminals and drug addicts, and they loved 
on the drug addicts and the dealers and the pimps and the 
prostitutes and invited them to experience what they had 
experienced and to come into their home and live with them and 
to live it out with them, and that's the leadership of this 
ministry, this church, Victory Temple Church. Every leader in 
this church has lived with these people, some for years.
    And just think--just think of what that means. This isn't 
about taking somebody through a 30 or 60 or 90 day program. 
It's about taking them through a new door into a whole new way 
of life that's a permanent way of life. Their idea, their big 
idea is that the entryway into Victory Temple Church is the 
front door of a rehab ``treatment center,'' treatment home. So 
when you walk through that door, their idea is that you're 
going to become an agent of transformation to go back into the 
neighborhood that you come from to change lives.
    From the standpoint of the government's involvement in 
ministries like this, the first that my--I guess I would--when 
I first got involved here a little over 3 years ago, the advice 
of a friend of mine named Curtis Meadows who was the president 
of Meadows Foundation in Dallas, when I met with him several 
years ago to talk about some of the personal giving ideas that 
my wife and I had and I had written all these, you know, great 
plans and things out and so on, Curtis looked at it and he was 
very polite and so on, but his observation was, ``Jack, when 
you're giving money away, your first objective should be to try 
to do no harm.'' And that would be my counsel to the 
government.
    The culture and the way these faith-based indigenous 
grassroots organizations work is totally different from the way 
that our government works or businesses work or anything that, 
you know, we're traditionally used to. When they talk about 
being faith based, it means they are faith based. And so when 
they have a need, instead of approaching it logically or with a 
strategic plan or whatever, they pray about it. And guess what, 
the needs get met. This is what I've experienced with these 
folks over and over and over again. Frankly, the accountability 
that the Federal Government requires, and rightfully so, does 
not fit with the culture of an organization like Victory 
Fellowship. It doesn't mean that they're not accountable. 
They're accountable in a totally different way.
    I've been involved with them recently on a $3\1/2\ million 
fundraising project for new facilities over at 39th and 
Castroville, so I've interfaced with them and members of the 
business community in foundations and so on. And, you know, 
we've--we have put together the first ever actual budgets. I 
mean, they've operated all these years without a budget and I'm 
telling you at the same time every year they have a fiscal 
operating surplus.
    OK. Now, they control their expenses, but they control them 
totally differently than we're used to with a budget tool. OK. 
So we come in from the outside with our methods and we end up 
subtly changing and redirecting internally their culture about 
what's working. I personally have come to the conclusion that 
it would be dangerous for me to be involved financially in 
supporting the ongoing operations of what they're doing.
    Frankly, they're doing it well themselves. We've come in 
alongside to help them raise capital for this new building 
project because they've demonstrated an ability. It's the only 
capital project I've ever been involved in as a donor where I 
have total confidence that the organization has the ability to 
sustain the operations in the new facility and I don't have to 
worry about that because of--because of their track record. The 
financial support of this ministry, guess where it comes from? 
The people who have come through the front door of that home 
after--as their characters are being transformed and they 
become involved in Victory Temple Church and they give 
financially to the work of the church. That's where 90 plus 
percent of the financial support comes from.
    The ministries that they've launched out head into every 
major city in Texas and Mexico and Central and South America 
tithe back into the mother organization here 10 percent of what 
they receive. I mean, I've never heard of mission 
organizations--the missionaries being sent supporting the 
mother organization. That's--I mean, who would think of such a 
thing?
    OK. That's what's really working here. The hand of God is 
on these people and it's an amazing thing to see. And I along 
with them give Jesus Christ all the glory and the honor and the 
praise. Thank you.
    Mr. Souder. Thank you. Thank you for your testimony. The 
only similar thing I can think of is the New Testament where 
Paul went out and said send back to the troops and they did.
    Mr. Willome. Exactly. Exactly.
    Mr. Souder. I want to say a couple of things for the record 
because I've long had the goal to get here to a hearing here 
and to put this on record and that maybe you-all aren't aware 
of this, but your organization is often in the debate about how 
we handle faith-based because you're at the very edges of what 
could even conceivably be cooperated with in the Federal 
Government.
    And so let me put into the record because it's going to be 
clear, I'm fairly familiar with the organization and there are 
a couple of points I want to draw out here and I think that 
you've highlighted between the mix of this testimony the whole 
range of them. And it's a good way to lay out as part of our 
laundry hearing process but also for today's hearing what we're 
going to get to a number of these issues as we move through.
    But first let me say how I first heard Freddie's kind of 
testimony and how that led me to rethink and start to work with 
the faith-based efforts. Because I was Republican staff 
director on the Children and Family Committee under then 
Congressman Dan Coates in the mid 1980's, I was at a conference 
that Bob Woodson put together trying to look at how we could--
this was about probably 1987, maybe 1986--that how we could 
better work with nonprofit organizations in America and 
grassroots. Bob Woodson's vision was how you get more Black and 
Hispanic grassroots organizations in contact with the Federal 
Government.
    And in that meeting we had people from the--then the Reagan 
administration, we had people from foundations and they all 
gave their formal presentation. And then they turned to Freddie 
and he gave testimony basically what he said today, I was an 
addict and I met Jesus Christ and my life changed. I'm not an 
addict anymore and I've helped work with hundreds of other 
addicts and they're no longer addicts, that--and I and others--
and I'm a Christian thought, well, that's kind of a different 
approach than from the rest of the presentations. And then they 
had an man named Leon Watkins there who had worked with the 
Crips and the Bloods and he said--well, actually had Charles 
Ballard next who was a pastor from Cleveland who had gone door 
to door for at that point like 10 years doing family 
reconciliation with fathers who had abandoned their families 
and talked with them and got them back to their families.
    And he said without Jesus Christ this wouldn't have 
happened. And then they go to Leon Watkins and he had a 
standard thing that I've heard before about the Bloods and 
Crips and how he got the peace treaty, but then he said the 
real thing was I think it was Quake became a Christian. And 
when Quake became a Christian, we had our first opening. And 
Bob Woodson sat back and you could see the foundation people 
and the government people all kind of sliding under the table. 
They didn't know how to deal with an overt religious message 
from the Black and Hispanic grassroots organizations. It was at 
that time taboo to raise that question.
    And Bob Woodson said, ``We have a problem here. The people 
from the streets are saying something different than the people 
in the government and the Washington foundations are saying. 
How do we deal with this question?'' And that has been a 
dilemma that we've been working through because when we're 
dealing with taxpayer dollars, different rules than you're 
dealing with your own dollars in that as we've tried to blend 
to the degree possible and still protect religious liberty so 
that we'll not have other people's religions foisted upon us in 
the United States either.
    Speaking from a Christian perspective or from any religious 
perspective there are a number of things to work through. One, 
after--and by the way, when I then read Freddie's book, I 
didn't believe it. I mean, I had just been to John Hopkins. 
They told me that you can't go cold turkey off of cocaine.
    And so I decided to be doubting Thomas and come down here 
and look. I talked to a couple of other people who had read 
your book there and they didn't fully believe it either. They 
thought, well, that might work for a couple of people once in a 
while. And I came down here and at that time you had outreach 
centers in a lot of the public housing places. And after I met 
maybe 50 to a 100 people who said to me that they had been on 
cocaine and heroin and alcohol and could they tell me about how 
they changed, you know, it started to change a little bit. We 
went over to your church here and met with your regional 
leaders who were talking in languages that weren't Spanish or 
English at times and that--which was a new experience for me as 
well and not being charismatic that--and then we went to your 
kind of fancy digs over there where people come in and I met 
another hundred people or so. And at some point you go, this is 
a little different.
    It was--and then the question come is could they really 
sustain this? Could it be replicated? Can you do it elsewhere? 
Is this just because Freddie's charismatic?
    I'll never forget, by the way one of the most--and I want 
to put this in the record because this is one of the things 
that I say at my meetings that had a huge impact on me because 
Juan Rivera had met me at the airport that day. And when we 
were out there at the place there, which to me coming from 
green overly soaked Indiana looked about as deserty and 
deserted as it could be with one little tree in the back, and 
Juan said that it meant a lot to him because that's where he 
had met Christ and that's where he had first read the Bible, 
had told me about going cold turkey just like your story was. 
And I said, ``Well, I'm really ashamed because I'm not thankful 
enough.'' And he just said to me--because he was just praising 
God and I'm thinking one tree and for, you know, working and he 
said, ``Well, you should be ashamed.''
    And I said, ``Well, I am ashamed.'' And he said, ``But you 
should be really ashamed for not thanking God more for what's 
happening in your life.'' And I said, ``Well, I am.'' And he 
said, ``My dream is that someday my kids would have the chance 
that you do,'' which is just what Freddie and Ninfa have done 
for you and what you've expressed the thankfulness for, it's to 
move to that.
    Juan obviously had a terrible accident and has had 
difficult problems with that, but I never forgot that part of 
the obligation of those who have been blessed is to say how can 
we help others have the opportunities that we have had and what 
is the most effective way to do that.
    Now, out of that then you called, and this was a number of 
years ago, the Texas Department of Health, Alcohol and Mental 
Health wanted to stop you from--and I'm putting this into the 
record too because it's important before I ask the question 
that I fully state where I'm coming from, but I also want to 
illustrate the progression of some of your things. They were 
going to shut you down because you didn't have licensed 
counselors.
    I argued with that person extensively out of Washington and 
you told me--and I was a little nervous about this. It's 
important that we have this very frank discussion because these 
are actually the public debate questions. At that time you were 
in public housing areas with homeless. Do you still have any of 
those units?
    Mr. Freddie Garcia. Uh-huh.
    Mr. Souder. And basically in addition to providing shelter, 
you were providing Bible study and providing outreach to those 
people's lives. Because Mayor Cisneros, then mayor, had 
worked--had set this process up and at HUD continued it. And by 
the way for the record, homelessness and AIDS prevention have 
never had the same debates over faith-based that other 
categories have for the simple reason, nobody will do it.
    Mr. Willome. Right.
    Mr. Souder. And because nobody would provide homes, nobody 
asked what you were doing with it because they didn't know what 
to do with the homeless because nobody else did it. And the 
reason they didn't ask evangelicals what they were doing in the 
AIDS cases is in the early days of AIDS everybody thought they 
were going to be infected and die.
    And the only people that went out there or the prominent 
numbers of people who went out there didn't care if they died 
because they knew what would happen to them. So they took the 
risk. And so historically the first faith-based programs funded 
by the Federal Government that were allowed were the in the 
homelessness and the AIDS.
    When we get into drug treatment and when you get into other 
programs, you're now competing with existing programs, with 
those dollars and it's a different debate than when you're in 
homelessness or you're in AIDS prevention.
    So when you started doing drug rehab the question became 
should you be doing this. And you told me to tell them that we 
don't do drug rehab, we save souls. I said, ``Are you sure this 
is what you want me to tell the Department of Drug and Alcohol 
and Mental Health because, you know, you're in public 
housing?'' And you said, ``Well, that's what we do. You came 
down here. You saw the people. You know that's what we do. We 
change their lives.'' So I told them that. And they said, 
``Yes, but they aren't licensed.'' I said, ``They don't claim 
to be doing drug rehab. They claim they save souls and then 
people change their lives.''
    They said there was a flyer. I think it was--I can't 
remember where it was, in south Texas, but you told me that 
pastor on that flyer should not have included drug rehab on his 
flyer and that changed, and they acknowledged that newspaper 
report was wrong. They also acknowledged that this was the most 
effective program in San Antonio that they had seen under Ann 
Richards and that your other programs seemed to be working 
well.
    The question wasn't whether it was effective. The question 
was were you certified and were you following their processes, 
which gets into the measurement questions. Those things have 
stuck in my head for 15 to 20 years. Since then I came down 
with my son, Zach, because I wanted to see if you were still 
going. I didn't want to keep using you as an example and find 
out that, no, you had folded. And you're still going, and you 
still have your church here and you're still bringing people 
in.
    Now, I want to ask you some questions to draw this out a 
little further, but I wanted to put into the record some of 
what I've seen and kind of give some direction. One thing that 
when I asked you what the success of your ministry was, which 
Mr. Willome alluded to, too, is you told me you lived in a 
neighborhood. Could you elaborate on that a little bit more of 
how--either one of you, any of you elaborate how important that 
is?
    I've heard from Jean Rivers and others in Boston and other 
places that they can tell who often we give the grants to 
because about 5:30 they're headed back to the suburbs and then 
the people who are still living in the neighborhood have to 
pick up the pieces. And we have been trying to address that 
fundamental question in social services, and I'd like to hear 
your comments on that.
    Mr. Freddie Garcia. What was that, Mark, about living in 
the neighborhood?
    Mr. Souder. Living in the neighborhood.
    Mr. Freddie Garcia. Well, I grew up in this neighborhood. 
This is my barrio or neighborhood. And when I was growing up as 
a kid, I saw that men that were working with people, as soon as 
they became successful they moved out of the neighborhood and 
moved out to the north side of town. This is the west side. And 
when God called me to reach the drug addicts, I didn't want to 
do that because when you move on out of the neighborhood, you 
lose that sensitivity to the people.
    You're not in tune with the people no more. You don't know 
what's going on. So I didn't want to lose that, so that's why 
when I came to work with the drug addicts, I said I want to 
live in the neighborhood. I wanted the same Zip Code as the 
drug addicts because I want to be sensitive to their needs. I 
want to be around where they can reach me. See, because usually 
when a man in my position becomes successful, he moves out of 
the neighborhood and you can't reach him.
    They isolate him with 10 secretaries and you can't reach 
the guy. And I don't want to do that. I'm not going to be 
surrounded by 10 secretaries where nobody can reach me. I want 
to be touchable where the drug addict can go to my home and 
reach me if they want to talk to me or whatever. And that's why 
I began to stay in the neighborhood because this is where they 
need--this is where they need to go and when they go to my 
home, they'll find love and they'll find that somebody that 
knows the answer to their problems and that answer is Jesus 
Christ.
    But I'd like to share something, Mark, because I want you 
to see if you can understand why I got into this. See, when I 
was on drugs I went to the different programs all over the 
State, Fort Worth Hospital, different programs to find the 
answer for drug addiction because I believe that drug addiction 
is a vice that must have been masterminded in the very councils 
of hell. And, brother, there was no hope for us. I was living 
like an animal out there in the streets and nobody had the 
answer to heroin, to drug addiction. And I went to hospitals 
and I spent 6 months at the Fort Worth Hospital, and after 6 
months they told me that I was ready to leave. And I came home 
and I--before I went home, I had a needle in my arm. I went to 
see drug pusher before I went to see my wife.
    So I went back to the hospital for 6 more months and the 
same thing. This time when I got out of the hospital, I bought 
drugs on the bus coming home to San Antonio. I was already high 
when I got off the bus and I couldn't shake this--I couldn't 
shake this loose. There was no answer. Nobody had the answer. 
And on the programs when they speak of--they still do it today. 
When they speak about drug addiction, they only talk about what 
drugs does to you, your body, all those things, but nobody has 
the answer.
    And this is what I was looking for the answer. I didn't 
want to know about drugs, what they did to me. What is the 
answer? Nobody had it. And still today they don't have the 
answer. And I was looking for the answer and I couldn't find 
it. Different hospitals, different programs, State hospital, 
Federal program and I couldn't find it.
    So I went to Los Angeles and the same thing. I thought it 
was my environment. I thought it was the neighborhood. So I 
went to Los Angeles. And as soon as I got off the bus, I 
started doing the same thing over again. But I couldn't find 
the answer. And it was there in Los Angeles where--it grew from 
Teen Challenge, David Wilkerson's Teen Challenge program. They 
spoke to me in the streets and they told me that a person 
called Jesus Christ could change my life.
    Well, I was a nonbeliever. I didn't believe in all this, 
but I went to the program because I didn't have no place to 
stay. And when I went to the program, they were preaching the 
gospel. Ex-drug addicts like these guys sitting in the back 
here.
    They're all preachers over here right here. You can't let 
them--you can't let them say nothing because we'll be here 
until--so what's the date? Wednesday, we'll be here till Monday 
if I let them speak to these guys. They're all preachers.
    So they would preach there, Mark. And I would listen. I was 
a nonbeliever. I don't blame you for not believing. I didn't 
believe in nothing because I had never seen nothing like this. 
Ex-drug addicts preach and testify? And it went in one ear and 
out the other. I was an atheist almost and I didn't believe in 
nothing they were saying.
    Do you see what I'm saying? But I was there for 2 or 3 
weeks. And 1 day I was sitting in chapel and a fellow by the 
name of Sonny Arguinzoni was preaching and he was saying this, 
he said, ``I don't care how much drugs you have shot. I don't 
care how many sins you've committed. Jesus Christ is going to 
change your life and right now. All you have to do is to come 
to the altar and kneel down and ask this person, Jesus Christ, 
to forgive you for your sins and you're not going to be a drug 
addict no more.'' Well, it was hard to believe.
    Man, I was sitting as a spectator listening to the message 
and I was saying to myself how in the world is a man that died 
2,000 years ago on the cross, how is he going to change me? I 
mean, I've talked to psychiatrists, sociologists, group 
therapists all over the State of Texas and they can't do 
nothing with me. In fact, they told me I was a hopeless case. 
Men that I can see, feel and touch can't help me. Well, how is 
somebody that died 2,000 years ago that I can't even see or 
feel or touch help me? It didn't make no sense to me.
    And Sonny was preaching and he says, ``All you have to do 
is to come forward and kneel down and ask him to forgive you 
and he's going to change your life.'' Well, I went forward 
because I said, man, what have I got to lose? If this doesn't 
work--I've been in other programs. There is no more program for 
me to try. If this doesn't work, that's it. I remember that I 
went forward and I did what he told me. I kneeled down and I 
didn't know how to pray, Mark. I didn't know how to pray, so 
this was my first prayer. I said, ``Give me a break, Lord. Just 
give me a break. Give me a break, Lord.'' And I began to cry 
out to the Lord, give me a break. Forgive me of my sins and 
give me a break.
    And I remember as I'm crying out to the Lord like that, 
give me a break, all of a sudden I began to cry and I'm not a 
crybaby. I'm not a crybaby. And I began to cry and cry and cry 
and cry and kept asking God to forgive me for my sins and to 
give me a break. When I got off that altar, man, the first guy 
I saw was an Anglo and I used to be a racist, see. I hated the 
White guy, but I loved the White girl, so I was a hypocrite, 
too, you know.
    And I remember that when I got up, the first guy I hugged--
I felt full of love for everybody and the first guy I hugged 
was a White guy and I had never hugged a man in my whole life, 
not even my dad. And I thought what's happening to me. A change 
had taken place from within, within and that's the thing. 
That's the thing that I found out that Black is beautiful, 
brown is beautiful, White is beautiful if you have Jesus in 
your heart because God is love.
    Now, watch, I say that to say this, I found out that day 
that the answer--and remember that I had been searching for the 
answer to drug addiction all throughout the State of Texas, 
different programs, in and out of different programs. I had 
been searching and I'm a man who dedicated himself to find the 
answer at that time and I couldn't find it.
    And what I saw that day that I was converted to Christ, 
what I saw was the answer. The answer was in the gospel of 
Jesus Christ. The gospel according to the Bible is that Jesus 
died for our sins. He was buried and he resurrected the third 
day. And if you believe that, if you believe that he has 
forgiven you for your sins, he will change your life. That's 
the gospel. I found out that the answer to drug addiction was 
in a message and I found out that day that the gospel not only 
is a message, it's a person, a person called Jesus.
    So I was fascinated because people have asked me, Freddie, 
when did you decide to preach? When did you--were you called to 
preach? I said, ``When I was changed from drug addiction,'' I 
said, ``I've got to go to my hometown and preach this 
message.'' The answer is in a message in the gospel of Jesus 
Christ. The answer to drug addiction is in the message and that 
message is a person, not only a message, the person. I have to 
preach this message.
    So when I graduated from Bible school, I came to San 
Antonio and began to preach the message, this message that they 
preached to me to this day in the streets of San Antonio, TX, 
and this is the result. This ain't nothing. This is just a 
fraction of all the men and women that God has reached. This is 
a fraction. This ain't nothing, you know. There is programs 
like this, men that are all over South America, programs like 
this that men that we have reached. All over Texas there are 
men that are in every major city in Texas spreading the gospel 
of Jesus Christ.
    So this is why I believe in this message, Mark, because I 
found out that day that I had searched with psychiatrists, 
sociologists, group therapists, everybody that I could. Nobody 
had the answer and they still don't today, to this day they 
don't. And I found that in a simple little message that Jesus 
can change your life. That's why I believe in it, Mark. And 
this is what I'm doing today. This is what my son is doing. 
He's going to carry on reaching others for Christ.
    But these are souls that have been reached, you know. I 
could bring you a bunch of papers. Like a test person from 
Washington came to my program years ago, years ago in 1972, 
something like that. They came to my home where I had the 
program over there, in ministry and they said they wanted to 
see--they wanted to see how many results were coming out of my 
program and they wanted to see it on paper. I said, ``No, I 
ain't going to show you on paper. I'm going to show you in the 
dining room.'' He talked to them. You know, I said, ``You can 
lie on paper, you know. I'm not going to do that. I'm going to 
give you their addresses and their names and you talk to 
them.'' And we stood up and, I said, ``Go ahead and talk to 
them. Tell them what happened to them because these men have 
been changed from within, not on the outside.''
    See, in federally funded programs and State programs they 
were trained to change me from without on the outside. They 
were trying to teach me a trade. Watch this, Mark.
    When I went to the Fort Worth hospital, they were trying to 
teach me a trade. They thought that the reason I was a drug 
addict was because I didn't have a trade, and they were trying 
to make me a plumber or carpenter. And I couldn't understand 
how well-educated men like these couldn't see--couldn't 
understand. See, heroin addiction--drugs is on your mind 24 
hours a day. It's a psychological habit. You can't get drugs 
out of your mind. For 24 hours a day all I could see was like a 
vigilance was a needle in my arm because it's a psychological 
habit. You can't kick it loose. And these guys trying to get me 
off of drugs from learning a trade. I couldn't understand how 
plumbing could get me away from drug addition. It don't make 
sense. See what I'm saying?
    And when I found the answer, I found God, that drug 
addiction is a spiritual problem. We have a mind that needs 
education. We have a body that needs food, but we have a human 
spirit that needs God. And in every federally funded program, 
in every State program, they leave out that aspect, so that's 
why they're not reaching nobody. You have to treat the total 
man. If you're going to treat the man, you have to treat the 
total man. You have to treat the mind, the body and also the 
spirit. And they don't deal with that. That's why I've been 
successful. It's not me. I tell everybody it's not me. I can't 
change these guys. I couldn't even change myself, Mark, but 
it's when I preach the message of Jesus Christ.
    I told that Drug and Alcohol Commission, 1 day I said, ``If 
I'm preaching, watch it. People are going to get changed.'' Do 
you know what I'm saying? Don't worry, I ain't going to preach 
right now, you know. But it's a message. It's a message that 
changes not only drugs but like my son. My son wasn't a drug 
addict, but he knew he needed to be changed and it changes 
everybody when you preach that message. It's powerful. And my 
track record speaks for itself.
    It's all over South American, Colombia, Argentina, Peru, 
Venezuela. Venezuela is here right now. Raise your hand, Julio. 
Julio is here. He's from Venezuela. His program's over there, 
and we've got programs all over South America that are doing 
the same thing.
    And what's doing it, Freddie? Ninfa? Jubal? Jack? No. It's 
the person of Jesus Christ. The simple message. It's a very 
simple message that Jesus died. He was buried. He resurrected 
on the third day. And if you accept Him and ask Him to forgive 
you of your sins, your life is going to change. Simple.
    The message--the answer to drug addiction I found out years 
ago, it's in a message. And it's not only a message, but it's a 
person. That's why I'm dedicated to this. It works and my track 
record speaks for itself.
    That's why they can't knock it. Nobody can knock it because 
I'm standing up. I've found 1,000 or 2,000 drug addicts on the 
streets that have been cured, and no other program can do it. 
No other program can stand their guys on stage and tell you 
that it's true.
    Mr. Souder. If I can, I want to ask a question of the 
people in the audience.
    We normally don't do this, but how many of you have come 
through Freddie's program? Could you raise your hand? How many 
of you with--how many of you have gone through their drug and 
alcohol rehab programs? How many of you had gone through at 
least three other drug and alcohol programs? That--let me 
briefly count so I have it. It looks like there are about 35 
people who raised their hands, over half of them said they had 
been through other drug programs and about a half of those had 
said they had been through multiple.
    That--I want to come back a little bit to this neighborhood 
question because we're debating this. When people first come 
into your program and they go through, accept Christ and then 
it doesn't mean everything is completely solved in their lives. 
Do they tend to come back to you at certain times in the day or 
is it around the clock or are the problems greater at night, 
greater on weekends, fairly even? Is that part of the reason 
you chose to stay in the neighborhood?
    Mrs. Ninfa Garcia. One of the things that I'd like to maybe 
in correlation with what you're asking, Mark, see, from a 
scriptural point the Lord teaches you, in the Old Testament it 
says that when a stranger comes among you, treat them as one of 
your own. Now, that hit my heart as a Christian because, see, 
when I walked the streets with Freddie, not even our kinfolk 
wanted us and I don't blame them. They literally closed the 
door on us because we were the outcasts. We were the rejects, 
so I understood what it was to go and be hungry and be cold and 
get the door slammed in your face because you were a reject. So 
when the Lord comes into our lives, when the Lord came into our 
lives, he embraced me. He loved me. He changed me. And he says 
go and do likewise.
    And every time one of these fellows comes into the house, 
the Lord reminds me, remember bring him in and treat him as one 
of your own. He tells the Israelites in the Old Testament, 
remember that you too were strangers in Egypt. I know what it 
is to be in Egypt and I know how it feels, so that's why he and 
I committed ourselves to bringing the fellows into our home. 
It's not--he doesn't preach to them on a Wednesday and then see 
you Sunday again.
    I mean, these fellows come in and they're part of the 
household. They're part of the family. And there is many sons 
here today, you know, in the gospel and there is many grandsons 
here in the gospel. They know they have a mom and a dad that 
they can call. They have a mom and a dad they can come to and 
the other, they're--the grandchildren are coming around also, 
but they live with us. And now we are more grandparents than 
parents because now there is other people that have come 
through the trenches and they have become moms and dads, you 
know, to their spiritual children. But it's--you can't get away 
from a family ambiance.
    I mean, we're there when they're married and we see them 
when they have their children and we help nurture them what it 
is to be a husband, what it is to be a wife. It's a family 
thing because that's the gospel. It's a family, so you don't 
ever get away from them, you know. I mean, and they don't ever 
get away from you.
    For example, we have--oh, my goodness. I think some of the 
older sons, you have Jose Luis from Corpus Christi and you have 
Pastor David Perez from Austin. I mean, you have a lot of sons 
back here that they traveled with us through the years, I think 
if I'm not mistaken 27, 28 years already and they're still 
family. They're here today. So you don't get away from them and 
they don't get away from you. You're family. Once you walk into 
the gospel, you're family for life. I don't know if that helps 
answer your question.
    Mr. Souder. Yeah, it does.
    Mr. Freddie Garcia. Let me say something. See, when a 
person accepts Jesus Christ, like myself, when I accepted 
Christ, that's not the end of it.
    Mrs. Ninfa Garcia. No, it's a beginning.
    Mr. Freddie Garcia. It's a new life. The Christian life is 
a new--totally the opposite of the world we came from, totally. 
I mean, I grew up with criminals and drug addicts and 
prostitutes and gang members in my neighborhood.
    So when I accepted Christ and I was born again, it was a 
new life, but I didn't know how to live this new life. That's 
why I tell people when I got converted to Christ I lost about 
50 percent of my vocabulary because every other word was a cuss 
word. So right away that second that I was born again, I lost 
50 percent of my vocabulary. I couldn't speak that way no more.
    I was lost and I lost 80 percent of my conduct. My conduct 
was all wrong. Everything was wrong. Everything was criminal. 
Everything was scheming and conniving, so I had to learn how to 
live this new life and, Brother, I was scared to death. I said 
now what am I going to do because every word that I spoke, you 
can't speak like that. No? No, you can't do that.
    Mrs. Ninfa Garcia. You can't say that.
    Mr. Freddie Garcia. What am I going to do when 80 percent 
of my conduct I had lost, 50 percent of my vocabulary? And it 
was a new life. So they had to teach me how to live this new 
life through the Bible, and that's what I do with these guys.
    That's why we're always teaching the Bible because it's a 
new life and they don't know how to live it. They don't know 
how to live. They know how to steal. They know how to take your 
socks off without taking off your shoes. They know all that, 
but they don't know how to live this new life. They don't know 
whether it is the way God says to live it and that's what we 
do.
    And in the process of teaching them, their character begins 
to change. The Holy Spirit begins to change their character and 
their character begins to change. And this is what it's all 
about, you know, taking these people, walk them through their 
new life, just walk them through the new life and show them 
what--how we did it and what happened to us and what we have to 
learn. And this is what it's all about. That's why Ninfa said 
it's a family.
    Mr. Souder. Do you force anybody into your program?
    Mr. Freddie Garcia. Huh?
    Mr. Souder. Do you force people into your program?
    Mr. Freddie Garcia. No. It's all volunteer. It doesn't work 
like that. I wish it did because there is some hard-headed men 
and women. I wish I could take a baseball bat to them, you 
know, but it doesn't work like that. Everything is voluntary, 
if you go to the home on 39th Street, there is no bars there. 
Nobody locks the doors. There's nothing. It's voluntary. They 
can leave when they want to because they have to choose to want 
Jesus. You can't force it. It doesn't work like that and that's 
why it's like that, voluntary.
    Mr. Souder. Jubal, rather than call you Mr. Garcia, if I 
say Mr. Garcia or Jubal Garcia--Jubal, could you describe some 
of the challenges that you see as your ministries have evolved 
and as you see younger people on the streets and things kind of 
changing, what other kinds of pressures that you see here and 
throughout the other parts of your ministries?
    Mr. Jubal Garcia. I've talked to my father before, I said--
and I told him, Dad, you know, generations of the young people 
living now is completely different than the way you grew up. 
You know, in our generation now you can pretty much get ahold 
of anything you want to when you want to. And we opened up a 
can of worms by giving young people so much access to anything 
they want.
    And I think what has happened is, you know, young people, 
these young people are searching for their identity, you know, 
and most young people that I talk to--I deal with a lot of 
young people and the problems I deal with is this, they grow up 
in a family--whatever family they grow up in where they have to 
live a certain kind of life with their parents. And they go to 
a school and they got to act a certain way with their friends. 
And then they go--you know, the peer pressures of the 
neighborhood and they got to act a certain way.
    So you got young people that are having to live different 
identities and they don't have one identity, so they spend 
their whole life trying to find who that are.
    And that's one of the main problems with young people and I 
think a lot of young people don't see themselves--the value in 
who they are, and that's one of the big problems that we deal 
with, young people not seeing their value and people in 
general, but many young people that we deal with. And that's 
why a lot of young ladies allow themselves to be treated by men 
a certain way, allow themselves to be abused because they don't 
see a value in themselves.
    A lot of young men say, well, you know what, this is the 
kind of life I grew in so my whole family is like this. So, you 
know, I'm destined to be like this anyway, so they allow 
themselves to be like that. And the beauty of what we're doing 
here is with the young people, and young people is a strong 
focus in what we do.
    We did an interview with Fox one time and they asked me, 
well, what--you know, what's your goal in your life? Your dad 
has a vision. I said, ``Well, I think my goal is to put my 
father out of business,'' I said, ``because if we can prevent 
them at an early age, he won't have to rehabilitate them at a 
later age, so we're hoping to put him out of business.''
    And that's the beauty of what God has called us to do 
because reaching a young person at an early age gives them 
their identity in Christ and says, look, this is who you 
become. When you accepted this in your heart, you not only 
become a child of God, but you receive a father. Someone who's 
there with you that will never leave you. Someone that will 
never lie to you, break a promise to you, never hurt you, never 
abuse you and you have that identity of who you are. Now you're 
a person in Christ that God not only loves you, but he gave his 
only son for you.
    And I was telling my dad, I said, you know, the value of a 
person and a young person is extremely important for us to 
teach them who they are because, like I said, when something is 
not valued, it's thrown away. And I told my dad I said--you 
know, I was going to show this to some young people at a youth 
conference and I said there is determining factors in value. 
One of them is who designed it. You know, a shirt can be more 
valuable because of a designer. And I told these young people 
the question is who designed you. Well, the Bible says in 
Genesis that God created you, so your designer is God. That 
gives you value. A second thing is of determining factor of the 
value is how much did it cost. Well, we can determine by the 
price of an automobile what it's worth. The question is this, 
how much did you cost? Well, Jesus--the Bible said that God 
gave his only son for you. That gives you value.
    And I think one of the greatest things that we deal with is 
allowing teenagers to see--young people to see their value in 
who they are. And once you see yourself--the value in yourself 
in Christ it raises not only your self-esteem but your way of 
living. You won't allow yourself to be put in situations that 
you would before. You won't do the things that you would before 
because you see, hey, I am somebody. Jesus loves me and he has 
given me an identity of who I am, and that's one--I think 
that's one of the greatest problems we deal with is letting 
young people know, hey, look, we love you, but we don't love 
you for what you can give us or what we can get out of you. 
Man, we love you because there is love inside of us and Jesus 
loved us. We want you to experience the same transforming power 
that Jesus did for us. So that's one of the strong things I've 
dealt with young people, man, their identity.
    Mr. Souder. We have two other panels, but just a couple 
more questions I want to ask. One is I alluded to that I had 
talked to several people, but I want you to verify whether this 
is occasional or often. If somebody comes to you as a cocaine 
or a heroin addict, do you believe that it takes a long 
physical rehab program or do they go relatively cold turkey in 
your program? How do you deal with that?
    Mr. Freddie Garcia. I believe in cold turkey because they 
get it out of the way. You know, cold turkey is the fastest way 
to get off of drugs, and we do that. We still practice that. 
They go through cold turkey. And drugs is not as bad as it used 
to be when I was using drugs, you know. When I was using drugs, 
you know, heroin was, you know, pretty good heroin and you 
couldn't kick a habit. But I mean, and when you kicked it, you 
could--when you're kicking a habit, you couldn't eat. You would 
vomit if you tried to eat something and it was--you know, it 
was bad. Drug addicts come to my program now. Now they eat and 
that's--you're not hooked on drugs. Your hooked on food, man. 
You know what I'm saying? They tell me that methadone is better 
than the heroin in some patients. Do you see what I'm saying?
    But I believe in the cold turkey method because I went 
through cold turkey and you can just get it out of the way. You 
know, when I kicked it, it took me about 3 days to a week to 
kick, but a couple of weeks they're off of it. They're off of 
it physically, but the mind habit you can't shake it loose. 
That's the--the worst problem is the mind habit, the 
psychological habit because you can kick it in 2 weeks, the 
physical habit, but the mind habit you have it every day, every 
day. That's what you can't kick.
    Mr. Souder. Have any of those individuals going through 
that program had to go to the hospital for any kind of 
emergency treatment? Does it happen occasionally or often?
    Mr. Freddie Garcia. Every once--I remember when I was 
running the program, I think maybe once or maybe twice I took a 
guy to the hospital, but other than that most all of them went 
through cold turkey.
    Mr. Souder. And how many would you roughly say have gone 
through that process, 100 people, 500 people?
    Mr. Freddie Garcia. About how many people, Jack?
    Mr. Willome. Here in San Antone? Let's just talk about San 
Antonio.
    Mr. Souder. Just talk about San Antonio.
    Mr. Willome. I'm just going to guess at least 10,000. As 
far as going through this initial withdrawal, the physical 
withdrawal?
    Mr. Souder. Yes.
    Mr. Willome. I would guess.
    Mr. Souder. I wanted to put it in perspective that maybe 
one or a couple.
    Mr. Willome. These are experts. You're listening to experts 
here.
    Mr. Souder. Yeah. And what's important--and the reason I 
want to have this in the record is that directly contradicts 
other testimony we have received from hospitals, it can't be 
done. Now, what I think--and if unless somebody is really 
spiritually prepared, there is danger.
    Mr. Freddie Garcia. But listen, Mark, this is what 
happened, remember that when they come to our program and 
they're kicking cold turkey, we begin to pray them through and 
that does a lot. But I've seen guys--I've seen this, I've seen 
this in my program and other Christian programs that when we 
pray for them, some of them can't kick it. They don't get sick. 
I've seen it and I got sick. When I kicked my habit, I got sick 
but not as bad as I did before because they prayed for me. They 
prayed my through and this has a lot to do with it. Do you see 
what I mean?
    Mrs. Ninfa Garcia. I think Jack wants to share something.
    Mr. Willome. When I started hanging around over here and I 
would go back into the back dorm room of the home--you know, 
these folks don't allow any pedestrians. There is no bystanders 
in what they're doing. So, you know, like immediately they--you 
know, we talked to the guy. I mean, I had never talked to a 
heroin addict before. I had never talked to a cocaine addict 
and so when you start getting to know them, you visit with 
them. Well, they--you know, Roman who was the home director 
would say, ``Jack, let's pray for this guy. I mean, we're just 
not going to be here and visit this guy. This is serious 
business. It's life or death stuff. Let's pray for this guy.''
    Well, I mean, that touches you. And so I started inviting 
friends of mine, business people to go over here and people who 
would--you know, were not interested in spiritual things and 
I'd take them over there and they'd go back into the dorm with 
me and all of a sudden they're invited to pray with somebody. I 
mean, you know, maybe they had never prayed in their life. OK. 
Some of them would stand there, but the love of God in this 
place is touching.
    And when you see a guy who 90 days before was a murderer 
with the Mexican Mafia who's laying hands on and back rubbing 
and feeding and cleaning up the vomit of a kid coming off of 
heroin, you experience the love of God for you, for me. I 
experienced the love of God for me when I'm in that place. And 
I take--this is what--this is the alternative to methadone and 
sedatives and the medications that they give in the hospitals 
and the emergency rooms and so on is the anointing of the love 
of God that's flowing through the people in this place.
    And I'll take friends over there and I'll say, look, I 
don't care what your experience with God is, what your attitude 
toward God is. I know a place where I can guarantee you will 
experience the love of God for you. Now, that's a rash promise 
to make. All right. I mean, that's a very rash promise. And 
inevitably these guys will be over there standing in that yard 
with tears streaming down their face because through the love 
that's being expressed there, they're experiencing God's love 
for them and that's how the detox happens.
    Mr. Souder. I'd like to ask you a couple followup questions 
I need to just get on the record here. One is that because--let 
me think the way I want to do these. One is do you believe from 
what you know about bureaucracy and government funds--you 
raised the question of, will those kind of funds touching a 
ministry like this wreck the ministry? Because they will come 
with strings. There is just no such thing as tax----
    Mr. Willome. Jubal and I went to a seminar in Waco that was 
to train faith-based organizations on how to apply for funds. 
And one of the principles that I learned there, which made 
sense, is that in organizations or agencies receiving Federal 
funds is like an arm of the Federal Government, that those 
moneys are given for a specific purpose. You can't even have 
them in your bank account overnight. That's what they told us, 
right, Jubal?
    If you like buy a computer with the money, that computer is 
like the government's computer that you have custody of. OK. 
And I cannot see Victory Fellowship as an arm of the Federal 
Government. I mean, I just can't.
    Mr. Souder. The court rulings are pretty specific. We don't 
know the ultimate rulings because there is going to be a lot of 
lawsuits with this, but that a computer is known as a secular 
instrument. The software actually advocates, in other words, or 
a bed is kind of religious neutral, but the staff isn't.
    Mr. Willome. Uh-huh.
    Mr. Souder. That one of the questions is could there be 
help in an electrical bill or a building bill much like we do 
in other types of debates and does that ultimately get the hand 
of government in that they're going to say as--this is kind of 
a funny story Chuck Colson told us the other night that he was 
asked to speak at a high school graduation and just before he 
got up the principal said, ``Just whatever you do, don't 
mention Christ.'' And he said that kind of took his speech 
away. So he started out by saying, ``Today I'm going to talk 
about tolerance and how you--and teach you about tolerance 
because I'm going to talk about Christ.'' But there are 
definite rules of what you can do with government money and one 
is not to directly advocate and that becomes problematic. And 
you're right at the edge of that.
    One way we're trying to address that in faith-based is 
through charitable contributions, in other words, that 
everybody would be eligible for and pretty much supported all 
the groups involved and will probably now go through 
unanimously. We had a compromise bill that we put together last 
fall and the President had picked that up now and that's likely 
to move through.
    The second part of these training conferences, which I and 
the people who oppose the bill, agreed with a compromise last 
year and now it's starting to move through to kind of--Congress 
put its anointment on what the President is doing unilaterally 
right now on these training conferences, that even those 
opposed Jerry Nadler and Bobby Scott, Chaddock Wards and others 
support that you can do the training conferences for the faith-
based groups of how to approach foundations.
    The big debate is can you get funds? And then it's 
absolutely clear that you can't--if this was the only program 
around juvenile delinquency or drug treatment, you couldn't do 
that. The question is what about if the person has choice. 
That's why I asked you if people have a choice, should this be 
one of the choices? And then the only part that you would be 
eligible for would be like beds and buildings, but you feel 
that you do not like put government fairly directly in?
    Mr. Willome. I'll just speak from my knowledge of Victory 
Fellowship. What they do, they do very well. And they are 
highly accountable to one another within their organization and 
within their culture. They're not set up to be accountable to 
outsiders and that's--in the fundraising we've done for this 
new facility, you know, in a few of the foundations we've 
worked with, you know, we've--we have some outcome measuring 
things that--you know, their outcome measurement has been what 
Freddie talks about.
    I mean, they're with these guys every day, every week and 
they measure through relationships and interpersonal 
transactions, not with paper documents or not with computer-
based documents. So, you know, I've said, look, you know, we 
can work on some outcome driven measurements here, but they 
know it's working, see. They know that they just have to do 
something because that's their rules. OK. And so I say, look, 
let's only put things in here that are going to be useful to 
them in managing more effectively what they're doing. And so 
they've been cooperative in that way, but they're not set up to 
build capacity. That's what you're talking about in an 
organization like this having to do----
    Mr. Souder. Right.
    Mr. Willome [continuing]. Is to build internal capacity to 
be accountable to outsiders. They're not set up that way. They 
don't think that way. They don't operate that way, and there is 
great danger of contaminating them and then having--ultimately 
getting things at odds internally and I just think the risk of 
that, you know, to me it's very great.
    Mr. Souder. I'm going to ask----
    Mr. Willome. It's very great.
    Mr. Souder [continuing]. Followup with this and I know 
we're way, way over on the first panel and I appreciate the 
tolerance of the other people who are here to testify, but let 
me--this is a huge----
    Mr. Willome. Could I mention one other thing? Because I've 
heard about vouchers, for example, you know, so that--like VA I 
think has a voucher program.
    Mr. Souder. For drug treatment, that's right.
    Mr. Willome. OK. Where these guys come from, OK, they find 
them on the streets. OK. How in the world is a drug addict on 
the street who's beating a dealer over the head with a billiard 
ball in a sock to get drugs--I mean, that's an occupation with 
a short life expectancy, right? OK. So he's a veteran. Now, 
this guy is going to go and get a voucher?
    Mr. Souder. The voucher would be if he came in to a program 
like here, they could notify them of how to get into the 
voucher system.
    Mr. Willome. But then, see, then you get into who's the 
``they.'' I mean, once you start getting into the way this 
thing is set up, setting up the ``they'' inside of Victory 
Fellowship.
    Mr. Souder. That's the accountable question.
    Mr. Willome. Yeah. OK.
    Mr. Souder. In that accountable--because you're right. The 
individual isn't going to know anymore, but the people who get 
the current programs, the money--a voucher flows to the 
individual. When the individual checks in, then they would 
have--the money would flow to them, but the institution would 
be responsible which means reporting.
    Mr. Willome. Let me just----
    Mr. Souder. And then the reporting question that the--in 
the sense of our problem ultimately is that the people with the 
vision that you just described, individuals who feel called to 
do something are activists and they're not what's in Washington 
called Beltway Bandits or people who know how to do that.
    Mr. Willome. Right.
    Mr. Souder. Often the people who can do the paperwork, what 
we find, are not necessarily the people who are in the 
neighborhood, and what we're trying to figure out so who do 
we--is there any way to measure these two things? And here's 
the problem. One of my friends who worked in the Reagan 
administration did this and they relaxed the paperwork and the 
accountability and we were robbed.
    Mr. Willome. I see.
    Mr. Souder. There were groups--that the problem is not 
everybody is like this organization, and it costs more to have 
the auditors come out to interview everybody than we gained in 
the effectiveness. And the problem here is that like when I 
spoke to the conference of the treatment providers earlier this 
spring, they said you require the paperwork of Hazelton, and 
you require the paperwork of Mayo Clinic. You require the 
paperwork of Johns Hopkins. How come you wouldn't require the 
paperwork of these groups? That isn't fair.
    Mr. Willome. I would agree. And Freddie's probably not 
going to like me saying this, but Victory Fellowship doesn't 
need it. I mean, a couple of years ago I took a friend over to 
the home and he said, ``Jack,'' he said, ``you know scripture 
says we're going to go to the byways and bring in the poor and 
have a banquet.'' He says, ``I want to have a banquet for 
everyone at the Victory home. What would it cost for me to like 
feed them for a day?'' I said, ``I don't know, but I'll see if 
I can find out.'' Well, I asked and nobody knew. So I dig 
into--they have audited financial statements. Nobody looks at 
them. OK. They have an accountant in Chattanooga who prepares 
financial statements every week. They get filed in a drawer. I 
found the drawer, I pulled them out and I go--because nobody 
ever looks at them. Nobody knew because they were doing it for 
somebody else.
    OK. So I look at them and a year before--this was in the 
year 2000. OK. For the food that they purchased that was served 
out at Freddie's house and the home, which--because they 
operate in synchronization form the standpoint of feeding 
people. There were 100,000 meals served at those two places in 
the year 2000. OK. And their total food cost was something 
between $40,000 and $50,000, of the food that they bought, not 
the value of the food they served, but the food they bought 
because so much of it was in kind. I mean, their cost per 
person per day at the Victory Home on 39th Street is about 
$3.50.
    Now, how do you even--what does it cost for a prisoner to 
be in prison for--I mean, you can't even compare that to any of 
our traditional social approaches to doing things, but it's 
working. And where is that money coming from? Again, it's 
coming from the people giving generously out of gratitude just 
like you described with Juan Rivera. You know, how grateful are 
these people when they leave? They never leave. They're part of 
the family. And so they become effective contributing citizens 
and they give back. They give back generously and 
extravagantly. Percentage-wise is beyond anything you and I 
could comprehend. Beyond anything--you can't tax advise them 
enough. They're not doing it for tax incentives.
    Mr. Souder. The problem that we face--and I really 
appreciate your boldness of your testimony, and I think that 
what you're fundamentally saying is that God sees the benefit 
of what they're doing and he's blessing it to the ability they 
handle the blessing.
    Mr. Willome. I'd just like one more thing. What they need 
from the government is, first of all, respect for what they're 
doing and understanding of what these faith-based organizations 
are doing, and to cooperate with them and let them alone to do 
what they're doing. So I mean, because, for example, you know, 
when a guy is going through withdrawal like Freddie is talking 
about and everything, OK, we have to be careful and not call it 
detox. Why? Because that term fits into other kinds of 
categories that we may be breaking a law because the people 
over there that are--this former Mexican Mafia guy that's 
rubbing the guy's back and so on isn't a licensed counselor or 
he isn't a nurse or he isn't medically--no medicine. If we call 
that detox, what they're there for we might get in trouble with 
somebody.
    Well, why is that? You know, why do we have rules like 
that? You know, why can't we--why do we have to be careful and 
not call this a rehab home, you know? It's not a--we're not 
doing traditional rehab. This is a character transformation 
place. OK. But if somebody slips up and calls it rehab, we can 
get in trouble with the government. Everyone there is a 
volunteer. They're not paying anything. We're not getting any 
government funds, but we can still get in trouble by their 
misuse of a term.
    OK. This whole licensing issue and accreditation issue and 
so on, I mean, frankly just the cooperation and support from 
the government to allow these people to do what they're doing, 
you know, without having to be--if they're not getting money 
and so on, why is the government asking for accountability? I 
mean, that's where we've gotten into issues here.
    Mr. Souder. Can I ask you a question with that to show you 
that--the dilemma. I met with a representative years ago. I 
think he was Ute, Native American, and they argued--and it's a 
little different because they had government money, but the 
argument is with the Native Americans. It may have been their 
money. We took their land and it's not exactly our money, their 
money. It's a little confusing in this case.
    Mr. Willome. Right.
    Mr. Souder. But he was upset because the government said 
that if a member of their tribe wanted to go to a hospital, 
they had the option that he believed they should go through 
medicine men and that's the only medicine the tribe wanted to 
have on that reservation.
    Mr. Willome. I mean, I don't think you really--I mean, this 
is a guy that's a----
    Mr. Souder. Voluntarily coming----
    Mr. Willome [continuing]. That's a addict on the street 
that they're going out and appealing to with the love of God 
and inviting him in essence to come into their home to live 
with them. It just happens to be a hundred living in their home 
and they're paying nothing and they're staying there 
voluntarily and they can leave anytime they want. This is not a 
client. This is a friend. This is a guest.
    Mr. Souder. Ninfa.
    Mrs. Ninfa Garcia. I'm in the same line that he was 
speaking about. I was remembering going back to when they 
initially wanted to close us down. It was Mike from the Texas 
Drug and Alcohol Commission that spoke with me, and he said, 
``I don't want you guys using the word counselor in your 
paperwork.'' And like he said, ``I don't want you to use the 
term detox, you know, in your paperwork.'' I don't want you to 
use--for example, we had some brochures that he had that says 
if you're hooked and need help, call. See, but we're looking at 
it from a spiritual perspective and there is a lot of little 
things.
    Mark, for example, like my son, he works with the young 
people. And Freddie was saying, look, this is a double standard 
in the sense. Pastor Freddie says I'm qualified to work with a 
young person Sunday, all day Sunday I can bring them to my 
house, you know, or at the church. He says but Monday through 
Saturday I'm not qualified because I don't have a degree. The 
rules says you can't bring a child in unless he's been 
diagnosed, service plan implemented. It sounds good on paper, 
but can you see a young person coming in at 2 or 3 a.m., 
Freddie, let me in, they want to kill me. Sorry, because you 
have not been diagnosed and a service plan has not been 
implemented for you. See, so it sounds good in a theory form, 
but we're dealing with issues that it's a matter of life and 
death. And we're presenting the gospel.
    All we ask is, look, we're not asking for your moneys. We 
could sure use some of the moneys, you know, but if it comes to 
nothing, all or nothing, just let us be free to be able to work 
with these people without that cloud, that shadow of somebody 
coming in and tearing down the whole thing because we don't 
have ``the qualified experts.'' Mark, we are the qualified 
experts because we have been down that road, and we know where 
it hurts and we know how it feels and we have a solution found 
in the person of Jesus Christ.
    Mr. Souder. Thank you. Is there anything else anybody would 
like to add before we----
    Mr. Freddie Garcia. OK. Well, they say that we're not 
qualified because we're not certified. Well, we're qualified, 
but we are not certified. My men, these are the experts. And I 
challenge any expert in the Drug and Alcohol Commission all 
over Texas to produce more cured drug addicts than Victory 
Fellowship has done here in San Antonio. I challenge them. I 
did it on national TV, challenge them.
    See, I don't have no degree, that's true. I don't have no 
bachelor's, no master's or no doctor degree, but I've got an 
education out there on the streets that you won't find in Yale 
University. That's right. And my track record speaks for 
itself. This is my degree. When you see all these men washing 
dishes or cleaning a car or working in the streets or whatever, 
those are my qualifications that I'm called by God. Change 
lives that nobody could change, no psychiatrist, no 
sociologist, no group therapist could change them, but Jesus 
Christ did it in a second and it works. And I have men like 
this all over Texas, all over South America, all over Mexico 
that are cured drug addicts by the power of Jesus Christ and we 
are qualified. Like Ninfa said, we're the experts, we're the 
experts in this field. In my field I'm an expert in my field 
and I just thank you for letting us say what we feel in our 
heart.
    Mr. Souder. I thank you for your testimony today and your 
years of work and congratulations to each of the graduates and 
the continuation in following their commitment to Christ 
because it's a great seeding impact far beyond. Your program 
isn't a drug rehab program. Your program is a juvenile 
delinquency program. It's a housing program. It's a spouse 
treatment program. It's a child abuse treatment program. If you 
change lives, it's comprehensive. Thanks a lot.
    Mrs. Ninfa Garcia. Thank you.
    [The prepared statement of Mrs. Garcia follows:]
    [GRAPHIC] [TIFF OMITTED] T1133.001
    
    Mr. Souder. If the second panel could now come forward. Mr. 
Philip Dautrich, program manager for the InnerChange Freedom 
Initiative, Carol S. Vance Unit, Richmond, TX; Mr. James 
Peterson, InnerChange Freedom Initiative Graduate; Mr. Greg 
Kepferle, executive director of Catholic Charities of Central 
New Mexico from Albuquerque, NM; Mitch Sudolsky, Jewish Family 
Services from Austin, TX.
    And you heard our drill. I'm going to have you each stand. 
Normally we do it standing, but Freddie wasn't able to. Will 
you raise your right hands?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    I appreciate your patience, appreciate you coming today. 
It's a good and healthy and comprehensive debate as you can 
hear we're having at the Federal level ranging from groups like 
what we heard from this morning of we don't necessarily want 
the Federal money, we want to be left alone to groups say we 
want as much Federal money as we can get but we don't want any 
restrictions to we like the way the current system is. And I've 
read through your testimony and I appreciate you coming today 
and look forward to being able to get into the record and then 
have some interchange. So let's start with Mr. Philip Dautrich.

  STATEMENT OF PHILIP DAUTRICH, PROGRAM MANAGER, INNERCHANGE 
                       FREEDOM INITIATIVE

    Mr. Dautrich. Thank you, Congressman. I just want to 
welcome the opportunity to testify today to the life changing 
events taking place in Houston, TX at the Carol S. Vance Unit.
    It is always a pleasure to speak about what God is doing 
and what he continues to do at the Carol S. Vance Unit in Texas 
and how really His presence is transforming the offenders from 
basically repeat menaces to refined productive citizens that 
we're seeing right now in the Houston area and currently or 
very closely in the Dallas area.
    If I could start, recently Bruce Wilkerson wrote the--the 
renowned author and pastor wrote the book of Prayer of Jabez 
and basically what he said was words--excuse me, ``Lord, 
enlarge my territory.'' And that was the basis of this change 
in prayer, but if I could, let me shift to a paradigm of 
another territory, that's the Texas Department of Criminal 
Justice.
    This territory has seen a tremendous expansion in the last 
10 to 15 years. TDCJ has definitely enlarged its territory. And 
let me just read this off to you real quick. Stemming from an 
agency that included 16 units and a prison population of 20,000 
in 1972 to the 1987-1990 era that rose to 40,000 offenders and 
35 units, to the present day, where we are funding an agency 
that runs 105 units and numerous State facilities that houses--
and the numbers back and forth are right now at about 145,000 
offenders, men and woman, in the State of Texas. Basically that 
territory has been enlarged.
    In my humble opinion, I think the great State of Texas does 
an excellent job of incarcerating offenders. We do. It's such a 
large institution that we have to do that, but due to the large 
numbers and the size of the agency we have trouble meeting the 
objectives and mandates of the correctional system, obviously. 
And that is rehabilitating and reducing recidivism.
    We've got a problem and I'm here today to point out--not to 
point out a fault or explain why our population of incarcerated 
felons is so high. That would just preempt a reactive slate of 
actions that would suggest more crime, build more beds. This is 
not the answer at this time in our State obviously.
    The general consensus among society is that crime is a 
problem of poverty, but recent research shows that poverty has 
almost nothing to do with crime. I think that's just basically 
people get that in their minds. A large percentage of Texas 
offenders--and I say Texas offenders is who we deal with--have 
no family structure and the presence of any spiritual dynamics 
are absent. Offenders see individualism as a key to motivation 
and survival and elevating their own needs above the needs of 
others.
    And research shows that crime is a result first and 
foremost of individual moral choices, rather than sociological, 
environmental or economic forces.
    And I really believe the eradication of biblical principles 
and morals among the family is one of those contributors. Self-
control, goodness, patience, love, to name a few are almost 
nonexistent in today's families. And we'll look at it in just a 
minute, especially looking at the background of offenders. As a 
Christian, I personally believe and I've taken an interest in 
this growing dilemma and that the moral principles found in the 
Old Testament are what this nation was founded upon and they 
are never changing.
    And I truly believe that faith-based organizations which 
embrace these basic moral principles are a key to transforming 
offenders and to enable them to play active and positive roles 
in our communities. The faith-based initiative is a true, 
proactive approach to develop leaders for communities of 
tomorrow. I think for so long we've been reactive to problems. 
Things get bad and we react. InnerChange and our partnership 
with TDCJ has began a proactive approach and I'm going to 
address some of those a little bit later.
    But before I go any farther, I'd like to set just a tone 
for the rest of this afternoon in speaking about where we are 
today and the new horizons as Christians and you as one of our 
leaders can help us with. This committee has an opportunity to 
expand the role of faith-based organizations into all facets of 
the criminal justice system. I think it's best probably 
described in the book of Matthew, as Jesus is standing on the 
mount, he is speaking to a great crowd and he says, ``Whoever 
shall compel you to go with him one mile, go with him 
another.'' And I believe right here in the blink of an eye 
Jesus commands us to continue the good work.
    There so many people--we've just heard testimony from a 
community here that has continued the good work. They've just 
continued to go on never looking back. No matter what 
boundaries are set before them they continue to go. And I 
really believe that Chuck Colson over 25 years ago went this 
first mile when he promised those group of inmates--as he was 
an inmate himself, he promised them, ``I'm never going to 
forget you.'' And today we stand 25 years plus later that 
prison fellowship is serving offenders across the United 
States, prisons throughout the world. Currently IFI 
InnerChange, as I'll refer to it today, is in Minnesota, Kansas 
and Texas as well as Iowa.
    Mr. Colson traveled that first mile and he really did. 
That's the unseen mile of his morals, his Christian beliefs. I 
believe that in itself is a statement that has never been 
demonstrated before. I honestly do.
    This committee, again, has the opportunity to be that 
vessel, to be able to carry this throughout the United States 
and again possibly throughout the world.
    You've heard the old adage in the verse without vision that 
people will perish, and I really, truly believe that. We've got 
people perishing all over because the vision is not clear. They 
can't see the vision because of a number of things.
    Really today--and I know that you know this. As the recent 
results were just published, the Texas Department of Criminal 
Justice Policy Council along with Dr. Byron Johnson from the 
University of Pennsylvania just released a study, a 2-year 
study. And we're very excited to see that study come out as 
we've been waiting for the last 6 years for that to happen.
    We felt like instead of doing an independent study that the 
State of Texas need to complete their own study as well, as 
they do with all of their programs and services. What we've 
found with InnerChange is with the inmates who completed the 
program, only 8 percent returned to prison within 2 years 
compared to the test group of 22 percent, basically was we 
looked at the same offenders that had the same criteria that 
could go into the program but chose not to, we had a 22 percent 
recidivism rate. Then compared the general population, men and 
woman that looked at around 47 percent in the State of Texas. 
So the bottom line is almost one of every two that are getting 
out are coming back, and that bottom line comes to dollars and 
cents to the taxpayer.
    Additional studies on the InnerChange Freedom Initiative 
are soon to be released, and again we believe is a key piece of 
research supporting the faith-based agendas.
    Let me talk a little about InnerChange very quickly. In 
1997 we had a group of 26 offenders that came into the Carol 
Vance unit that volunteered for the program, and the basis of 
this program is they do volunteer. Nothing is forced upon them. 
When they started we--the unit was really not ready for that. 
You know I say that, the Texas Department of Criminal Justice 
said, well, we have a unit. Here it is.
    It's close to Houston. Why did we pick this unit? Because 
of the parolees and the amount of parolees that were coming 
into Harris County and the surrounding counties and we began 
there in 1997.
    I truly believe that InnerChange is a--defines really the 
concept of restorative justice. You know, a couple of years ago 
or several years ago restorative justice, what was that? 
InnerChange seeks to transform. You've heard testimony this 
morning about the love of Jesus Christ and how it transforms 
men. It begins in the heart. The heart changes, the mind begins 
to change in the way of thinking.
    At InnerChange we identify the wrong moral choices of sin 
bottom line, which you heard this morning was not about 
addiction, was not about crime and this and that, that it was 
sin in their life. Sin in all of our lives. We're all sinners 
as we may know. But InnerChange emphasizes to the offender that 
if they turn from their past and are willing to see the world 
through God's eyes and surrender themselves to God's will, that 
this in turn will be the basis of a restorative foundation for 
a new life, a new generation.
    Let me just say this, InnerChange encompasses a number of 
things, and obviously you'll have an opportunity to answer--ask 
me some questions later, so I will turn it over to Mr. James 
Peterson. Thank you.
    [The prepared statement of Mr. Dautrich follows:]
    [GRAPHIC] [TIFF OMITTED] 91133.002
    
    [GRAPHIC] [TIFF OMITTED] 91133.003
    
    [GRAPHIC] [TIFF OMITTED] 91133.004
    
    [GRAPHIC] [TIFF OMITTED] 91133.005
    
    [GRAPHIC] [TIFF OMITTED] 91133.006
    
    [GRAPHIC] [TIFF OMITTED] 91133.007
    
    [GRAPHIC] [TIFF OMITTED] 91133.008
    
    Mr. Souder. Thanks.

  STATEMENT OF JAMES PETERSON, INNERCHANGE FREEDOM INITIATIVE 
                            GRADUATE

    Mr. Peterson. Good morning. Congressman Souder, and members 
of the Committee on Government Reform, I'd like to thank you 
for the opportunity to be here and share with you today 
regarding the faith-based community's ability to deliver 
effective social services.
    You just heard from Philip Dautrich, our program manager 
for the InnerChange Freedom Initiative Program at the Carol 
Vance Unit in Richmond, TX. He shared regarding the 
effectiveness of this program, which is a Bible based Christ-
centered program operating within the Texas Department of 
Criminal Justice.
    I stand here before you today as one of the men, a graduate 
of the InnerChange Freedom Initiative whose life has been 
changed and has been restored as a vital functioning member of 
the Houston community. I always welcome the opportunity to 
share with others what God has done in my life.
    Just a short bio here for a foundation for the talk. I was 
born and raised in Alice, TX in a Christian home. I was taught 
right from wrong from a Christian mother and father, but 
somewhere along the way I decided that I had a better idea. 
Mine led to a path that ultimately landed me within the 
confines of the Texas Department of Criminal Justice 
Institution Division as inmate #733885. I could blame it on a 
lot of things, but I won't. I decided that I would make 
decisions for my life about what was right or wrong outside of 
the context of the Bible or accepted cultural norms. I never 
did drugs because they were illegal; however, for some reason I 
never applied the same principle to the ownership of other 
people's money.
    In 1995 I was remanded to serve an 8-year sentence in the 
Texas Department of Criminal Justice Institutional Division. I 
served time at the Stephenson Unit and Estelle Unit. While at 
the Estelle Unit in 1996 I visited the chapel library and read 
a book entitled ``The Body'' written by Chuck Colson, the 
founder of Prison Fellowship Ministry who had served time for 
his Watergate crimes. While reading the book I became convicted 
of my former lifestyle and become acutely aware of the wrongs I 
had committed against society and those who have been closest 
to me. The book also gave me a very clear picture of what God 
had designed the church to be in the world. Colson describes 
the church as Jesus' hands and feet in the world as it seeks to 
minister to the less fortunate and needy. I saw where I had 
missed the boat and the change would require me to build my 
life upon the solid foundation of the teachings of Jesus.
    Shortly after reading that book I became aware of a program 
that was beginning at the Jester II Unit, now the Carol Vance 
unit in Sugar Land. It was started by Prison Fellowship 
Ministries founded by Chuck Colson, the author of the book 
that, had profoundly opened my eyes. I applied for and was 
accepted to be a member of Group 2, which began the InnerChange 
Freedom Initiative program in August 1997.
    After 5 months into the 18-month program I was given an 
opportunity by the parole board to leave the confines of the 
institutional division and was offered parole for April 1998; 
however, something happened in the next couple of days. I 
thought about my past. I hadn't graduated from college. I was 
divorced. I had lacked a commitment to completion from early in 
my life. I had been a great starter but a lousy finisher. I 
decided if this change in thought and deeds was to be serious, 
it would have to start now.
    So after lots of prayer and discussions with the staff of 
the InnerChange Freedom Initiative I decided to ask the parole 
board for an opportunity to complete the program at the Carol 
Vance unit. My request was granted. I was the first person in 
the history of the State to request permission to spend 
additional time in prison to complete the InnerChange program. 
So I completed the program and was released to mandatory 
supervision on February 26, 1999. I will complete my parole 
supervision on October 25th of this year.
    A question many people ask me even to this day, was the 
extra time worth it. My reply is always certainly. When I look 
at my life today compared to what I thought it would be, I am 
always able to affirm my decision once again as yes.
    Since my release to mandatory supervision I have been 
working in the reentry and after care portion of the 
InnerChange Freedom Initiative program as the after care 
assistant. I assist men from the Houston area community who are 
seeking to live a transformed life. An integral part of this 
reentry process is reliant on community involvement, especially 
the Christian community.
    Prior to release each InnerChange member is matched with a 
mentor hopefully close to the neighborhood in which he will be 
released. We also ask and expect each released member to attend 
a local nurturing church much like Memorial Drive United 
Methodist Church in west Houston which welcomed me back to the 
community and supported and encouraged me during my transition 
from institutional life to community life. These are two of the 
most critical components of successful reentry into the 
community; however, we also work with families and children of 
men and folk inside and outside of the prison as the family 
adjusts to the additional stresses and strains of an additional 
member being restored into the family.
    Two other critical areas which the local church community 
is essential in assisting a releasee with is employment and 
transportation. Upon release from the institutional division of 
TDCJ a person is given $50 at the gate of the prison and $50 
upon the initial report to the parole office to which he is 
assigned. That is a total of $100 with which to start a new 
life. The Christian community seems to be more open than the 
secular to giving releasees an opportunity to prove they have 
changed and want to live a productive life in the community by 
opening up job opportunities within their companies. Some 
churches provide assistance in transportation via bus service 
or even donate used vehicles releasees use during the early 
stages of reentry.
    In Texas I'm always amazed at how we spend thousands of 
dollars in taxpayer money to keep a person incarcerated, but 
provide almost no assistance to the reentry and after care 
phase once a person is released; however, with the report Dr. 
Byron Johnson released last week during a visit at the White 
House with President Bush, Attorney General Ashcroft and 
Secretary of Labor Chao, Dr. Johnson emphasized the importance 
of after care and reentry support. The design of the church is 
most--is the most likely place to find resources coupled with 
the personal relationships necessary to guide and direct a 
person from institutional to community life. In addition 
because of the foundational principles of the church, it is a 
gracious and understanding community.
    The gospel of Jesus Christ, which is founded on the 
principles of love, mercy and grace provide the proper 
foundation and support environment which will encourage a 
person to continue walking under the instruction of the Lord 
even amidst trials and temptations.
    Congressman Souder and members of the committee, I stand 
here before you as a living example of the success a faith-
based organization can have in providing social services to 
those in the community released from the criminal justice 
system. One of the core values of the InnerChange Freedom 
Initiative is restoration. As I stand here before you I can 
testify to the restoration that has taken place in my life.
    Two weeks ago I was present in the Roosevelt room in the 
White House. Two InnerChange graduates, Mr. Robert Sutten and 
Mr. Bernard Veal as well as myself shared the excitement of 
getting to meet the President of the United States. As he met 
with us and other key leaders such as Chuck Colson, founder of 
Prison Fellowship, and Mark Earley, former Attorney General and 
now the president of Prison Fellowship, as we sat in the 
Roosevelt room that day, President Bush affirmed the work that 
was being accomplished by the faith-based prison program called 
the InnerChange Freedom Initiative, which I might add is a 
program he had allowed to be in as he was Governor of the State 
of Texas.
    Not only am I a living example of the success, I could 
spend all afternoon sharing stories of successful persons 
reentering our communities from the criminal justice system 
that would move your heart just as it did in the Roosevelt room 
of the White House 2 weeks ago.
    I believe that we are on the edge of a great milestone for 
our country as we embrace the power of the faith community in 
restoring people to their proper place in their communities. As 
we restore fathers to their homes, and mothers to their 
children and mend families together once again, we will once 
again see the greatness on which our country was founded, sound 
biblical truths.
    It is time for the faith community to step up to the call 
that is being laid before them and work hand in hand with the 
governmental programs which can mobilize the armies of mercy, 
compassion and grace that are a body of Christ called the 
church which are located within our communities in which we 
reside. And I'd like to thank you once again for the 
opportunity to share with you today.
    [The prepared statement of Mr. Peterson follows:]
    [GRAPHIC] [TIFF OMITTED] 91133.009
    
    [GRAPHIC] [TIFF OMITTED] 91133.010
    
    [GRAPHIC] [TIFF OMITTED] 91133.011
    
    [GRAPHIC] [TIFF OMITTED] 91133.012
    
    [GRAPHIC] [TIFF OMITTED] 91133.013
    
    [GRAPHIC] [TIFF OMITTED] 91133.014
    
    Mr. Souder. Thank you very much.
    Next I want to hear from Mr. Kepferle. And we appreciate 
you coming over for this hearing and making sure the goal of 
these hearings are to try to get a sense for the region and for 
the diversity of the types of faith-based groups and Catholic 
Charities, of course, is one of the oldest and one of the 
largest, if not the largest in the United States. So thank you 
for coming. And we want to hear from the regional branches as 
we move around the country, not just the national, which has 
testified before our committee and will again I'm sure in 
Washington.

   STATEMENT OF GREG KEPFERLE, EXECUTIVE DIRECTOR, CATHOLIC 
                CHARITIES OF CENTRAL NEW MEXICO

    Mr. Kepferle. Thank you, Chairman Souder and members of the 
committee. My name is Greg Kepferle and I've been involved in 
faith-based organizations for over 15 years. What I'd like to 
do is just highlight some of my remarks and have--hopefully 
more time for dialog and discussion.
    Catholic Charities' mission is very simple. It's guided by 
faith and love. Catholic Charities provides help and creates 
hope by supporting families, fighting poverty and building 
community. And in New Mexico we do this by serving over 8,000 
people a year regardless of their faith with comprehensive 
integrated services, behavioral health, supportive services, 
education and training, and community and parish partnerships.
    We measure and monitor our effectiveness through rigorous 
outcome measures. We want to know not just how many clients we 
serve and how many services are provided, but what are the 
results. Are people housed? Have people's lives been changed? 
Are they self-sufficient? Are people getting jobs and keeping 
those jobs? So the key is what are the results?
    We also seek to measure the quality of services and change 
service methods based on those findings. For example, we found 
that training and connecting mentors with pregnant and 
parenting teen moms makes an incredible difference in the lives 
of these young women and children. And I just want to add that 
we've just started a mentoring program for ex-offenders as part 
our program as well.
    While religions have their specific and primary missions to 
support the faith life of their members and express their 
beliefs in society, they also have another mission, to care for 
those in need. As a Catholic faith-based organization Catholic 
Charities believes it has a unique way of providing effective 
social services in the community based on scripture and 
traditions of our church, not to be separate from society but 
to be engaged in society, to be both a provider of quality 
services that benefit the poor and vulnerable and to be an 
advocate for institutional or systems change that address the 
causes of poverty and misery. And part of that role is that 
with congregations and community organizations we are partner, 
mentor, ally and organizer to build collaborations and 
coalitions of service providers. And with government agencies 
we're a competent, grassroots means to accomplish the 
government's mission to achieve the common good. At the same 
time we advocate for the poor to remind government not to let 
go of its proper role in providing the means to care for the 
most vulnerable in society.
    The unique faith aspect to our work means that we are 
grounded in a spirituality and a religious and social ethic 
that motivates our work but never imposes those beliefs on 
those we serve. Services are provided because of our faith, not 
that of our clients, or another way of saying that is our 
services are based on need, not creed. Our clients say they 
appreciate our services because our volunteers and staff really 
care. To them we aren't just another bureaucracy but 
individuals who walk with them, listen and encourage them in 
the midst of their struggles.
    A simple way of describing our motivation is that by our 
faith we are obligated to care for in the language of Hebrew 
scripture, the widow, the orphan, the stranger and the poor, or 
to put it another way, we believe our job is to feed the 
hungry, give drink to the thirsty, clothe the naked, shelter 
the homeless, visit the sick and imprisoned and welcome the 
stranger, the least of these among us. We see this care for the 
poor as a duty, not just of the church, but of civic society 
and of government.
    None of us can do this alone. To the extent that our 
mission and the government's mission to provide for the general 
welfare overlaps, we have the possibility of a creative synergy 
of faith-based, civic and government resources to meet both 
society's needs and our religious duty.
    So in working with the government, the government has long 
recognized the value and importance of community and faith-
based groups in achieving its goals through providing for 
health and human service, housing, employment and international 
aid. The Catholic Charities like a number of community and 
faith-based organizations have participated in government 
funded programs over the decades providing refugee 
resettlement, legal services, housing, adoption, foster care, 
behavioral health and case management services with the help of 
local, State and/or Federal funding.
    In Central New Mexico and Santa Fe we have a very close 
working relationship with the Department of Housing and Urban 
Development in providing for homeless women and children and 
for senior housing. And also we have a current Compassion 
Capital Fund that work closely with the Office of Community 
Services out of HHS in a very creative program that we call the 
Stone Soup Collaborative. I think it is a model of the type of 
faith-based community initiatives that I would recommend 
replicating and adapting around the country.
    I'd like to talk about some of the positive aspects and 
barriers of working with government as a faith-based 
organization. One of the things with HUD is we've found HUD 
staff have been consistently professional, personable, 
responsive, patient and helpful in navigating the technical 
issues. We couldn't provide our services locally without 
relying on their years of experience and expertise.
    My second example is the cooperative agreement with the 
Office of Community Service at HHS. The new Compassion Capital 
Demonstration Fund is the most creative project I have seen 
coming out of the Federal Government. We're getting support 
from the staff of the White House Office of Faith-based and 
Community Initiatives and from the office of community service 
at HHS. Technical assistance support is constantly available. 
But there are barriers and while an obvious barrier might be 
the regulations and the time to complete the paperwork, 
Catholic Charities like most nonprofits experienced with 
government regulations accepts that as part of doing business. 
While regulations can be perceived as restrictive, as in any 
contract they also protect the integrity of the partners and 
clarify the terms of the agreement.
    As with all businesses, relationships and systems are key. 
Sometimes they work and sometimes they're problematic. 
Sometimes they're effective and sometimes there are glitches. 
At the same time the people within the systems, within 
government are people of goodwill and are doing the best they 
can with the resources, tools and information available.
    So the biggest barrier isn't the bureaucracy per se, but 
the lack of resources for social services in general and a lack 
of flexibility caused by limits imposed by categorical funding. 
Often Federal funding requires a match of 10, 25 or even 50 
percent which can be very difficult to achieve for smaller 
nonprofits and faith-based groups in poorer communities 
especially in rural areas.
    So in conclusion I have five general recommendations. 
First, government must not let go of its obligation to care for 
the poor, the homeless, the unemployed and vulnerable with the 
expectation that community and faith-based groups can replace 
the services and benefit programs. Practically this means 
Federal funding needs to be maintained for programs like social 
services, housing, food stamps, TANF, Medicaid and employment 
training programs.
    Second, churches and community organizations do not have 
the resources by themselves to take up the slack caused by cuts 
in government services. The relativity small amount of funding 
through the faith-based and community initiatives should not be 
seen as a replacement for those larger cuts.
    Third, with that being said, the faith-based and community 
initiative is the most creative program I've seen coming from 
the Federal Government perhaps since the Peace Corps. With my 
experience with Catholic Charities and our Stone Soup 
Collaborative, I believe the initiative needs to be expanded, 
but not at the expense of existing government funding of core 
benefits and services to the poor and vulnerable.
    Fourth, just as local agencies are being encouraged to 
collaborate, it will be helpful to expand the collaborations 
within the Federal agencies.
    And fifth, just as capacity building is being offered to 
faith-based and community groups, I believe that State and 
local governments could benefit from similar efforts.
    In closing, I understand that the faith-based and community 
initiative is attempting to influence structural changes within 
the Federal bureaucracy and that organizational change for 
institutions as large and complicated as Federal Government 
agencies doesn't happen overnight. Similarly this initiative is 
creating the possibility of organizational change for smaller 
community and faith-based organizations and the way they 
operate. This can create a positive change in terms of 
collaboration and transforming re-
lationships. My hope is that by strengthening this initiative 
of the Federal Government and replicating it at State and local 
level we can truly support families, fight poverty and build 
community. Thank you.
    [The prepared statement of Mr. Kepferle follows:]
    [GRAPHIC] [TIFF OMITTED] 91133.015
    
    [GRAPHIC] [TIFF OMITTED] 91133.016
    
    [GRAPHIC] [TIFF OMITTED] 91133.017
    
    [GRAPHIC] [TIFF OMITTED] 91133.018
    
    [GRAPHIC] [TIFF OMITTED] 91133.019
    
    [GRAPHIC] [TIFF OMITTED] 91133.020
    
    [GRAPHIC] [TIFF OMITTED] 91133.021
    
    [GRAPHIC] [TIFF OMITTED] 91133.022
    
    Mr. Souder. Thank you very much for your testimony. I will 
have some followup questions.
    Mr. Sudolsky, I've read your testimony and I appreciate 
that it's slightly a different direction. I hope you will give 
the whole testimony. We're going to insert everybody's 
testimony in the record, but I thought it was very thoughtful 
and it would be good to have the discussion. Appreciate it.
    Mr. Sudolsky. OK. So go ahead and testify?
    Mr. Souder. Yes. But addition to any summary, I want to 
make sure you make the major points in the record and then 
we'll insert it and then we'll pick up questions, too.
    Mr. Sudolsky. OK.
    Mr. Souder. It's your turn to testify and however you want 
to approach it, but I want to make sure that some of your 
points come out on the record because I want--I think they are 
very healthy for a debate here.
    Mr. Sudolsky. OK. I was not going to read my testimony. I 
was going to speak extemporaneously and cover the major 
highlights.
    Mr. Souder. We'll insert it into the record.

 STATEMENT OF MITCH SUDOLSKY, DIRECTOR, JEWISH FAMILY SERVICES

    Mr. Sudolsky. Congressman Souder, I wanted to express my 
gratitude for the honor of being invited down here. I feel like 
I'm truly participating in democracy and it's a real thrill for 
me as an American citizen. And I also appreciate your preceding 
comments about the fact that this is a debate because my 
opinions I'm about to speak on are a divergence from the other 
opinions that have been expressed.
    I'm the director of the Jewish Family Service of Austin. I 
am a psychiatric social worker with 30 years experience in the 
field and 25 years then following the receipt of my master's 
degree from the University of Texas. I have worked with kids 
from the streets of New York City. I've worked with juvenile 
delinquents from Buffalo. I've worked with substance abusing 
teenagers from Austin and chronically ill people from Austin. 
I've worked for 28 years in rural areas of northern New Mexico 
and southern Colorado with the very population. I've met with 
clients on the streets, in bars, in jails, in holding 
facilities in police station and in hospital emergency rooms. 
Like Pastor Garcia I do not have 10 secretaries standing 
between me and my clientele either.
    The last 12 years of my career have been spent in faith-
based organizations. I worked for 7 years in a regional medical 
center which was under the joint auspices of the Sisters of 
Charity and the Seventh Day Adventist health care group, and 
for the last 4 years I've worked at Jewish Family Service.
    What I believe the debate is about nationally and in this 
hearing is about that social workers like myself are in the 
business of behavior change. All of the other agencies that 
we've heard today are also in the business of behavior change. 
The issue is, in my opinion, whether the Federal Government 
should award funds to agencies whose vehicle of behavior change 
is religious practice. Catholic Charities, Lutheran Social 
Services and Jewish Family Service agencies, the Salvation Army 
and other faith-based groups have received Federal, State 
government funds for years.
    What I'm going to talk about today is in reflection of my 
own agency what other characteristics of groups like ours that 
are already eligible to receive government funds that make our 
agency successful and responsive to our communities and to our 
clients.
    At Jewish Family Service, for example, we only hire 
licensed social workers. Social workers are taught in their 
education how to diagnose and how to assess mental illnesses. 
We are taught about the literature, about the origins and 
treatment of various social pathologies like substance abuse, 
domestic violence, child abuse, homelessness, mental illness 
and many others. I believe that by hiring licensed 
professionals that this provides an assurance of quality and a 
standard to our clientele that protects our clients who are 
vulnerable people suffering from the worst ravages that we 
can--we've heard described already, that this provides our 
clients an assurance of quality and a standard of care.
    Second, we also use only science-based approaches. The 
distinction between what professionals do and what 
nonprofessionals do, whether its in the area of social work, 
medicine, nursing, physical therapy or any other health 
profession is that professionals know the science and the 
research on effective approaches to dealing with the problems 
that they are paid to address.
    I brought with me a RFP, a request proposal, from SAMHSA, 
Substance Abuse and Mental Health Services Administration, 
which as you know invites agencies to apply for Federal moneys. 
This comes from the SAMHSA Snapshot of March 2001. There is 
nothing in this that says faith-based agencies need not apply. 
What it does say is that the purpose--I'm reading from the 
document.
    The purpose of the review of the grant application is to 
provide a competent and objective evaluation of the scientific 
and technical merit of each application and to identify those 
applications that are of the highest quality. Now, what that 
means is that we are obliged as professionals to use methods 
that science has proven effective. The reason why this is 
important--I'll use an example of a case where a book was 
written about this particular case, where a faith based agency 
did not provide a standard of care by profession. The book was 
called ``Clergy Malpractice in America.'' It was written by 
Mark Rice and was published by the University of Kansas Press. 
A young man named Kenneth Nally sought help from a church 
group.
    This was the case of Nally v. The Grace Community Church of 
the Valley. The clergy said that they--that all mental 
illnesses were a result of the disconnect in one's relationship 
with God. It was a problem of the soul. They discouraged Mr. 
Nally from seeking psychiatric care. It was not made clear in 
this book, which was written by a lawyer, what his diagnosis 
was, but my inference was it was somebody who was suffering 
from major depression or bipolar disorder. The clergy 
discouraged him from seeking psychiatric care instead saying--
stating that the route to his cure was through prayer, and this 
young man unfortunately committed suicide and his family sued 
the church.
    After a 10-year legal battle, the Court ruled in favor of 
the defendants, the clergy, because there was no standard of 
care established for the clergy. There was no malpractice.
    If somebody comes to my office who was schizophrenic or 
suffering from bipolar disorder or depression or other mental 
illnesses that we know through scientific research have a 
behavioral component to them and I fail to refer that person to 
a psychiatrist for an evaluation for medication, I can be sued 
and I will lose because I--there is that standard of 
accountability.
    One of the questions about the role that science plays in 
this debate--your question earlier to Pastor Garcia about 
should a patient recover or should an individual who is 
withdrawing from cocaine be referred for--can they withdraw 
without medical supervision I believe was your question.
    If you had asked me that question I would say, I can't 
answer that because I'm not a doctor and I don't play one on TV 
either. That's a question for a doctor for this reason, if 
somebody is a cocaine addict and they come to your facility and 
their speech is slurred and they tell you they're stoned or 
their friends say that they're stoned, what you didn't know is 
if they're--the process of withdrawal is a physical process by 
which the brain and the body is reacting to a substance in the 
brain that affects the brain and that is in the process of 
being metabolized by the body. We don't know as it--as 
nonmedical people we didn't know what the effects are going to 
be for that person. Is this somebody who has hypertension? Is 
this one of those people that got whacked in the head with a 
pool cue and has a subdural hematoma, a blood clot in his brain 
who will die if he's not assessed by a medical person?
    Again, I'm not a doctor, but I do know that somebody who is 
going through DT's--and this is something I've learned from 7 
years working with doctors in this regional medical center I 
worked with in Colorado is that the DT's, the withdrawal from 
alcohol and severe cases of alcoholism are medical emergencies 
from which people can die as is withdrawals from barbiturates. 
How can nonmedical people assess that and determine 
conclusively that someone will not die if they're treated by a 
nonmedical person?
    Third, at our agency and at other faith-based agencies that 
use secular methods there is professional supervision to ensure 
quality of care provided by all practitioners. We have an 
advisory board, a cabinet at Jewish Family Services and it's 
comprised of different professionals in the community to whom I 
am accountable.
    This principle of accountability is the next principle I'd 
like to talk about. There was a commercial for Hebrew National 
Hot Dogs that said the only things that are special about 
Hebrew National is that we are not only accountable to the Food 
and Drug Administration, but we are account--we answer to 
higher authority. Everybody in this room answers to that higher 
authority; however, I also answer to my clients, to my board 
and I also answer to the Texas State Board of Social Work 
Examiners.
    I also answer to the National Association of Social 
Workers. If I practice outside of my area of expertise, which 
is a violation of the National Association of Social Workers 
Code of Ethics, if I practice outside of my area of expertise, 
which in my opinion making a pronouncement about somebody's 
suitability for unsupervised detox or unsupervised withdrawal, 
I would be violating a code of ethics and if bad things happen 
to that client, I would lose my license. That's not the reason 
why I refer people for detox, but it is something that social 
workers know that they face sanctions if they violate that 
code. I think this too is an added level of protection for our 
clients.
    Fourth, one of the things that I think we do successful at 
Jewish Family Service in Austin and what I in speaking with the 
preceding speaker I know happens in Albuquerque is that JFS in 
Austin we are involved in a number of inter-religious projects. 
We fund a social worker that services an agency affiliated with 
Catholic Charities where our social worker provides mental 
health services to a homeless population. We have been involved 
in several inter-religious efforts in Austin in the area of 
living wage, domestic violence and substance abuse. One of the 
substance abuse programs that I've been involved with that's 
been particularly exciting is a project called Faith Partners, 
which trains people within congregations regardless of the 
denomination of that congregation to provide education and 
outreach services within that congregation for the purposes of 
identifying vulnerable individuals or addicted individuals and 
referring them for professional care.
    The next point I want to make--I see the red light on, so 
I'll talk faster, if that's possible--is this, like the other 
agencies that have spoken here this morning, Jewish Family 
Service emerged from a faith tradition. The Jewish principles 
of Tikkun Olam, which is Hebrew for repair of the world, 
Tzedakah, which means social justice and charity, and Gemilut 
chesed, which means acts of kindness, these are the reasons why 
my agency exists.
    At the present time 90 percent of our funds come from the 
Jewish Community Association of Austin, which is a group funded 
by philanthropic contributions and membership fees from the 
Jewish Community Center and other fundraising activities. Ten 
percent of our budget comes from client fees and fundraising 
that we do on our own. We receive no Federal funds, although we 
could apply for them because we meet the standards that were 
described that I read earlier.
    Our agency will continue to exist long after this 
controversy passes from our national discussion. Jewish Family 
Services organizations have been in existence since the 1800's. 
We exist because it's a precept of our faith that we help 
others in our community and that we help others in our own 
community, that we have an obligation, a religious obligation 
to address social problems in those communities in which we 
live; however, we do not use our faith in the interventions 
that we do. We do not require people to participate in Jewish 
rituals or in Jewish prayer. I believe that this contributes to 
our success because members of all faiths feel welcome in your 
facility. We serve Jews and non-Jews. I'm pleased to say that I 
also see clients, even though I'm the head administrator. I've 
had three Muslim clients on my caseload in the last 3 years.
    I believe that if--again, going back to the central issue 
that I raised, this is a question about whether Federal funds 
will go toward agencies that use scientific secular means as 
implemented by professionals or whether they will go to 
paraprofessionals or nonprofessionals who use religion as the 
means by which behavior changes. The fact that we use that 
secular means--scientific means means that people who are not 
Jewish feel comfortable utilizing our services and that we can 
be true to the principle of diversity and equal treatment for 
all and equal concern for all that guides what we do.
    There was a final comment that I wanted to make, with all 
due respect, about your comments earlier about funding for 
social service-related problems. Dr. Wesley Clark, who is the 
head of the Center for Substance Abuse treatment for the 
Federal Government, that--I heard him give a lecture to this 
effect, said that only 20 percent of people with substance 
abuse problems can find a treatment slot in the United States.
    In Austin there is one inpatient facility that serves 
indigent people who want substance abuse treatment. At a time--
one of the reasons for our homelessness problem that you 
attributed--that you addressed earlier when you said that it 
was principally faith-based organizations that stepped up to 
the plate to deal with the homeless, one of reasons why 
homelessness exists in our county is because approximately two-
thirds of homeless folk are homeless because they suffer from 
untreated mental illness or untreated substance abuse. So the 
point I'm making here is that there are huge numbers, there are 
epidemic numbers of people who suffer from mental illness, 
domestic violence, substance abuse who cannot be treated if 
they want to be treated. When Dr. Duello resigned from the 
chairmanship of the President's--I'm forgetting what the formal 
title is, Commission on----
    Mr. Souder. Faith-based Services.
    Mr. Sudolsky. Thank you. I learned that his salary was 
$140,000. That's half of our budget. I'm not sure what it's 
going to cost--what it cost to conduct these hearings around 
the country. I'm certainly not sure what it's going to cost for 
the government to pay for the legal challenges that surely will 
follow. The funds that are being spent on this faith-based 
initiative, with all due respect to everyone here and to your 
yourself, to me could be better spent on helping people who are 
going without, who we see on the streets in Austin, San Antonio 
and in Washington. Thank you for allowing me to go over time.
    [The prepared statement of Mr. Sudolsky follows:]
    [GRAPHIC] [TIFF OMITTED] 91133.023
    
    [GRAPHIC] [TIFF OMITTED] 91133.024
    
    [GRAPHIC] [TIFF OMITTED] 91133.025
    
    [GRAPHIC] [TIFF OMITTED] 91133.026
    
    [GRAPHIC] [TIFF OMITTED] 91133.027
    
    Mr. Souder. Let me kind of work backward and deal with 
first some of the broader questions and then into some of the 
specifics. This predominantly is not a hearing on the broader 
questions, but it's important because it's always underneath 
the debate. So would you agree that the--and I think you stated 
and Mr. Kepferle in his testimony stated that one of the 
primary differences in the way you approach your faith is that 
you believe your faith is calling you to do the works. It's not 
necessarily changing the religious behavior of people involved. 
You're trying to meet a secular need.
    Mr. Sudolsky. That's correct. In my testimony, in my 
written testimony I took a quote, a wonderful quote from 
Catholic Charities which says, ``We don't do what we do because 
the people we serve are Catholic or because we want them to be 
Catholic, but because we are Catholic.'' So your statement is a 
correct paraphrase.
    Mr. Souder. And I think it's also fair to say--and does 
that fairly represent----
    Mr. Kepferle. Yes. Yes, that is correct.
    Mr. Souder. That--and to be fair that is at least just to 
make up a number, 50 percent of why somebody in an evangelical 
or a pietistic tradition would also do it. They believe that 
they are commanded to provide assistance. It's not just to 
change the faith-based part, but they would say that there is a 
double commission and part of it is to change the soul and part 
it is to meet a human need, that those are different religious 
traditions in America. That if some people choose to address 
their problems by choosing to have both elements, why would you 
deprive them of that choice with government funds?
    Mr. Sudolsky. Your question is if a program chooses to 
address----
    Mr. Souder. In other words, if you've chosen in your 
religious tradition to address a need this way, and the 
Catholic Charities has chosen to address it that way and to 
some degree but depending Lutheran Social Services is kind of 
in between you two a little bit. But why would you say that--
and you can receive government funds for addressing it in your 
direction. Why if an individual chooses to go to a program that 
would like a more comprehensive treatment would you deprive 
them from that?
    Mr. Sudolsky. Well, I don't think they're necessarily 
exclusive for this reason, the methods that I use, the methods 
that we use and that other secular faith-based organizations 
use, as I mentioned, are the methods of science; however, if a 
client says to me, as many clients have, they say I believe 
that the reason I'm depressed is God is punishing me. Again, 
let's just say for the sake--this isn't the sake of argument. 
These are actual cases. These are clients who are not Jewish. I 
will say to them I don't know about your faith tradition, but I 
do know a priest or a minister who comes from your faith 
tradition who I'd like to refer you to address this religious 
issue. As a social worker we----
    Mr. Souder. But let me----
    Mr. Sudolsky. Let me answer your question.
    Mr. Souder. No. I understand where you're headed and I--
here's what I am trying to address. Your statement that you 
just made that separates the soul from the science is a 
religious opinion, not a scientific opinion.
    Mr. Sudolsky. I'm just telling you what the client is 
telling me.
    Mr. Souder. But you're saying the client says they have a 
religious opinion--they believe they're not right with God. You 
in your religious tradition have decided that therefore that 
should be treated separately by going to a religious person for 
that rather than simultaneously while you're treating a medical 
condition, but that is a religious opinion.
    Mr. Sudolsky. Well, it's an opinion that's stated.
    Mr. Souder. Based on your faith.
    Mr. Sudolsky. No, it's not based on my faith. It's based on 
the fact that I am not an expert in Christian theology. In 
fact, I know very little about Christian theology. In the case 
of this particular client, let's say, this is also somebody who 
had a history of victimization by child abuse, was having 
difficulties with their family, was also taking medications.
    Mr. Souder. I see.
    Mr. Sudolsky. So I was dealing with those issues, but I'm 
not qualified to deal with the theological ones just as I'm not 
qualified to deal with the medical ones. I refer to a doctor to 
deal with the medical issues. I refer to a clergy to deal with 
the theological ones. It's all part of dealing with what in the 
social work business we call the whole person. I can't deal 
with it all because I don't know everything about all these 
different aspects.
    Mr. Souder. OK.
    Mr. Kepferle. I'd like to respond from the Catholic 
Charities' perspective. Maybe to separate it out a little bit 
that in terms of our services and ministry we look at it 
holistically because we look at the people we are serving 
holistically, body, mind and spirit. At the same time we're 
also looking at our funding sources that have categories and 
requirements and restrictions on how those dollars get used.
    So, for example, our Federal dollar we are very careful 
because the law says and the White House attorneys have drummed 
it into us and we're training other folks, you know, don't pray 
on Uncle Sam's dime. OK. So we're not going to pray on Uncle 
Sam's dime and we're not going to require the people we serve 
to participate in our worship services or are going to be 
proselytized by Catholic Charities using those dollars. When a 
homeless family comes in, we make sure they get housed. We make 
sure that they're cared for. But if that same family, that same 
mom says, I want counseling, and starts talking about her faith 
life, well, that counseling is not paid for by Uncle Sam. That 
counseling is paid for by our donations and----
    Mr. Souder. Let me do a followup. Mr. Sudolsky gave a, 
what, philosophical and practical answer. You've kind of given 
me a legal answer that you couldn't, but would you if you could 
merge the two?
    Mr. Kepferle. I think the way--and it's interesting because 
the Catholic church operates out of institutions. All right. So 
if there were a way--and actually I think we've found a way 
because we have done it for so many years. We've figured out a 
way that we can use the categorical dollars and still serve the 
person holistically. And I mean, there is, you know, all sorts 
of ways and accountability to do that and I think we figured 
out a----
    Mr. Souder. But if we changed that categorical restriction, 
would you change your program?
    Mr. Kepferle. That's a good question.
    Mr. Souder. Because I understand your answer and it's a 
very practical answer and I don't know that if, in fact, we are 
going to change it or if the court is going to allow a change 
as a practical matter. But, for example, Catholic schools blend 
the two.
    Mr. Kepferle. Right.
    Mr. Souder. They are different than Catholic Charities.
    Mr. Kepferle. And I guess in a certain sense we do blend 
the two, but at the same time----
    Mr. Souder. I mean directly. They don't separate. They 
didn't have--the religion is taught through the history course, 
through the English course, that's why parents choose to go to 
Catholic schools, but what you're saying is that when they get 
treated for social services you have a different approach 
because of what the government required than you would for----
    Mr. Kepferle. Well, it's not just what the government 
requires. It's also because of the standards of social work 
that with professional licensing they have their own 
requirements as well as----
    Mr. Souder. But you're on a slippery slope here because 
educators wouldn't agree with the distinction of what you just 
said about education and, for example, helping a homeless 
person.
    Mr. Kepferle. Right. Let me give you--kind of continue with 
the example that when somebody comes for housing, they bring up 
the issue of faith and God, well, our counselor definitely can 
respond to that. And whether that person is from our faith 
tradition or another faith tradition, the counselor, you know, 
explores their faith life and if we can answer because of our 
faith experience, we followup.
    If not, if they're from another faith tradition, then we 
make sure that they're referred elsewhere. But if they're part 
of our faith tradition, of course, we followup with them. And I 
think it's just the way different religions are organized. And 
some are organized where there is this separation of 
institutions where you have the church is kind of the religious 
overtly worship institutions separate from the service 
institution, and part of that is all sorts of history and the 
way it's organized. Others it's very much combined and that's 
where I think the struggle is how--you know, government is 
trying to figure out, well, they're doing good work, we want to 
help them do their good work.
    The government has a responsibility to help these 
organizations do their good work. How can we do this in a way 
that helps them become more effective without violating the 
whole line of separation of church and state? And we're right 
in the middle of that debate and trying to figure out what is 
that line, what is that line.
    Mr. Souder. Mr. Dautrich, do you want to make any brief 
comment on this part? I'm going to go back and followup, but 
relate to some in what you've seen as you set up these separate 
wings in the prison system how you approach that with 
certification, what things you've done differently or the same 
and how you've tried to deal with the challenge.
    Mr. Dautrich. Yes. And actually I'm going to hand this off 
to James here in just a second, but we do have faith-based 
training that we deal with our counselors with and our staff as 
well as myself in that are all in the process of or have been 
through that. That I would agree that we have to recognize 
problems as the offenders come into the program, and there is a 
chemical dependency problem and that there is--I would agree 
with you that there is chemical--that the body makeup and there 
is some science involved with that and we have to be able to 
recognize that and we do put our counselors through that 
training to recognize that as well.
    Again, though based on the fact that our counselors are 
Christians and know--most of them have come from a seminary 
background so are basically wearing several different hats as a 
lot of agencies do. But I want James to talk a little bit about 
the faith-based training that covers that because it covers an 
array of things that we deal with. So James I'm going to let 
you----
    Mr. Peterson. We all at InnerChange either have been or are 
currently going through training through the Faith-based 
Counselor Training Institute which is run by Dr. Michael Haines 
out of Belton. And one of the statements I know that Dr. Haines 
makes early on in that training is that, you know, the amount 
of training that we get does not make us a counselor 100 
percent, but it does introduce us to the criteria and what to 
look for in the guys we're working with. And he also makes it 
clear in we're through--as certified counselors through him or 
restorative therapists he calls us, he makes it clear that 
we're to indicate that to the people we are helping, and that 
it's a choice that they make and that they realize that we'll 
give them those recommendations and that we're going to contact 
other people at that point that we feel is way beyond our 
terms.
    I've been through that and I'm a certified restorative 
therapist through the faith-based counselor training and it 
helped me tremendously in understanding the men. Because like 
in the substance abuse, he deals with the basic issues of what 
happens to a person and he talks about the issues on anger 
management of the chemical changes that occur in the physical 
person. And so we approach it from both sides and I would not 
say that I am a professional, but that I can see changes.
    And then my other struggle from working with reentry and 
after care portion goes back to the funding. When one of our 
guys is struggling with the substance abuse problem in any 
phase or one of his family members and then it's finding a 
place where they can go that's funded that I can get him in 
that we don't have to wait a week or 10 days.
    It's a large problem. But yet I've also seen the change in 
the men as his brothers embrace him and stand there with him 
and work through that problem with him and because they knew 
him. Like the three men that we were in Washington together, we 
know each other intimately. We know each other very well and we 
are accountable to each other. And that's what helps us in 
dealing with the long-term life plans for us.
    Mr. Souder. This is very interesting and let me continue. 
And I'm going to have some time restraints here, so it's hard 
to know which alley to go up here that--and what I'm trying not 
to do, but I want to make a brief comment is go up the drug 
treatment alley very far and because the primary role of the 
subcommittee that I chair that's holding this hearing while 
we're overseeing faith-based, our primary responsibility in 
Congress is to authorize and do oversight with the primary 
Narcotics Committee of the United States.
    So the ONDCP, the Office of the Drug Czar, we've held 
hearings on the new drug treatment proposals and this is a 
monumental question that we are dealing with which is only a 
subpart of the faith-based debate. And in the money dollars 
question, let me just say that there is a frustration that the 
rate of increase in spite of what the grass--from the Federal 
level, the dollars are increasing faster in drug treatment than 
in any other category of narcotics, but we have not seen very 
much of a dramatic change.
    So part of the reason--we're looking for different ways to 
approach this and part of the reason there is not availability 
for some of the programs is I have very seldom met a drug 
addict who hasn't gone through multiple programs and they're 
taking up the slots by going through the programs over and over 
again.
    Now, that's partly quite frankly government insurance-
imposed. We have such short-term programs. They are being 
changed, but anybody who's ever dealt with drug and alcohol 
abuse knows full well that the first fundamental principle you 
have to have is a commitment that you want to have change.
    It is, yes, some are farther along in the addiction path 
which makes that recovery harder or more risky. But one of the 
debates here is one of the primary things that inclines 
somebody toward changing in drug addiction is it faith? And is 
that why some of the faith treatment programs are working so 
well is because that inclination is more important than the 
clinical? Which gets us into this whole debate of how do we 
measure? What's scientific here? The fact is that while there 
are occasional cases where religious treatment has failed and 
those become well-known, the fact is there are more suicides 
and deaths from secularized treatment than there are of the 
other in the country as a whole. But you're right, they are 
pursued because they follow the procedures as they went, but it 
doesn't mean that they aren't also having problems. It's just 
that they followed the procedures and that there are 
fundamental challenges in that and that is a huge comprehensive 
debate.
    But what I was trying to get to is--and I thought I kind of 
exhausted a little bit of that point in the--and I don't know 
that it's resolvable, and that is from the perspective and my 
perspective--hold on a little bit here. From the perspective of 
somebody who comes from what is often called a pietistic 
background. In other words, we believe behavior is integrated 
and inseparable and therefore it's tough to separate the two 
categories in here's faith and here's works. They are 
intermingled and you have to have both.
    If you have that tradition, for those who have a tradition 
that can separate and say this is a secular approach and this 
is a faith-based approach is a religious view. It's not a 
science view. It's a religious view. To those who don't share 
our position, they believe we're antiscientific and that gulf 
is going to increase in the United States not only because 
Muslims and some Asian traditions, religious traditions also 
have that.
    And the question is how do we resolve what has largely been 
a secular tradition in the United States, and how do we include 
diverse faith-based communities? Because it isn't just going to 
be Christian tradition. It's Native Americans and the issue I 
raised earlier with medicine men versus traditional hospitals, 
and it is a core debate that isn't going to decline. It's going 
to be here in American life and not easy to resolve, and that's 
why we need to do it.
    Now, the habit--but the--I am convinced that legally--and I 
want to pursue this point a little bit. I am convinced 
absolutely that the Supreme Court and the Constitution is 
clear. You can't directly proselytize with government funds, 
period. And we have many groups around the United States that 
have been getting money for many years that probably have been 
violating that and we're actually going to go a little 
backward.
    And the new Federal programs that the government is doing 
are marginal, but the court isn't clear, and this is where 
we're going to be sorting through, where those lines precisely 
are and what defines proselytizing. Is it a call? Is a crucifix 
in the room? Is it a prayer if it's a voluntary program and the 
individual had choices? That what is clear, however, is every 
group has to accept anybody who applies if there is government 
funds. It's not unique to Jewish Family Services or Catholic 
Social Services. If an evangelical group wants to get any 
government dollars, you have to accept whoever comes in. The 
crux of this debate is hiring practices and the Constitutional 
exception with that, not who you serve.
    In the Jewish Family Services question, would you hire as a 
staff person in your program, somebody from another faith if 
they applied to your agency? Is there a bias toward somebody 
who is of Jewish background or a point system or if you have--
you said currently you don't accept government dollars, so it's 
a little more complicated.
    Mr. Sudolsky. Right now half of my staff is not Jewish. The 
person that we have working with the homeless down in Austin is 
not Jewish; however, when I advertised for a position working 
with the--with predominantly Jewish elderly population, some of 
whom are survivors of the Holocaust, in the job notice I said 
that knowledge of Judaism and of Jewish culture is required. I 
didn't say non-Jews need not apply. And the reason I phrased it 
that way was because responsible work with this population 
requires that you have to know what the Holocaust was. You have 
to know what the Jewish holidays are about and you may have to 
know a little Yiddish too in order to deal competently with 
that population.
    Mr. Souder. Interesting philosophical question. That's 
never been testified. I assume that it would probably be 
upheld. Mr. Kepferle.
    Mr. Kepferle. Yeah. With Catholic Charities we want to make 
sure that our Title VII exemption under the Civil Rights Act is 
protected, that as a religiously sponsored organization we have 
the right to hire people who are Catholic and/or who have an 
understanding of Catholic social teaching; however, in actual 
practice because of--you know, we're looking for the competent 
staff with skills and we're serving a very diverse population 
that we are retaining that right only in select positions.
    For example, executive director or positions that are 
working specifically with parishes or within specific faith-
based projects that we have, so we want to make sure that which 
is already in the law and we have that right, we want to make 
sure that's protected. But as a matter of actual practice our 
hiring practices we hire very diverse staff. We don't for most 
positions inquire in terms of their religious background or 
affiliation.
    Mr. Souder. You don't inquire?
    Mr. Kepferle. We don't inquire, but we want to make sure we 
still have that right to do that because just with any 
organization you want to make sure that, you know, the--if 
you're selling shoes, you want to make sure that the person 
that's out there selling shoes wears shoes and believes in 
that. I mean, just with any business. In our mission it's the 
mission of following the teachings of the Catholic church and 
carrying that out.
    Mr. Souder. What about in your staff?
    Mr. Dautrich. With InnerChange our staff is hired. They 
must be willing to read and sign the statement of faith which 
Christian fellowship puts forth. If a Muslim, let's say, was to 
come, they are not going to sign that statement of faith 
because of what it exemplifies and how it reads. Now, if they 
did sign that and were Muslim, then I'd have to probably 
question whether or not they really were following the true 
Islam faith.
    But that's the way we will base that. You know it's a good 
example with the shoes. Obviously in a Christian Bible-based 
program we are going to want people, counselors staffed to come 
in and to be able to relate to that obviously, to have a 
Christian background, that they would understand what we are 
doing and to follow that vision as we put forth. But if anyone 
is willing to sign that statement of faith, yes, obviously we 
would--they would be in the hiring process.
    Mr. Sudolsky. May I make a comment about some of your 
preceding remarks about----
    Mr. Souder. Sure.
    Mr. Sudolsky. I don't know if you want to pursue the hiring 
issue any further.
    Mr. Souder. I was going to go down another alley, but if 
you'd like to make a comment.
    Mr. Sudolsky. Your comment about the role of spirituality 
in substance abuse treatment, I'd like to comment on that and I 
also want to comment about the fine line where the people 
respect that line that you described the courts as having set. 
The responsible and effective treatment programs that I know 
about that I refer people to and about which extensive outcome 
studies have been done usually involve psychotherapy services 
that are provided by psychiatrists and psychologists and social 
workers. Some type of employment counseling, some type of 
family or marital therapy and they include anger management and 
they also involve 12-step work.
    In the work that I do, again, if I have someone who through 
my evaluation I do not believe needs to be referred to an 
inpatient program or for medical evaluation, I'll say I think 
you ought to join a 12-step group. There's one that meets at 
St. Theresa's Catholic Church which is close by our office. I 
know the pastor down there. Here's his name. Why don't you 
attend the group. Secular treatment and spiritual care are not 
mutually exclusive. It's part and parcel to me of good secular 
care. The reverse is not true however. Pervasively religious 
care is mutually exclusive with the involvement of secular 
methods.
    Now, as to the issue as to whether pervasively religious 
groups can honor the line between religious work and--which is 
not fundable by Federal dollars and good works like running a 
soup kitchen which is. There was a study which came out 
recently. You are from Indiana?
    Mr. Souder. Uh-huh.
    Mr. Sudolsky. That was done by the University of Indiana 
and Purdue University that examined the effectiveness of job 
placement programs in three States: Indiana, North Carolina and 
Massachusetts. And one of results that they found--they did a 
knowledge survey among the clergy in those faith-based program 
and they found that 67 percent of the clergy surveyed did not 
know that you could not use tax dollars, that you could not use 
government funds to buy Bibles or for prayer-related 
activities.
    This is terribly alarming to me, and again to me 
underscores why it makes life easier for there to be a clear 
separation of funding that precludes funding for pervasively 
religious activities so that they don't have to know the law 
and they don't have to get themselves in trouble because they 
don't know the Constitution.
    Mr. Souder. Well, I want to make sure we get to our third 
panel and the dominating variable here is my air flight out, 
not lunch. Let me followup a little bit with another line of 
questioning that kind of pivots off of what we just heard 
there.
    One of the fundamental government problems that we have had 
that I alluded to the first panel is that many of the 
grassroots neighborhood groups--you heard me asking about Zip 
Codes earlier. You heard me talking about minority groups. 
There is a faith-based in the sense of organizations vision 
split inside even the administration and in Congress, but those 
of us who worked with this for years viewed the faith-based as 
predominantly oriented toward higher risk areas of greater 
need, and specifically with some exceptions in drug treatment 
and prisons where you may have a more significant percentage of 
White or Anglo population.
    The dominant areas here are urban center Black and Hispanic 
neighborhoods. Many of the groups that actually live in the 
neighborhoods and work in the neighborhood and like you can see 
here. I mean, for all the scientific numbers and I understand 
the need to have data particularly when you're representing the 
taxpayers and they don't want us to do that. The fact is you 
can walk around and see the impact here, which is very hard to 
do when you do followup with many of the people who have the 
numbers. How do we get dollars to many--from your perspective 
and the perspective of Catholic Charities which is strongly 
struggling? I'd be interested if you have any additional 
comments in a State like New Mexico where you have had a huge 
increase in the Hispanic population, large Native American 
population, how do you get to the street if we just do 
traditional bookkeeping, trained college educated, this 
procedure, this scientific background? And even if that 
approach doesn't culturally fit and are we underestimating the 
cultural component in addition to the religious component of 
treatment for any of these kind of problems?
    Mr. Kepferle. It sounds like good grounds for a 
dissertation. That's an excellent question. If I can give an 
example of what we're trying to attempt in New Mexico through 
the Faith-based Compassion Capital Fund.
    We've established a collaborative--we have a 3-year grant 
through that cooperative agreement of the Office of Community 
Service. We've established a collaborative with Catholic 
Charities, the New Mexico Conference of Churches, Catholic 
Charities in Gallup which serves primarily Native American, the 
New Mexico Association of Food Bank, the Archdiocese that does 
the prison ministry project I was telling you about and some 
substance abuse work and Jewish Family Service.
    And as part of that it's providing that technical 
assistance capacity building training to faith-based 
organizations, smaller groups in rural areas as well as the 
urban areas and also to other community-based groups, 
grassroots. What we've discovered and the reason we developed 
this model, we discovered all of these groups are struggling 
with a few dollars, a few volunteers and, you know, just 
overwhelming poverty and substance abuse problems and 
homelessness, all of that.
    What we're developing and it's already starting to work 
because people are getting the message with the Stone Soup 
model is developing collaboration so that these smaller groups 
aren't competing against each other for the limited dollars. 
But they're forming alliances and networks and there are some 
cultural issues that are having to go on with Native American 
and Hispanic and Anglo groups especially and different 
philosophies and religions trying to work together.
    But what's happening is people are seeing that if we work 
together, if we pull ourselves together, then we can go to 
those foundations or to the government and say, look, we've got 
a plan here. You've got to adapt it to our local situation. 
It's not going to look like anybody else, but we're working 
together and we're serious about this. We know the need. We 
know the people and we're doing it.
    A very simple example, food pantries. A parish in Socorro 
struggling to feed the people there and there is a Catholic 
parish and then there's a Protestant denomination down the 
street and a couple of other denominations. They said let's get 
together. How do we do this? I don't know. And the volunteers 
from the parishes said we need something.
    So we came in, they invited us in, helped them get going, 
get the food panty--get the food bank involved, bring them some 
food but also give them a little bit of money to get a freezer 
and refrigerator in because they just needed a refrigerator. 
They didn't need a bookkeeper and all that. They just needed a 
refrigerator. OK. We can give them a grant for a refrigerator 
and they can figure out among themselves with the food pantry, 
with the food bank how to get the food out to the people.
    So I mean, very simple small grassroots things, following 
their lead saying this is what we need rather than us coming in 
and saying we think you need this, we think you need a 
strategic plan. Well, forget it. They just needed a 
refrigerator.
    So it's listening to the churches in the local community, 
but that's Federal dollars trickling down and then our staff 
providing the oversight so that they don't have to worry about 
all that bookkeeper or whatever. We can make sure that they're 
getting the job done.
    Mr. Dautrich. Let me just give a quick example as well as 
in Houston because you asked the question of how to get that 
money out. What InnerChange does basically is to assist and 
equip the church in those little communities. We feel like that 
with the men that are coming out is to get them plugged into 
those nurturing churches.
    Now, there is a lot of dead churches all over the place. 
Churches that are not willing to help that ex-offender and 
that's what we've got to bring that to light and letting them 
understand that once these men get back into their communities, 
5th Ward, 4th Ward, inside the loop of Houston, that the men 
are going back in and revitalizing these communities through 
those particular churches. And we're really seeing that to 
begin to actually happen.
    You heard great testimony today and it sounds like it's a 
great thing. It's happening. You can feel it, see it and touch 
it. We're seeing that now with our reentry center. After care 
is the key. After care is the key to our particular program in 
the prison programs that are happening. And I really believe 
that as far as after care is concerned, we've probably gone the 
farthest that I've ever seen happening, me personally.
    We have an after care reentry center in the 3rd ward of 
Houston. We purposely put it there to begin to revitalize that, 
to bring the men that are coming back and wanting to give back, 
that are wanting to see their particular church that they grew 
up in or a church over here that's not getting along very well 
to go in and revitalize that church and to work through them.
    There is also a collaboration right now with First Baptist 
Church in Huntsville. And Huntsville is where all the offenders 
go to be released in Texas. So if you're out in west Texas, 
south Texas, wherever you are, you catch a train and you go to 
Huntsville, they release you there. Basically two times a day 
open the back gates up, release. They go over to the bus 
station. Most of the time at that bus station, as you heard 
testimony today, you can buy drugs right then and there and be 
stoned to the gill before you get to where you're going.
    What First Baptist has done there as part of what they call 
their welcome back committee is they've been allowed to go into 
the prison right then and there, talk to the parolees every 
single day. Let them know that there is a nurturing church 
somewhere wherever they are going. They're in contact with 
those churches in Houston, for example, but we have an 
accumulation of churches that are helping them. When they get 
off the bus, they know where to go. They can go to a clothing 
center, food bank, wherever it may be that they can receive 
that assistance.
    So those are some things that as far as the communication 
you got to open those lines because you have so many ministries 
that compete against each other, No. 1 because they don't know. 
If we can have that one place. Restorative Justice Community in 
Houston is doing that.
    We're partnering with them to let them know that we're 
there to help as well. Our reentry centers are open to ex-
offenders, not just InnerChange, not just guys coming out of 
the Carol Vance Unit. We got guys that come in and they need 
job placement or something like that, they're going to go see 
James and see our staff over there and we're going to direct 
them as best we can.
    So as far as getting together the nonprofits and things 
like that, people that are ready to take that initiative on, I 
think that's a way of equipping those churches, getting them 
involved, bringing those community leaders together I really 
believe is a way to do that.
    Mr. Souder. Mr. Sudolsky, can I ask you--and if you want to 
comment there briefly, but I want to ask you a little bit 
different question to see--because you've been listening to the 
testimony today in this case and let me put this dilemma in 
front of you and I'd like to hear your response that--I'm on 
the legislation that would require insurance companies, if they 
do, to provide drug treatment as part of their plans. It 
doesn't have the slightest chance of passing, but we're trying 
to do what we can to move it.
    I'm the Republican sponsor with Congressman Danny Davis 
from the subcommittee to provide more funds for prisoners who 
come out of prison. Not likely to pass, but we're trying to 
move it. We are likely to increase drug treatment dollars again 
this year by a significant amount. A drop in the bucket in what 
we're facing, that what we're trying to figure out is how do we 
leverage whatever we can get. It's not in opposition to that we 
need to put more in. I understand that, but in looking at the 
dilemma--one of the dilemmas and I would be interested to see, 
not about whether you can directly proselytize with government 
dollars, but how you as someone who has deep concerns and 
historic concerns quite frankly like the Catholic Church does 
and quite frankly like a lot of Baptists like myself have about 
the government imposing a mainline religious philosophy on a 
society and persecuting those who disagree as the Baptists were 
persecuted just like any other dissident religion in American 
history so that we allow the diversity.
    But here's the challenge. One is these programs are having 
an impact, and is there a way to assist them?
    And then second, in my home area in Fort Wayne, IN we are 
faced with probably--I can't remember, somewhere between 3,800 
and 5,000 people coming out of prison that are coming back into 
the community. They are going to go into the same predominantly 
low income community where they came out. They really haven't 
with almost--with very few exceptions have changed lives. 
They're going to go back into the community. They're probably 
not going to have jobs. They're probably going to have a 
difficult time getting a job, a difficult time getting housing 
in that unless you have programs that are willing to follow 
through, which the reason they did that first part is the 
government doesn't have the beginning of the fund to do that. 
We can't even barely cover housing let alone mentors and 
trainers and people that track. A probation officer may have 
300 to 700 kids anymore to try to track. You're not even having 
a probation officer tracking you barely even if you've got a 
thing on your heel. The programs like what they're doing in the 
Texas prison where they get volunteers to followup and do the 
after care and they get churches are one way to try to leverage 
the dollars, but the people who want to do that have a motive 
that's religious in nature.
    In my hometown they got a Department of Justice grant to 
try to do a faith-based initiative. They quickly ran into the 
law. Chuck Colson was involved in it, but the law says you 
can't proselytize, so they pulled out. Then about a half to 
two-thirds of the churches whose volunteers were volunteering 
because they felt the call of Christ to try to help people 
coming out of the prison no longer are volunteering because if 
they can't talk about the one thing that's most important to 
them, they're not interested because they believe that's the 
problem.
    So now we've got a private program going through that's 
more secular in nature backed up by some churches, and bluntly 
put the Black churches the government is a little more lenient 
with than the White churches in whether or not they can 
proselytize just because it's so intertwined with culture and 
other questions.
    How do you propose to deal with this fundamental problem 
and are there any ways to deal with this that volunteers are 
predominantly motivated for reasons different? I mean, if 
they're not paid and they're volunteering their time, the 
biggest pool that we have in the United States because 
everybody has these pressures, you've got your kids, you've got 
your job, you've got--you're trying to figure out how to make 
it and volunteering is down in the country. How do you propose 
to do that?
    And even by the way in the Jewish community, the orthodox 
Jews do not necessarily agree with the liberal and conservative 
Jews on how to do this and they're certainly motivated to 
volunteer in their community because it is a sticky wicket, so 
to speak.
    Mr. Sudolsky. I'm a teacher at the university and if you 
asked my students that question, they would say can you repeat 
the question.
    Mr. Souder. You bet.
    Mr. Sudolsky. The general drift--you're asking extremely 
difficult questions. The first part of your comments I think 
you were essentially asking me, we have very little funds at 
the Federal level, the legislature--the money that we're asking 
for may not even pass. With this little bit of money that might 
pass, what should we do about substance abuse and recidivism? 
And my answer is going to be it's probably going to take a lot 
more to do an effective job than the money that you're 
allocating.
    What I think the root problem is, Congressman, is that when 
this country sets its mind to address a critical problem, 
things get done. Not that I'm looking to gather applause 
because I didn't expect any previously this morning. We went 
through Iraq like a hot knife through butter because we set our 
mind to do that, and the same thing happened in Afghanistan.
    When this country says they we will no longer tolerate the 
homeless folk living under the Congress Avenue bridge in 
Austin, we will no longer tolerate the intoxicated Native 
Americans wandering the streets of Gallup and we will spare no 
expense, then things will happen. And what will happen is--you 
alluded to it. Things will happen like there will be case 
managers, there will be employment counseling, there will be 
family counseling, there will be referrals to spiritual 
counseling. We will have a multifaceted program to deal with a 
complex and difficult issue that has spiritual, psychological 
and medical dimensions to it.
    What I think the problem is right now is this, the question 
you're asking is how do we serve underserved people who are 
struggling with some of the most complex issues that can befall 
human beings. I was invited to sit in on two focus groups 
through the Center for Substance Abuse Treatment in Washington 
last year and one the year before. On the bus ride from the 
airport to the facility where this was to take place, we went 
through an African-American ghetto area. I didn't see one 
hospital, one social service agency, one medical clinic, but I 
sure saw many, many storefront churches. When I talked with 
some of the ministers from those churches, I was filled with 
admiration for the work that they do just as I'm filled was 
admiration for the work the Garcias are doing here because they 
are working in underserved areas that our nation has neglected.
    I think if this country really wanted to do something for 
the barrios and the ghettos, we would build a Betty Ford Clinic 
in each and every one of them, but we don't have the money to 
do that and we're not willing to rearrange our national 
priorities.
    I think what this proposal amounts to is asking churches to 
solve complex problems on the cheap because as a country we're 
not willing to allocate what's really needed to address these 
conclusively. So my long-winded answer to your question is I 
don't know how we can address substance abuse with limited 
dollars. My best answer would be let's take a close look at the 
evaluation studies.
    You tell me that pervasively religious programs are 
effective. I've looked at the research about InnerChange 
Ministries. One study that was done by the State of Texas that 
was released in February that found that while there was a 
reduced rate of recidivism for people that completed the 
program, only 42 percent of those entered the program completed 
it and, in fact, there was a higher rate of recidivism among 
people who completed only part of the program than people who 
didn't have any experience in the program at all.
    I think the bottom line in application of scarce resources 
for social problems is let's look at those programs that have 
shown effective results by research designs that meet standards 
and give the money to them.
    Mr. Souder. Thanks. That's was a good summary of your basic 
testimony.
    I want to go through each of the others. And, Mr. Kepferle, 
first of all, I want to thank you in your testimony for giving 
us some specific suggestions. And if you want to make any 
concluding comments and particularly any--I may have a couple 
of additional written questions we want to have on specific 
things on the Compassion Capital Fund or ways you think that 
can improve or let's talk a little further on it. Anything you 
want to make, any point you want to make?
    Mr. Kepferle. Thank you, Congressman. Specifically on the 
Compassion Capital Fund, one of the things that we've seen this 
last year, it's a very tiny amount of money that's creating 
lots of controversy, but I really believe that training piece 
is vitally important. But along with that, it can't be done by 
taking the money from another pot. There has to be some 
appropriations for that and my understanding is that this year 
in this cycle of funding there is I think only $4 million 
available for this next round, whereas last year there was $33 
million. So anything that can be done in terms of 
appropriations for that would be very helpful around the 
country because it's not reaching everybody at this point.
    The second thing and I'd have to----
    Mr. Souder. Always remember the start of the process is 
different than the end of the process.
    Mr. Kepferle. Right.
    Mr. Souder. And more money becomes available as the process 
moves.
    Mr. Kepferle. OK. Good. The second piece, you talked about 
the leveraging and, you know, as congregations and as 
nonprofits we're always leveraging. We're leveraging 
volunteers. We're leveraging, you know, donated space, all of 
that and a lot of the Federal grants require that leveraging. 
The thing is on the national will, you know, when it's dealing 
with a foreign threat, we don't ask our defense contractors to 
come up with 25 percent of the costs or 50 percent of the costs 
of those weapons, but we are asking our social service 
organizations and our congregations to come up with 25 percent 
and 50 percent of the resources to serve the poor, the needy 
and the vulnerable.
    And I think we need to remember President Eisenhower's 
comments about that, that we need to look to the needs of the 
poor and put our resources there because our society is going 
to be judged, the government is going to judge on how it really 
cares for the most vulnerable and we need to do it, yes, with 
leveraging our volunteers. I absolutely believe in that. At the 
same time we can't let government off the hook in terms of its 
responsibility to care for those who are most vulnerable.
    Mr. Souder. Thank you. And Mr. Dautrich and Mr. Peterson, I 
want to make one comment. If you want to say anything in 
particular, but I'd rather also have you talk in general. But 
one of the problems as--whenever we deal with that is the--for 
example, I'm a strong defender of drug courts. But when you 
actually get into the percentages of drug courts, you have 
almost the identical problem that you referred to in 
InnerChange, that if you drop out of--if it's involuntary drug 
court, the results aren't very well. We had one I think drug 
court that had good results where they were forced into the 
program. Most are voluntary.
    Those who drop out often then have worse results because 
they've come to a different conclusion. We tried and we failed 
and now it's almost like you've reverse skimmed. Any of these 
programs that any of you are dealing with, whether it be drug 
treatment, criminal rehab, child abuse rehab, which is arguably 
the hardest of them all to get rehabbed, spouse abuse rehab, 
you're not looking at 100 percent. And part of the thing that's 
amazing about Victory Life Temple is they are close to that and 
it's why I'm enamored of watching their program, but they are 
people who select them and they don't have the same percentage 
of dropouts.
    Now, we also from a governmental standpoint have the 
problem of--and I thought it was very interesting this morning 
talking about why some of these groups--it's even difficult to 
get them to keep numbers, so it becomes hard to have a public 
debate if you don't have the data in front to you. But where do 
we get the data? And InnerChange deserves a tremendous amount 
of credit, just like drug courts, for being willing to pony up 
with studies where you can actually be scrutinized with that 
data so we can have this in the public debate.
    And you're going to see one of the things that we're doing 
through our committee in working with Director Walters is--and 
I've worked with most of the nonprofit organizations. The 
nervousness is we're going to actually require accountability 
measures on drugs, not just self-selected surveys. You're going 
to have drug testing. Because part of the problem with the 
types of why I believe many people are going back in and the 
modification is going to come out that we are not looking--
we're looking for zero tolerance, but we're not looking for 100 
percent success.
    In other words, that somebody who is reductive still means 
you made progress. And there is going to--and also at the level 
of addiction and what measurements are going to be. But it 
isn't going to be enough anymore because many of the programs 
that are ``scientific'' that have the data have actually not 
been scientifically measured in their followup report. They are 
analyzed, self-reported and they don't track the clients partly 
because it's expensive for 6 months, 12 months, 2 years and 
finding somebody out of those places who can come forward 20 
years later and say I'm still clean and I've never used drugs. 
We don't have that data in our system in that this is all kind 
of new for us all.
    So while it's mixed, I will say that your results are 
better than drug courts which many of us in Congress are very 
enthusiastic about because one of the only legal ways we are 
actually trying to track with the judge and the individual 
people.
    So that said, where would you like to finish here? And any 
comments you have and you're at the forefront of a new 
experiment in our nation's prisons that--and we'll see how all 
this is going to be resolved.
    Mr. Peterson. I was just going to quickly say that I know 
Dr. Johnson earlier released a study on the prison down in 
South America that InnerChange was founded on, and he found 
that the severity of the crimes even if the guy was rearrested 
were dramatically reduced after they had gone through that 
program. And I'll let Mr. Dautrich finish up.
    Mr. Dautrich. I think the bottom line and just a real quick 
response to Dr. Furbellow's study and Mike Eisenberg with the 
Criminal Justice Policy Counsel, they--we went--we had a lot of 
input with that in research with them and there was--
InnerChange was just a huge puzzle, I'm going to tell you. 
There is so many pieces that make it work, but the bottom line 
is that Christ is working in the men. But with that a lot of--
we had some problems with parole early on and they had taken 
some guys away from us knowing that they were in--you know, 
obviously with James they were going to take him out of the 
program and he said, no, hey, I want to stay, which that's a 
decision I wouldn't want to ask anyone, even myself, and even 
if you ask Chuck the same thing, hey, did you want to go home 
or early out of prison? Yeah, I want to get out of here.
    But that was some of the problems. And again, 42 percent as 
you related to only finished the program. And so we feel like 
now we've begun to iron out those programs with TDCJ in letting 
them understand that the men do need to go through the three 
phases that we have. They do need to complete and not just get 
part of it.
    InnerChange is just not an 18-month program of jailhouse 
religion, understand that. It's just not them coming in and 
just feeding them things that we think is going to work. We 
base those on biblical principles. There is a lot of secular 
things that we do as far as the jobs are concerned and 
employment, working with the families, working with the 
children, breaking that generational curse. You know, our--the 
United States has had over 2 million offenders right now and 
they're coming back into society. We've got to identify that. I 
think we have identified it, but what are we going to do about 
it?
    There is a great quote by Warden Fred Becker, who is a 
former warden over at the Vance Unit, and he said this, if a 
person is not particularly in favor of religion and we see 
that. If a person is not in favor of doing anything for the 
criminal offender, and there is a lot of people like that, but 
they are in favor of their own safety. And that's the key word, 
our public safety. This is the best insurance policy that 
society has had in the 200-plus years that we've been involved 
in the United States. And bottom line is that's what we are. 
Are we going to change the way that the man is? And when he 
comes in, are we going to leave him the same?
    And I'll just tell you this, that Christ is working and 
he's alive. God is not going to fail. And I tell that to people 
all the time. Media that I deal with that want to come see the 
program. I invite you to come down, come walk. Come see it. 
You've done it here in San Antonio. You've felt it and you've 
touched it. Come to Houston, come inside the Vance Unit, talk 
to the guys. See them. Come to our after care, talk to the 
guys. We're going to roll forward. God is going to open those 
doors. We have faith in that and we know that. We just want to 
be along for the ride and help us get there. If the government 
wants to come alongside with us and help us out, as I tell men 
that come into the program, we are going to succeed with you or 
without you and God is going to be leading the way. If we could 
find that way that this committee and the government money can 
come along and put aside all the differences and put aside 
this, if it's working, let's do it. If it's going to keep 
people out of prison, let's do it. If it's going to keep them 
off the streets, let's do it.
    And I just want to encourage you to continue to keep that 
faith and keep having a vision and come forward and I thank you 
for today. God bless you.
    Mr. Souder. I thank each of you for your time. It's been a 
very interesting discussion and very helpful as we have these 
kind of discussions in Washington to also hear them at a 
regional level. And you were each very articulate for different 
viewpoints. Thank you very much.
    If the third panel could come forward. Our third panel is 
Leslie Grubbs, program director for Urban Connection in San 
Antonio, TX. Jill Oettinger; is that correct?
    Ms. Oettinger. The ``O'' is silent, Oettinger.
    Mr. Souder. Oettinger, sorry about that. Executive director 
of the Good Samaritan Center in San Antonio, TX. And Mr. Mike 
Tellez.
    Mr. Tellez. Close. Tellez.
    Mr. Souder. I got the double l's just the wrong direction. 
Mr. Tellez who's director of a program called Character Kids in 
Las Cruces, NM.
    If you can each stand and raise your right hands?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Thank you for being patient. This has been a long morning 
and I appreciate you bearing with us as we went through my 
questions and the testimony. We're looking forward to adding 
your testimony to the record and being able to ask some 
questions. And we're going to start with you, Ms. Grubbs.

 STATEMENT OF LESLIE GRUBBS, PROGRAM DIRECTOR, URBAN CONNECTION

    Ms. Grubbs. I'm overloaded right now. Lots of great things 
were said today. As I said, I'm with Urban Connection, San 
Antonio. We're a new ministry here in San Antonio. We are the 
extension of Central Dallas Ministries out of Dallas, TX and 
they work within the housing developments there in Dallas. We 
are a community development organization and what we endeavor 
to do is to use the broken things of the community to rebuild 
it, and so what we do is we work with the people already that 
are there. We invite people in to help, but the ultimate goal 
is empower the people that are serving there that are living 
there to buildup their own community, and faith plays a big 
part in that.
    I've listened to everybody talk and I am a Baptist, a 
licensed Baptist preacher, but that doesn't weigh on what I 
believe because I believe that Jesus Christ is coming back for 
a church. He's not looking for the Baptist. He's not looking 
for the Lutheran. He's not looking for the Jewish, the 
Catholic. He's looking for a church and he's looking for those 
that have faith and that believe, and in that we are able to 
share our faith just simply by when people ask and how we live 
our life. That's the best witness we have toward Jesus Christ.
    And so that's what we share every day. We have Bible 
studies. People are invited, but it's not--it's about them 
learning for themselves because I have--no, I've not been 
addicted to drugs or anything, but I lived a hard life. I did 
haven't to. My dad is a retired lieutenant of the Seattle 
police department. My mom is an educator and yet I made a lot 
of wrong choices and wrong decisions in my life due to self-
esteem and a lot of other things. So people in the communities, 
they have problems. Yes, their addictions are just a sign of 
even deeper and greater problems.
    And one thing I found through--I worked 12 years with the 
Department of Human Services. I was an income assistant, worked 
in income assistance. I worked my way up through that. I 
started as a front desk clerk. I said basically when--after 3 
weeks on the job, I can do this job and certify people for 
benefits with much greater dignity than they were being served 
with at this point. And so I just became a friend within the 
State system and in the process of that I had moved up becoming 
a screener and than a caseworker.
    God saved me and the Lord called me to minister the gospel 
and still in the midst of me working for a State agency I was 
still able to profess my faith. You don't have to beat people 
over the head with a Bible in order for them to believe and 
come to the knowledge of Jesus Christ. They will ask on their 
own. The Bible says that, ``If I be lifted up, I will draw.'' 
So it's not about what we say. It's about what--how we live and 
how we provide and leave ourselves open that God will draw them 
in. This is kind of funny how I say it, but I believe my God is 
bigger than anybody else's God, and so I'm not intimidated by 
any other faith or belief.
    God says in his word that people have a right to choice. 
They have a right to believe. If I'm standing there and they 
ask me why I have faith and they choose not to believe what I 
believe, then they have a right to do that. And then I have a 
right and I have an obligation to them to respect that right. 
And we as Christians need to come to that. That's my opinion 
that we need to come to that understanding and not be so 
fearful of others.
    But through working for the State I used to say all the 
time I just want to help people that are living in the public 
housing. I want to stop generational welfare. I want to stop 
teenage pregnancy. I want to clean up the projects and take 
Christ to those living there. And God has given me that 
opportunity. Through the Resident Opportunity For Achievement 
and Development Center, which we call the ROAD Centers which 
were established in 1999 here in San Antonio through a 
partnership of the Texas Department of Human Services, the 
Alamo Workforce Development and their subcontractor SER and the 
San Antonio Housing Authority, we moved into five housing 
developments around the city. The goal there was to provide a 
one-stop center to help due to the welfare and the work laws to 
be able to be onsite to help and assist the residents living in 
public housing to get off of welfare or in their transition.
    I've tried to do everything that my supervisors and 
everybody said that I was supposed to do, but I knew there was 
a better way. There is a thing called relationship that we need 
to have with the people that we serve. We believe in being 
neighbors and being friends with the people that we're serving 
because through that they will take a step up. Yes, they're 
going to fall down and, yes, they're not always going to do 
exactly what we think they ought to do, but to understand that 
we all make bad decisions.
    We all make bad choices and we still do it. Instead of 
pointing the finger at them and saying everything they're doing 
wrong and judging them and saying how they should be like us is 
to accept them and allow them to make the decisions they make, 
but at the same time empowering them with their choices, with 
their options and the consequences for choices and letting them 
as human beings determine that for themselves.
    And so through our program, through the Department of Human 
Services I was able to start an alliance called the Mariposa 
Alliance and we decided to start in Lincoln. And the reason 
that I developed the Mariposa Alliance is because working with 
so many different social service agencies we were failing the 
people. We were scarring them. We were coming in with our great 
big ransom. We're going to serve you and we're going to do this 
for you, and then after the 6-week limit was up or whatever, 
people were just dropped cold.
    The reason we can't serve and meet the needs of the people 
in these inner city communities is because there is so much 
scar tissue underneath all the things from all these programs 
coming in and trying to help them and then leaving them high 
and dry that they have no trust. They're not going to help us 
with our government programs or to keep our budgets. They truly 
want relationships. They want somebody that is going to care 
about them, that's going to stick with them through and 
through.
    Yes, Urban Connection as--well, let me go back. Through the 
Mariposa Alliance we were able to sit down and come together 
with a number of different agencies in the city from VIA--I 
mean, we got together everybody because it's a community thing. 
It's not just going to be one agency. And then we duplicate 
agencies because guess what? Just one case management system or 
just one organization can't serve 100 percent of the 
population, so you need a teamwork of different organizations.
    So we may have three or four different counseling services 
sitting at our table, three or four different transportation 
services sitting at our table, umpteen churches sitting at our 
table because that way as a team effort if I can't serve and 
meet the needs of the person that we are serving, guess what? 
I'm going to refer them to you. I'm not going to worry about 
losing my numbers because guess what? I'm still going to count 
that person because I'm going to count them as referred to you.
    Now, I will followup with you to just make sure that person 
is still in your care. If you can't serve them, then you're 
going to refer them to somebody else so that the person is not 
dropped. They continue to be served until the needs are met as 
a teamwork kind of spirit. And I think that's what God has for 
us to do as social service agencies and faith-based 
organizations is to work together for the cause of the people.
    So we decided through the Mariposa Alliance to come through 
and with Oak Hills Church of Christ Church to start an after 
school program because a lot of the ladies and the people at 
Lincoln were saying that they could not--they were quitting the 
jobs because their children had to walk so far to get home from 
school in the afternoon and they were concerned about them 
walking all the way down Zarzamora with no supervision. So we 
started--we just started a couple of days having after school 
program, which was a great success. The children were saying to 
us, ``Are you going to leave?''
    The parents were like, ``Are you going to leave?'' Because 
that's what always happens. People come into the housing 
developments and they come and they do--they have their agenda. 
And then if they don't--if you don't meet their agenda, they 
then pull out and they leave. Again, children and people are 
left scarred.
    So one of the ladies that joined Mariposa through Oak Hills 
had--was familiar and had been on the board with Central Dallas 
Ministries and so she asked me to meet their director. From 
there I became--I got offered a job to expand their program. So 
now we offer an after school, we offer them PACE, which is 
Personal and Community Empowerment, where we teach groups of 
young women and mothers and people living on the property to 
work together as a group to produce their own community 
enhancement projects. We don't claim to do anything for them. 
We're going to teach them to do it for themselves.
    So the red light is on because I could talk about this for 
the next 24 hours. Well, we really do work with the kids. We 
empower them and we, of course, work with the adults, but we're 
going to have to establish a new generation. And so the best 
way to do that is to buildup. I consider myself like Nehemiah 
in the Bible and so it may make me 12 years to rebuild this 
wall, but it's going to get rebuilt. Thank you.
    [The prepared statement of Ms. Grubbs follows:]
    [GRAPHIC] [TIFF OMITTED] 91133.028
    
    [GRAPHIC] [TIFF OMITTED] 91133.029
    
    [GRAPHIC] [TIFF OMITTED] 91133.030
    
    [GRAPHIC] [TIFF OMITTED] 91133.031
    
    [GRAPHIC] [TIFF OMITTED] 91133.032
    
    Mr. Souder. Thank you. Before we move ahead, I was really 
remiss. Do you need a little bit of a--well, I'm sitting here 
talking. She's been going like this for hours. I really 
apologize. I should have taken like a 10-minute break before 
this third panel, but if you think your fingers can handle the 
last stretch here, we'll try to do that.
    Ms. Oettinger.
    Ms. Oettinger. Oh, OK. Great. Well, thank you. I'm so 
delighted to be asked to come here today.

STATEMENT OF JILL OETTINGER, EXECUTIVE DIRECTOR, GOOD SAMARITAN 
                             CENTER

    Ms. Oettinger. Thank you for inviting me here today. I'm 
the director of Good Samaritan Center which is an Episcopal 
Community Service Center here in San Antonio, but I also wanted 
to add that I'm also chairman of Christian Faith in Action. I 
oversee all the parish outreach for the Episcopal Church and 
its diocese. We have 92 parishes from just south of Austin to 
the border. Also I am a member of the brand-new organization 
called Episcopal Community Services of America. We found that 
we had 509 Episcopal social service organizations in the United 
States. We had never linked ourselves together like Catholic 
Family Charities or Lutheran Social Services, so we have done 
that this last year.
    So I had a funny thing happen a few years ago when this 
faith-based initiative began. I had a phone call from 
Washington and I was asked, ``Are you a faith-based 
organization?'' And, you know, I really paused because I--and I 
had to laugh to myself and say, ``Tell me who is calling.'' 
Because the answer is we dance. We have to be very careful as 
an organization on how we answer this question and how we go 
forward and how we do combine our faith activity with our 
social service mission.
    So I'm glad that I've had the opportunity to look at not 
only my organization, but all the parish outreach in our 
diocese as well as what's going on nationally for the Episcopal 
church, and I think I have a better idea now on how to answer 
that and still stay in business. So I'm going to very briefly 
talk about Good Sam, the diocese, the national and then I've 
got a few suggestions on how we could have greater 
participation of faith-based organizations with the Federal 
Government, for what they're worth.
    Good Samaritan Center was founded in 1951. We came out of a 
parish outreach, which we find most of the social service 
organizations of the national church have. So that it is 
important to nurture those kinds of activities because that is 
the grassroots that you're working for and how to support that 
so that it can grow into a larger initiative. We serve at our 
center 3,400 clients a year. We're about 5 minutes away from 
here on the west side of San Antonio. We are nationally 
accredited in everything we could think of, child care, our 
case management, our educational programs, youth development 
programs. That was a very clear change and transformation in 
our organization from when I came in about 8 years ago. We 
looked more like a parish outreach with a lot of volunteers and 
not a lot of money, and honestly we were kind of used up and 
worn out kind of place. We decided as a board to raise the 
standard and to set the highest standard because we believe 
that when we think of our own children, that's the moment we 
think of children of others, and that's how we began to really 
change what we do.
    We were doing it OK, but it was not good enough and it was 
not good enough for our own children and it really began our 
child care. It was honestly a shame when I had looked at it my 
first round through. I went to my car and I cried and I drove 
to my priest and I said, ``What has the church been doing in 
this place?'' And so we began there in this brokenness to say 
how can the church participate in this community in a way that 
will have that lasting outcome and be significant and that was 
to become a nationally accredited child care center, the only 
ones in town that have been able to do this for children in 
poverty.
    How do we do this? Only because we match and leverage every 
nickel I can. The Federal dollars are crucial. You know those 
child care block moneys come from the Federal Government to the 
State and, you know, they're in Austin. Then they come down 
here to the city and then finally someone like our organization 
is able to get our hands on some. The United Way has been a 
very big player in this town, but the Episcopal church has been 
another huge source giving us all the property, helping us with 
all the capital campaign. We did a $3 million renovation. We 
couldn't have done that without the church. So we have 
beautiful rooms, but the child care money from the Federal 
Government can't come close to quality. It doesn't even touch 
it, so it's these partnerships that's made it possible.
    From there we have--just as a side, our budget runs about 
$3 million. We have over $1 million fund with the Department of 
Labor for the WIA dollars, those Workforce Initiative Act for 
the youth employment programs. We also have KDBG dollars. We 
are building a senior center for our neighbors here and we also 
give criminal justice money doing court-ordered community 
service for youth.
    Moving quickly on to what's going on in our parishes 
throughout the diocese. You know, we found varied degrees of 
quality. And I hate to say that out loud, but it's the truth. 
We have very good intentioned individuals, but that might not 
be delivering the highest quality standard and may not be--
because they're not credentialed professionally to give--
sometimes it is mental health kinds of issues, homeless issues.
    Certainly we can handle the spiritual issues. We love to do 
that and that's what we're called to do. But we found the kinds 
of things that were coming through to those outreach ministries 
really required professionals. It really did. We do find that 
90 percent of all of our parishes host some kind of 
partnerships or collaboratives. We're full of AA meetings, 
Meals on Wheels, Habitat for Humanity and Emergency Assistance. 
We are currently looking to move into the border to provide 
social services there. When we look nationally through the CDC, 
the 10 poorest counties in the United States, three of them are 
in this diocese. They're all on the border. And so we know 
that--and there is not any money on the border, so we know that 
as a church the only way we're going to be able to do that is 
if we partner with the Federal Government through HUD and 
through child care initiatives, probably Head Start. No other 
way to do it. There is not enough money in our churches on the 
border to do it or in our foundations. Now, our foundation 
money you must know comes from our church members.
    And then the third area is Episcopal Community Services of 
America, and this--the underlying intent I thought you might 
find interesting. It's for all Episcopal community service 
organization endeavors. It's to show Christ's people that in 
serving the helpless, they are serving Christ himself. But 
service without standards can be incomplete. To serve others as 
Christ would demands consistency, high levels of efficiency and 
effectiveness. The primary devotion of Episcopal Community 
Services of America is to ensure that all members maintain a 
community presence that is marked by a commitment to quality.
    A few of my suggestions for greater participation are and 
you probably know all of this, but for instance, our Department 
of Labor contract with WIA, it's a $1.4 million contract which 
allows only a 10 percent administrative cost. Now, this 
administrative cost is shared by our local work force board, so 
now we're down to 5. It costs me 14 percent to run my 
organization. This is with all my property donated and a lot of 
volunteers, 500 a year minimum all the time. The place is 
crawling with people helping. So I have to raise--for $1.4 
million I have to raise $126,000 a year just to accept these 
grants. Our local work force board begs me to take hundreds of 
thousands of more dollars because we are doing such a good job 
and I have to say I can't raise any more money this year. I 
can't. This is the top end.
    But what is very interesting is that these grants allow 
for-profit organizations to take a 9 percent profit. So you say 
to me how can we encourage faith-based organizations? Make it 
fair. If you allow a for-profit to take a profit, which 
basically just gets them to even because it's 9 percent. That's 
what we're all losing here. Let that be the same for us. Treat 
us the same as you would the for-profit. The reason that 
happened I believe is because for-profits were doing a great 
job providing social services so you wanted the best business 
practice involved. Now that we are utilizing best practices, 
treat us fairly so that we can manage all your rules and 
regulations. My God. They're unbelievable. And so just to get 
ready for your audit, which is audit upon audit upon audit, we 
really need that.
    Additionally, and I'll say very quickly, how do I answer 
that phone call if you're faith-based, I think you have to help 
clarify what is allowable so that we are comfortable to accept 
Federal dollars to do the work that we are doing, and how we 
can stay--how we can help those to serve. What do we need to 
say? What is the language? Where is the line? Make it clear 
because we're so worried that we're going to go to jail and 
we'd rather be on the outside going in than to be living 
inside.
    And then finally how can we help? I think we have to write 
checks to people like the Garcias and Victory Outreach and I 
think it's separate from the dollars that we pay in taxes. I 
believe that their ministries and the ministries of our church 
as well as this faith-based witness we've heard today are 
extraordinary and that we have to write a personal check to 
support that.
    [The prepared statement of Ms. Oettinger follows:]
    [GRAPHIC] [TIFF OMITTED] 91133.033
    
    [GRAPHIC] [TIFF OMITTED] 91133.034
    
    [GRAPHIC] [TIFF OMITTED] 91133.035
    
    [GRAPHIC] [TIFF OMITTED] 91133.036
    
    Mr. Souder. Thank you. One way you can tell you're a faith-
based organization is you're called the Good Samaritan Center. 
We have a hospital in Forth Wayne that has a helicopter that 
goes out to help people and it's called the Samaritan 
Helicopter. And religious people kind of keep wondering does 
that mean they fly by when there is a wreck, the Good 
Samaritan.
    Mr. Tellez.
    Mr. Tellez. If possible, I'd like to know if I could 
possibly stand up to point a few things out here?
    Mr. Souder. Sure. And when you point them out, if you can 
describe them for the written record.

            STATEMENT OF MIKE TELLEZ, CHARACTER KIDS

    Mr. Tellez. Yes, you bet. OK. My name is Mike Tellez. I'm 
from Las Cruces, NM, another one of those poor border cities. 
We're about 25 miles from the border. And it is a poor border 
city, but for some reason we're able to spend $100 million in 
the local Wal-Mart in that poor border city. So is there a lack 
of money in Las Cruces right by the border? No, there isn't. 
What there is a lack of is vision. Vision on where to put that 
money at. Do you know I was glad to hear this gentleman talk 
about scientific research because for the last 5 years Jason 
and a few of us, we're businessmen. We don't have churches. We 
don't have buildings. We don't have grants. We don't have 
nothing but our wallets, but do you know what? We've been 
studying science a little bit ourselves so that we have a 
little--a few answers for the gentleman who had the scientific 
research.
    Well, you know, there has been some good scientific 
research. Science has said that TV has gone from the cradle to 
the grave with advertising. Well, what are we advertising? 
Well, I don't know. Here's Buffy and what is she advertising? 
That's a pretty hot and heavy scene right there to be 
advertising right there. This is what our kids are watching. 
How about the way we got our girls on TV dressing right now? 
Wait a minute. We talked about proselytizing. You know, it's a 
shame that Kelloggs--everyone on Earth from Budweiser to Buick 
to Ford can proselytize, but when it asks for us to put a Bible 
in a box of food, we are looked at. Oh, my God, they are 
proselytizing with Federal money.
    Well, you know what? This is all proselytized with money 
from all the food that we buy every day. Look at this 
proselytizing right here. This is what we sell. We sell 
clothing to Britney Spears. We sell Budweiser to Shell gas. 
That's proselytizing. So you know what had happened is our 
hands have been bound. We can't use Federal money to buy a 
Bible, but yet you can use a welfare check to buy drugs and 
alcohol. What is going on there? We can use Federal money to 
spend on whatever we want as long as it's welfare, but we can't 
use Federal money to teach a child morals.
    You know, we have taken--if they were saying, Mike, what is 
the one thing you could just ask for and you would die today, I 
would ask to put an option back in schools in 5 year olds and 6 
year olds and teach these guys something to counter the 
scientific studies that have told them there is no God. That 
it's OK to drink. There can be no wrong in America anymore. If 
you can't control it, legalize it. That's what we're teaching 
our kids. We're using all this scientific stuff to create a 
problem, but yet when it comes to solving it, we bind our hands 
and we don't get to use any of our scientific work.
    You know, we have studied the Bible. You know, I haven't 
been a Christian all my life. I have done all the dumb things 
that everyone could do. I have drank a lot and, yes, I cold 
turkey stopped using cocaine from 1 second to the next. I said 
that's enough. I am being delivered by the blood of Jesus 
Christ. And we're going to quit wavering. Either we're going to 
be a faith-based or we're going to be a fence walker. We have a 
problem in America today and there is too many fence walkers 
sitting in the pews on Wednesdays and Sundays. Your money, my 
goodness, how dare us wait for money to go out and do what 
Jesus called us to do. We need to get off our backsides and get 
up and get busy because we're losing an entire generation of 
young kids. We're losing them. What does Newsweek call those 
young kids? The Godless generation. Now, what are we doing? 
We're in here begging for money so we can go out and reach 
them. Do you know what? We better get out and reach them 
because we're the ones who let them go. We better be the ones 
that reach them. They're hungry. Let's feed them. Well, I don't 
got no money. Well, you know what? You better raise some money.
    We have 55,000 pounds of food in a warehouse right now. We 
have a warehouse. We have a warehouse that feeds the children, 
back the semi up to. We'll help Feed the Children get there. I 
called Feed the Children from my restaurant because I said, you 
know, I'm not going to sit here and own an IHOP restaurant and 
I'm not going to see hungry people in every direction I point 
my finger without doing something.
    I have an open-door policy in my business and I urge 
businessmen to do it. There will not be a hungry person walk in 
that place that can't get something to eat. I don't care why 
they're hungry. They're hungry. There will not be a hungry 
child in the county I live in. Not the city, not the 
neighborhood, not my house, the county. We will deliver food to 
them. Who pays for my phone bill? I pay for it. At IHOP 
restaurant here's my number, you can call it. Seven days a 
week, 24 hours a day you can say I'm hungry. Where do you live? 
They will give me that message. We'll deliver you food. And 
what will we put in there? Well, we're guilty of something. 
We're guilty of proselytizing because you know what we're 
doing? We're proselytizing this food. We're taking them 
spiritual food and throwing the food to eat in free.
    So you know we are proselytizing. We're proselytizing these 
few items inside here. We do not proselytize the word of Jesus 
Christ because that is ultimately first and as long as we act 
like this is first, what are we doing it for then? Are we doing 
it for money? Are we doing it for fame? Are we doing it for a 
pat on the back? What we better do is we better do it for these 
young guys right here.
    We walked into a school--we've gone into every elementary 
school of need in that area. And you know what, there's hardly 
an elementary school I can walk into that I don't walk out of 
crying. I see the need in there. But you do you know what, I am 
not going to go fill out a government grant because Johnny here 
don't have shoes on. I'm going to go to K-Mart and buy Johnny 
some shoes first. Then I'm going to tell Jason who runs Jack-
in-the-Boxes, Jason, we need to go get these guys some school 
uniforms, man. He said, let's do it. Booker T. Washington 
called me up and said, Mike, we got all these kids and there is 
no backpacks. How many do you need? Twenty. I said, well, do 
you know what? I'm going to go down over here. I don't go fill 
a grant out because I'm not going to spend any money filling 
grants out. I'm going to spend my money feeding the hungry, 
clothing the naked, putting backpacks on kids in schools and 
finding a way to take all this disgusting advertising for 
alcohol out from in front of the eyes of our kids.
    What does it take? Does it take money? No. Do you know what 
it takes? It takes a desire and a fire inside to truly make a 
difference. There is no amount of grants on Earth that can do 
the difference of passion. You have to have passion for what 
you want to do. That's what you have to do.
    You know, we reach kids. Here's a kid right here. You know, 
Chuck Colson, we're hearing about his ministries. Well, you 
know, in Las Cruces this is the horror stuff that's been 
happening in our colleges. You know a lot of it has gone to our 
city. In Las Cruces, NM a kid walked into Mayfield High School. 
This was on CNN, national news. He had a pipe in his hand. He 
had a mask on his face. That was right after Columbine. That 
kid went into a class to get somebody who, thank God, wasn't 
there. Well, you know, this kid went to jail and they banned 
him from society. If they could have thrown him in the trash 
and burned him, they would have.
    But thank God for these jail ministries. I tip my hat to 
them, someone went and told this young man about Jesus Christ. 
And today this man serves in our organization as a sold out 
Christian and what does he teach at 19? He teaches guys at 8 I 
drank, by 9 I was on drugs, at 10, 11 I was sexually evolved. 
I'm going to teach you guys there is a better way to go than 
that. And that's what we have there, an example. Our examples 
don't come--here's a kid right here. What's that kid doing? 
He's packing these boxes. Do you know why he's excited? Because 
he's on probation and somebody has finally given him a reason 
to do what is right. Our children are not for sale. They're not 
for sale. Our government is bombarding them with free stuff. Go 
into a neighborhood. You don't see a lack of resources. You see 
a lack of discipline and leadership. I see a light so at that 
point I guess I better sit down.
    [The prepared statement of Mr. Tellez follows:]
    [GRAPHIC] [TIFF OMITTED] 91133.037
    
    [GRAPHIC] [TIFF OMITTED] 91133.038
    
    Mr. Souder. I have a question for Ms. Oettinger that one of 
you talked about the need to try to figure out how to get money 
to people like Freddie Garcia, but that we have to have some 
kind of separation in government and private and how to work 
that through. What's your reaction when you hear the passion? 
Because so much of our social service network and where we are 
literally putting tens and tens of billions of dollars doesn't 
have that passion. It's like we have a disconnect. What would 
you do to try to connect that?
    Ms. Oettinger. Well, I'm passionate. I can stand up and do 
that. There are many faith-based organizations that share this 
passion and--but we do it in different ways. But I will be 
there 12 hours a day. I'll be there 20 hours a day. We'll be 
driving kids to our camps. We'll be doing it all, too. But I 
think the way the system works is healthy, and I think that we 
can encourage organizations that don't qualify for Federal 
dollars because the message, the religious message is part and 
parcel of the program. We can encourage them in other ways.
    I heard you trying to fish for how can we do our utilities? 
How can we do other things? And I think we should explore every 
avenue possible. But when we cannot find a way to do it, like 
Jack Willome sat here and said don't touch this. You're going 
to--probably shouldn't say it in this place--screw it up. The 
regulations that the Federal Government has are so onerous that 
it will be messed up. I say leave it alone and write a check.
    Mr. Souder. And I wasn't necessarily speaking of your 
passion and quite frankly sometimes government bureaucrats of 
which as a former staffer, I was one, and certainly as a Member 
of Congress I'm close to one, that I see many people in the 
welfare system, probation officers who work overtime. There are 
restrictions on how much they can, but often they don't report 
it, but there is a passion difference, whether when you're paid 
or not paid.
    And bluntly put this is another dilemma I raised earlier 
and I'm curious, you work in the Episcopal outreach in this 
region that you referred to the border towns and the low income 
areas and many areas of south Texas that it's a different 
experience even when you go back to your more traditional or 
middle class or upper class churches as opposed to your low 
churches--lower income churches in your diocese there is a 
different sense of passion, and to some degree in the African-
American and the Hispanic community there is a different 
approach to the same problems than we in the White church have.
    And that the money is almost all going to White dominated 
organizations with which to try to help the minority 
organizations. In that we say it is reporting procedures. That 
you have to have a college degree, but the fact is that the net 
impact of that is almost all the administrative costs are going 
to Whites in trying to address problems of minorities. How 
would you address that?
    Ms. Oettinger. You've asked a lot of questions in one. What 
we do as an organization is we hire the best person, and in San 
Antonio we have found that in staying faithful to that we have 
hired a diverse labor force. Everyone has to be extraordinarily 
qualified for the job, but in San Antonio today we have all the 
professional credentialed people of all minorities and cultures 
and races available to hire.
    So in my organization the head of my youth department is 
Joanne Medfried, a huge Black leader in San Antonio and the 
Texas Department of Human Services as a State. I mean, she's 
extraordinary. Dr. Yolanda Santos heads up all my adult family 
programming, a Ph.D. In public health. So I think if we're true 
to--not discriminating and we, in fact, hire the best, most 
qualified person for the job, you'll find that diversity and 
you'll find that the Federal dollars will flow evenly.
    Mr. Souder. What do you think about the earlier discussion 
we had about living in the Zip Code?
    Ms. Oettinger. Help me remember.
    Mr. Souder. Do you agree that many of the problems occur 
after 5 o'clock or on weekends and that--I mean, literally I 
have been looking at and have talked to a number of people and 
we're about to do it. We're trying to decide whether to do it 
in an experimental way or mandatory and that's requiring that 
if you get any government funds, your administrative overhead 
at least a third but possibly higher of the people who get paid 
have to live in the Zip Code in which they're serving.
    Ms. Oettinger. I think you're crazy. You know, this is an 
argument that our board had some years back and I actually had 
to show my 85 staff members, I had to show in a pie, and I have 
this for you, who was living in the neighborhood, who was 
related to someone living in the neighborhood, who lived in a 
neighborhood that was similar to this neighborhood. God doesn't 
care. God says it's your heart that matters. It's not what your 
race is. It's not your religion and it's not where you live. 
It's what is your heart. People say this all the time. I'm 
Anglo. I'm from New York. I mean, I'm Episcopalian. I'm working 
all my day in a Hispanic, low income Catholic neighborhood. Why 
am I there? If you argue like that, I can't be there. And yet 
I've grown an organization from serving 25 kids to this summer 
we have 2,000. We have 500 a day. We're serving all of these 
meals. God doesn't make those kind of rules. Don't start. God 
cares about hearts.
    Mr. Souder. This is really important and I appreciate--
there you showed your passion. And God will forgive the 
Episcopalian and all the other stuff. It's the New York part 
that's in question. I wanted to just followup with that one 
more time because a person who had a big impact on me on this 
question in the reverse way was Dr. Keith Phillips who founded 
the World Impact Organization, was one of the founders of Youth 
for Christ, and they have programs where they build inner city 
schools and mostly have kids, White kids from colleges who come 
in then and serve as teachers. And I asked him whether they had 
the impact that they had hoped to have, and they said as a 
practical matter they've had less impact in the neighborhoods 
then they had hoped to have. They thought they would have more 
kids going to school. They thought they would have more long-
term impact, but he said it's had a great Christian impact on 
the kids who went into the cities because God calls them to 
sacrifice, them to care for the poor and it softened their 
hearts because they saw things that they had never seen. If 
they hadn't come into the city, they wouldn't have had that 
impact. They would have lived a totally separate life which is 
somewhat what you're saying.
    But I asked a more effective question then I did a calling 
question or a fair question that's hard, and that is, can you 
or I--I had a African-American homeless man sat down and we 
talked one time for a long time because I was waiting for 
something and he was waiting and there were multiple things, 
but he said he knew he was going to be a failure when he was on 
his front lawn and as a little kid and that they came up--it 
was the day before Thanksgiving and somebody brought him a meal 
and--their family a meal and the other kids said your family is 
so poor and so dirt that you can't even have your parents 
create the family meal. You've got to have some White suburban 
family come in here with your family meal.
    And when he said that, I thought that family gave up time 
the day before Thanksgiving to bring a meal in for you when 
they didn't have to do that. They were doing it out of the 
charity of their heart. On the other hand, from his perspective 
with his friends because of the way they did it by not moving 
through his parents and in effect having it done in a 
conspicuous way that embarrassed him in front of his friend and 
that they didn't feel that they had any earning with it, what 
was our charitable didn't work.
    And the question is how do we do this from an effectiveness 
standpoint, not from what we are called to do. If we are called 
to do this, how do we do this and I involve--and part of it is 
that to some degree we are running into some cultural questions 
here. And what's certified? How do we reach that?
    I was just curious and if you have any comment to that, 
that's a dilemma. It's not your motive or the motives which are 
pure and should be praised. And I'm sometimes disappointed in a 
minority community when they come back with this that they 
understand, look, the people who are coming in here to help, 
their motives are wonderful.
    But the question becomes effectiveness. If we don't live in 
that neighborhood and the problem occurs that night, how do you 
deal with the juvenile delinquency?
    Ms. Oettinger. You asked a lot of questions again. There is 
a lot of different answers here and I'd love to spend the rest 
of the day talking with you about how we've approached these 
because we have struggled as a board and a predominately Anglo 
church in this town although, as you may know, the Episcopal 
church is--the largest component is Africa, so it's Black--
Africans is our largest population.
    But again, I would go back to saying that everything we do 
has to be in partnership and in community. And the fact that 
it's--that grassroots is something that you've mentioned is 
critical. It doesn't do us any good if we're not living and 
creating programs that are available 24/7. Yeah, it's late. 
Sometimes people call me it's 9, 10 p.m., and we're just 
closing up Good Sam because we have to be there when the kids 
are there. Yeah, there is no one there from 10 o'clock until 
6:30 a.m., when our child care opens and I have to pray that 
they're going to be safe and they are not always. We did used 
to have staff that worked with gang members that would work at 
night and be on call, and I'll have to tell you it didn't go 
well. There is a lot of folks here that could know how not well 
it went, so it's a challenge.
    But I think one of the things I found that was most 
effective is this--and you might follow it, KIP Academy. You 
know, this is just hitting the country like a storm. Gap 
clothing is supporting it. It was in Houston, KIP Academy. 
There is one in Chicago and one in New York. There are--they 
are just now with Gap supporting--they're going to open 139 
schools this year. We got one in San Antonio. And you know, 
it's real interesting. They are from the outside, but what they 
do and why they're so successful is they believe in high 
quality. They believe in rolling your shirt--your sleeves up. 
They believe that all inner city kids can get into Ivy League 
schools.
    And so I think we have to be careful here and that's where 
I think it's a partnership with the community that's out--those 
of us that may live outside the Zip Code and those of us that 
live within, the most important thing is that we have a good 
heart and that we keep the bar high.
    It can go either direction here. You can have people living 
within the community that don't believe these kids can succeed. 
You're never going to get anywhere. I mean, you can hear that 
from any group. But what do you want to listen to and how do 
you want to set your standard? Why is KIP Academy so--is doing 
so well? They have a partnership with the parent, with the 
teacher and the child. They have a covenant between them and I 
believe that's what's effective here, too. You have a covenant 
with those that you're serving as well as their family and this 
community and then you as a foundation are corporations coming 
in to help. It's a partnership. It's a covenant. It is 
something this is not just one person.
    I mean, the reason the good Samaritan story had held up so 
long is that the Samaritan didn't stand on the street and let 
everybody know, hey, I helped this guy. He really very 
quietly--the story got told because he was quiet, is he took 
that man that was beaten to the inn and he said to the 
innkeeper, here is some money. Anything else you need when I 
come back, I'll pay you. But he didn't--you know, he didn't 
tell the story. The story got told because of his good work. I 
think if we do that as a helping community, as a Federal 
Government, we can accomplish that.
    Mr. Souder. One more technical question. You said in the 
nonprofits, the profits 9 percent, was that 9 percent on top of 
the 10 administrative?
    Ms. Oettinger. Correct.
    Mr. Souder. So they get 19 percent to work with?
    Ms. Oettinger. Well, it depends. If that dollar came 
through, let's say, the work force board here in San Antonio, 
the Alamo Workforce Board, they don't--there is only 10 
percent. So they would still take their half. They would take 
five and still just give five to--Lockheed, I think, Martin had 
some of the contracts here at some time.
    Mr. Souder. But then they could make 9 percent on that?
    Ms. Oettinger. Correct.
    Mr. Souder. Ms. Grubbs, that you--how many people do you 
have working with you over at Urban Connection?
    Ms. Grubbs. I have one paid employee other than myself and 
she is a resident of Lincoln Court and she is also a Mariposa 
volunteer. She just got appointed to the San Antonio Housing 
Authority internal board of commissioners. So she's very 
active, so I felt the need to hurry up and employ her before 
she goes somewhere else, but to utilize her expertise of the 
neighborhood, her knowledge and she helps us be able to build 
the necessary trust. But we had to prove ourselves to her first 
because she wasn't--we can't go in there shucking and jiving. 
If she needs something done, she wants to know we're going to 
take care of the people. She doesn't want them to be harmed or 
hurt or misled. So I consider her my partner. I don't consider 
her my employee.
    Mr. Souder. Do you have other then volunteers who work with 
you?
    Ms. Grubbs. We have volunteers. We have a lady, Linda 
Matthews, that she travels every other week from Dallas to come 
volunteer with us. We have the residents that help. We have 
different churches that come in around the city and they'll do 
different things for us or with us. We try to--we're really 
particular about that because of--we want racial 
reconciliation, but at the same time we have a lot of the 
churches come in and they're coming from the Anglo churches and 
they're coming in and they're looking at the children and the 
people like they're going to the zoo and it's like they stay 
separate. They don't engage. And the only way that you're going 
to even make a dent in the cause for Christ is that you engage 
with the people so that they learn from you and you learn from 
them. But what tends to happen is they come in to do their good 
deed and leave off their food and help out those people that 
are hungry, which aren't necessarily all that hungry all the 
time, they come to do that and then they sit on the bus and 
they just stare out at them and then the children don't know 
how to react because their first instinct is to do what comes 
natural to them because of the environment they live in which 
is to make faces and do everything else. So we have to teach 
them don't give them what they come to see. They come to see a 
show. They come to see the zoo animals and see how you project 
kids act and how you're going to cuss and fight and cuss and do 
all this stuff. You have to show them something different. And 
that's where we spend--so we are very careful. I consider 
myself very--I really pray a lot about who we allow to come in 
and do ministry and to work with the people in the courts 
because I don't want them harmed.
    Mr. Souder. So that was a partial reaction to what I said a 
minute ago and could you elaborate understanding that--this is 
really a fundamental question in charitable time giving, which 
is one of the things we are trying to figure out how to do in 
additional charitable gift giving which we're trying to 
encourage in the--particularly in the middle and upper class 
because almost now half the people don't even pay Federal 
income tax.
    So when we're talking about increasing the charitable 
deduction, we're mainly talking about or are solely talking 
about increasing it for middle and upper income people to give 
dollars which is one way to do it is to give dollars, but one 
way we're also trying to do is give time. And in giving time we 
want them to give time to help the poor, not just time for the 
philharmonic or time for other things which all need volunteer 
time. Volunteer time is down. Two families--two parents now 
working. There is a softness in the economy. Charitable giving 
is down in the United States, so we really need the time.
    And yet--and it is hard enough--you know, in other words, 
here is part of the dilemma, you're right that some of the 
people who come in are doing it almost for guilt relief. It's 
their thing to do for the poor, but, you know, one of the 
problems we have in society is about 90 percent of the people 
don't have any guilt at all. There is--they don't need to do 
guilt relief because they don't feel bad about the poor. They 
don't want to increase the taxes. They don't want to spend the 
money on it. They want to talk about the problem and say it 
will get better. They don't want to do anything. So even the 
people who are doing it for guilt relief have a motive. At 
least they want to do something.
    Now, how could you suggest we--this is a real challenge 
because you don't want to discourage the people from doing it. 
You want to try to build and empower people in the community 
themselves. What would you do to advise people like myself and 
others who live in the suburbs of what can we do to help build 
and empower the local people rather than just kind of a little 
bit of guilt relief over here?
    Ms. Grubbs. What we really do is we encourage people to 
come down to Urban Connection. We call it the house. We welcome 
people to the house to come in and sit amongst the children and 
learn. I had a young man came from Glenwood Church of Christ 
and came from Tyler, TX and he said the most powerful thing. He 
said we're always being told to grow up, but we need to grow 
down a little bit and come in and sit with the children and 
just talk to them. We have the misconception that there is no 
Christ in people living in poverty, in the housing development, 
but there is a lot there. The children believe and--but so 
really, it's really about coming to see and coming to visit, 
not to spectate and--but to get a feel. Everybody that comes 
into Urban Connection leaves with this, you can feel the peace 
there. You can feel the love of Christ there. You know, you--
it's something more. I can tell you all that we do and how you 
can help us out, but come down and let us show you and 
experience it for yourself. That's going to be the life 
changing experience because, yeah.
    And then true enough, true enough, some people just need to 
give their money, OK, because that's what they're gifted to do, 
to give. But there are some people that can come down and 
they'll be more willing to give or to do something because half 
the stuff that we have didn't necessarily come from money. We 
have a whole two bedroom--well, four bedroom, two houses put 
together that was basically stuff that was just given to us.
    Everybody takes--I mean, I'm not going to ask you 
necessarily for your money because your money doesn't always 
help me. But you're--if you have books, our children need to 
read. They're not reading at the level in which they need to 
read, so donate books. Donate a little bit of time to come sit 
with somebody, a child and help them read or come do something. 
Come give a GED class that doesn't come from computers that 
you'll sit down and talk to somebody and teach them and help 
them feel secure about working a math problem. It's just giving 
a little bit of time and I'm not asking--the biggest thing is 
commitment.
    We're not asking that you come every day, every week. If 
you can give me 10 minutes a year and that's what you can 
commit to to give me your undivided attention or give the 
children or the parents your undivided attention for 10 
minutes, that will mean more to them than all the money in the 
world because it will make a difference. It will leave an 
effect with them. Because one thing I know that we lack in the 
church--in the church community and the community as a whole is 
commitment. Nobody wants to commit anything.
    Mentoring programs are working, but they're not working to 
the amount that they need to work because nobody is willing to 
commit 6 months to talk to somebody on the phone and to make 
one visit every quarter or whatever. And so we really need to 
learn to commit and it's more--and sometimes it's just more 
than just your money.
    It goes beyond charity really. I mean, there is a book 
written by John Perkins called ``Beyond Charity'' and it really 
does go beyond charity, beyond you giving your funds. Yes, that 
helps, but in dealing with the people that I deal with, they're 
looking for us to just be committed to be there, to do what we 
say we're going to do and we're going to do it regardless.
    Mr. Souder. Do you get African-American and Hispanic 
volunteers who have made it to middle class coming back as 
well?
    Ms. Grubbs. Well, we in San Antonio have only been in 
existence for 1 year, so we're still working this out. I still 
go around getting up every day not knowing exactly how or what 
I'm going to do, but knowing that as long as I follow the Lord 
and his leading, we'll have the successes. I know through 
Central Dallas Ministries they have a lot of people coming back 
from the middle class, being raised up, going out and coming 
back in.
    And that's the goal is to get the people that are there to 
go--to leave and come back. We have a couple of women that were 
residents that do come back on occasion and help us volunteer 
or make sure that they are there to do something for us and 
that's what's most important.
    Mr. Souder. Thanks. Maybe we can get some of the data from 
Dallas too as far as looking at this.
    Let me ask Mr. Tellez--first off, I know you are under 
oath, but you were only marginal when you said you weren't a 
preacher. A marginal definition there because I feel I can go 
back and say I met the IHOP preacher. Congressman Pierce spoke 
very highly of you and I know you did in your written testimony 
and he was right, that's clearly your passion.
    Could you--before I get into some of the specific questions 
in that, what prompted you to get started?
    Mr. Tellez. Well, I believe that it was--I've been called 
all my life to make a difference and, you know, about 5 or 6 
years ago I felt a real strong call to make a difference in 
life. You know, I was--I'm a businessman. My No. 1 goal in life 
was to be a millionaire by the time I was 45. You know, it's 
just a calling that God put in my heart and he diverted me from 
that direction and what it did was it put me here focusing on 
the young kids out there, and, you know, the young kids, 5, 6, 
7 years old.
    And what I felt was right now we're in crisis with that 
particular age group right there. And so, you know, I started 
going into the churches and this is 5 years ago and I started 
speaking to see if--you know, I felt I had a message for the 
church. Well, I went to 25 churches, Jason and myself, and we 
talked until we were blue in the face trying to get them to get 
up and let's get something done. And I came to find out that 
calling wasn't for the church. That calling was for me to get 
up and start doing something.
    So rather than calling everyone else to do it, I said, you 
know, I need--we need to start doing it ourselves. This is 
something we better do.
    You know, we're businessmen. We finance our own ministry. 
We pay the rent for our own buildings and, you know, where does 
our reward come? Our reward comes when just last week a lady 
called and she says, ``Mr. Tellez, we need you to come by this 
week.'' I said, ``I'll be there this afternoon.'' So we have a 
few other business guys who will deliver bread from a grocery 
store, produce, and we have these basic boxes.
    So what we'll do is we'll go to this trailer park. And you 
asked how to approach a neighborhood and be welcome in it to 
where they'll accept what you have. Well, you create a 
relationship in that neighborhood. We have a relationship with 
one person who does the calling for the rest. The ones who have 
a problem going out there, there is somebody who will go out 
there and pick it up for them. Passion in those neighbors, love 
of Christ, caring for each other, it exists, and exists in 
those poverty hit neighborhoods.
    These are neighborhoods of immigrants that pick onions and 
they pick onions. They have no Federal benefits at all. And 
we've allowed them to come into the country, pick onions and do 
all our dirty work, but they are absolutely eligible for 
nothing. So they call us over there and the food we give is all 
the food they'll have. And one neighborhood is in charge of 
that court. The other day we took a couple thousand pounds of 
food to them and distributed it to that entire trailer park. 
That lady came up to me--and this is the most beautiful thing 
that has happened yet. She said, ``Mr. Tellez, we got some 
clothes here from our babies and our kids that have outgrown 
them and we were wondering could we give them to your ministry 
so you can give them to another family?'' And I said, ``You 
better believe it.'' They said, ``Mr. Tellez, next time you 
come through here, they're going to be washed and cleaned so 
you don't have to worry about it. You just give them out.''
    What do we see right there? We see people who they see the 
love from our ministry and now they want to give back. So 
what's happening in this poor, poor poverty hit neighborhood? 
You walk into a house, you see 15 people in two rooms. You see 
these little kids, the little thugs, they throw you the gang 
signs. When we go in, ``Hi, Mr. Tellez.'' You know what, it's 
nothing but respect because who do they see coming in? They see 
love, the love of Jesus Christ. They asked me 1 day, they said, 
``Mr. Tellez, why do you do this?'' I said, ``It's the love of 
Jesus Christ. I just want to show you the love of Jesus 
Christ.'' And you know, they're grateful.
    And those kids, those little kids when we come up, they 
start running out their houses and they're saying (Speaking 
Spanish), and they're all saying that because they know who we 
are. One lady asked, ``Mr. Tellez, is there some way you could 
get us some bleach over here sometime?'' The price of bleach--I 
went over there with a truckload of bleach, you should have 
seen how happy they were grabbing bleach. In our warehouse we 
have two large pallets of cleaning supplies, and we give those. 
That's what we did.
    You know, it's something that we have to do. You know, how 
can you live in a business where you feed thousands of people a 
week yet there is thousands of people that--you know, a lot of 
those people just need someone to talk to. We knock on hundreds 
and hundreds and hundreds of doors a month, hundreds of doors.
    Our volunteers when they go--and you know what, I've run 
across this case. We had a Caucasian lady who had high heels on 
and was dressed good and I says, ``Ma'am, if you're going to 
come to the battlefield, you better come dressed to come to the 
battlefield. This ain't show and tell. You're going to have to 
sit in that truck and it's best you don't get out. So don't 
come out here in nothing like that into this neighborhood.'' 
When I go out there, I go dressed.
    Do you know what? I fit into the environment enough to gain 
the trust of the people we're helping, so that they're not--
we're not looking down at them. We're looking at them, and 
that's how we reach these kids.
    And I tell the volunteers that go with us, I said you have 
to be willing to see what you're going to see because I'm going 
to tell you right now you are going to get sick to your stomach 
by the time this day is finished. And we will spend hours 
knocking on door after door. How are you doing today? Do y'all 
need anything today? Are you OK on food? Is everything all 
right? And we will see the worst of the very worst. But do you 
know what? We'll be back there again in a couple of weeks. How 
are you doing today? Do y'all need anything?
    I've seen the poorest family with the very least, they 
said, ``No, Mr. Tellez, we don't need no food today, but what 
we'd like to do is can we give you a donation today?'' I said, 
``You sure can.'' And do you know what, they'll give us this 
crumpled up $5 bill that they had been hanging onto, and 
they'll throw it back in. You know it ain't money they need. 
It's love they need. And if we go in there with sincere love of 
Jesus Christ unwavering, not walking the fence and show them 
love, that love will produce more than any amount, and that 
food, it's the help, but it's the love we have. I love those 
people.
    They're wonderful and right now we're in all of Dona Ana 
County and that is one huge county. We walk in the border of 
Sunland Park, NM. That's right on the Mexican border. We are 
walking those neighborhoods, the projects. We go into houses 
that have seven kids and the mother is dying of cancer and dad 
hit the highroad years ago.
    So what message do we have for these kids? You know, we 
have the message of Jesus Christ, morality. You know that's our 
messages. We're not going to go condemn them. We are going to 
go over there and love these people. Then we'll go to the 
extreme opposite in Hatch, NM to Ben Archer Health Clinic. We 
have 25 food banks in Dona Ana County all around.
    We don't go doing the running. There is no shortage of 
people who want to help. We just find the right people for the 
right neighborhood. What's the best way to approach this 
neighborhood? You go to that social worker sitting in that 
elementary school. She has the passion and the love for those 
kids. She's their teacher and their social worker. She'll join 
you. She joined us. We have every social worker in all these 
schools. And you know what? When we started taking these boxes, 
we were taking them 20, 30, 40 at a time into the schools. Do 
you know those social workers would start crying? Do you know 
they would start crying right there in their office? They would 
start thanking God in a public school and we'd tell them we 
need to remind you we're a faith-based organization, which we 
make it clear on the front of the box, and there are faith-
based materials in the box. They said, ``Mr. Tellez, we don't 
care about that. We want to feed these kid whose family has no 
food.'' And that's what we--that's what you do.
    You don't just send a guy from the upper east side, 
whatever it is in this city, into the lower west side and think 
he's going to be accepted because he's not. You go help these 
people like Victory Outreach in their neighborhood. You want to 
help this neighborhood? Help this army of men who have given 
their life to make a difference. You want to help her 
neighborhood? Give to this lady's organization and help her 
neighborhood. If you want to help this neighborhood, give to 
that organization. You know, let's go help those neighborhoods. 
And how can you help them?
    How do we help them? We take boxes of food into the 
churches all throughout the county. We take boxes of food into 
all the elementary schools, all the health clinics. Anywhere 
there could possibly be a need, we have boxes of food. That's 
how you help them. That's how we help them. And, you know, 
that's the way you get into these ugly neighborhoods.
    People want the volunteer. Well, you know what? Say you 
know what, give us an hour a week, 1 percent of your time. And, 
you know, we're not going to send an engineer into the Pacheco 
Trailer Park. We're going to send that engineer into MacArthur 
Elementary to teach kids what it takes to be an engineer. The 
character involved in being an engineer. We're not going to 
send a doctor into Dona Ana Trailer Park. We are going to send 
that doctor to talk to these girls and these boys about 
sexually transmitted diseases. We are going to use the people 
you have and put them in the areas you can get the best out of 
them. Put them in the elementary schools to work with those 
kids and mentor them. Put them in the high schools to teach 
kids how to fill out their entry exams to college. Give the 
kids a reason to finish school. We have millions of volunteers. 
They're not all meant to go into Dona Ana Trailer Park. But 
there is a place they can go if they'll give 1 hour a week.
    I find there is college coaches--we got universities here. 
There is college coaches that will give you 1 hour. So OK, for 
that 1 hour this week we want you to go to this school and work 
with these kids and teach them how to play basketball. This 
doctor, go in and teach these kids about health. The engineer, 
teach those kids what they need to do to be an engineer. Give 
them a reason to go to college. We want you professionals to 
teach our kids how to become professionals. We don't need you 
professionals to go into these ghettos and get scared half to 
death. That's what we need these people to do.
    We need to use our resources right. I own a restaurant. I'm 
not going to take a dishwasher and have them go wait on tables. 
I'm not going to take a server and have her go cook. I'm not 
going to have a cook go take cash at the register. Use your 
people in areas they best suit you. Use your volunteer force in 
the area that best suits you.
    We have put together a program with ideas of how to help 
teachers. Who can help teachers? What person best fits the 
area? We know it's common sense. Don't put the wrong people in 
the wrong areas because they'll do the wrong thing and you'll 
get the wrong results.
    Mr. Souder. You answered a number of the questions I had. 
Let me cluster--and I'm starting to get pressure on myself 
getting to the airport here, so I want to try to wind this up. 
One of the things that tends to happen--I've got a two-part 
question and I'd like to hear your response to this because 
this has been a--just for those who haven't sat through a 
congressional--you come to Washington and these little green 
lights go on every 5 minutes. It takes us 3 minutes to ask the 
question, you get 2 minutes to answer it and then it's the next 
thing. This has been good because we have been able to develop 
a debate more fully and a discussion more fully and treat some 
of the subjects that we're constantly debating around the 
edges.
    One thing that often happens is you're a business guy who 
had a calling that this is what he wanted to do. Often what 
then happens and part of the reason I've been fascinated with 
Freddie Garcia's ministry is typically what happens is then you 
get involved in your ministry, then pretty soon everybody asks 
you to speak in the region. I can think of 10 groups that you'd 
be great at in my district who would love to hear you speak and 
who need to hear that kind of, you know, hey, you need to get 
off your duff and get out there and do something type of 
message. Pretty soon you're touring around the country making 
all these kind of speeches. Your restaurant goes broke. The 
neighborhood program starts to fold because the person who 
founded it went off to reach the bigger mission and we lose the 
individual programs. That's one dilemma and I'd be interested 
in it because I'm looking at it going, man, everybody needs to 
hear this message.
    And the second thing is that if you don't do that, partly 
these hearings are illustrating to me again one point, but I 
want to do a variation. The immediate response we get in 
Washington--like if we had a hearing and hauled two people in, 
everybody would go, yeah, well, Tellez can do it but hardly 
anybody else can. And there is this skepticism that what my 
sociology professor calls [inaudible]. That's not the case. 
You're building it on the exception, not the rule. There is 
only like five people like this in America and they're running 
around. Bob Woodson says, no, that's a bias in the government, 
a bias of us. We're not out in the neighborhoods. We don't 
realize that there is thousands of these people everywhere 
across the country. If we nurture them, they'll pop up.
    So the question is the second part is how do you avoid the 
first part and the second part is and how do we nurture and 
grow more people like yourself? How do get more businessmen to 
make a commitment regardless to some degree of different 
traditions? I personally share your passion for faith and 
believe that is the most effective for if you become a 
Christian and you really feel that somebody is going to burn in 
hell the rest of their life, you have a passion that tends to 
be a little greater than some of the other people's passion. 
And it tends to be holistic, but other program--but other 
people can be motivated slightly differently. How do we develop 
and nurture that across the country? Because it is not there.
    You talked about all the advertising. That advertising is 
all self-oriented. And how do we battle that and how would you 
nurture it? And that was one of the things behind the faith-
based program for whatever difficulties there are in it, that 
is partly what we're trying to say. How do we nurture 
compassion and outreach and what role can the government play 
in nurturing that given the fact that we're a very diverse, 
divided society becoming increasingly more so?
    Mr. Tellez. Well, to start with as far as the business, one 
of the advantages I have is I'm a businessman, and you know a 
good businessman, his goal walking in the door is to replace 
himself out. So, you know, I've been in that restaurant for 5 
years and for 5 years I've been preparing to walk out of the 
restaurant because this is what's going to happen. I'm not 
going to stay in that one business. I'm either going to stay in 
that or I'm going to go start another one.
    But, you know, rather than start another one, my services 
are going to go out. I'm going to leave--I'm going to start 
this program. This is the program where my heart is. My 
business, it runs itself. I have one of the top people in the 
country running it that I recruited out of Sacramento to free 
me up so that I can do more to make a difference and where I am 
now----
    Mr. Souder. That's a really important point that a lot of 
people don't understand is basic business school says that, and 
that is one of the areas to test whether you are a good 
businessman is whether you trained replacement leaders.
    Mr. Tellez. Right.
    Mr. Souder. And organization theory and as we work with 
grassroots organizations that is one thing possibly we ought to 
be training through the Compassion Capital is how to train 
replacement leadership.
    Mr. Tellez. And so being a businessman I know that a 
businessman is going to replace himself. It's taken me 5 years, 
but I have solid foundation to replace myself. Now, this 
organization here, it had to be treated with the same business 
sense. I know that I am not going to be able to do everything. 
So what do I do? I start training the people who will take my 
place in areas that I need to be taken care of. Jason right 
here, if you were to shut your eyes and he was to sit down, he 
would almost duplicate me. He has the same--he has the passion.
    You know, 85 percent of Americans claim to be Christians. 
We don't have a shortage of people out there. They just have a 
shortage of vision. You know, Elijah when he went running 
through the countryside, we've heard when Jezebel scared him, 
he took off running for days. He finally stopped. He threw his 
hands up, God, am I alone? He says, no, there is 7,000 more 
just like you. Elijah didn't realize it. He didn't know there 
was 7,000 more like him, but do you know what? There are. There 
is thousands and thousands and thousands of people waiting for 
a vision. Waiting to have something that's real. Waiting for a 
reason to serve. I live to serve. I don't live to make money 
off it because I make money off the business I've taken care. I 
live to serve and make a difference and to go out there and 
make a difference for that generation coming up. And, you know, 
whatever it takes.
    I've spoken to close to a quarter of a million people 
counting public television. I've spoke the message. You know, 
we've got hundreds of volunteers through the church network, 
business network. We got people to help us. We don't have a 
shortage of help in that city. Resources, you know what, if we 
run low, I pull my wallet out. If we run low, Jason, tell him 
to pull some money out. We just bought us another 5,000 pounds 
of food to hold us over until the second harvest got here. And 
do you know where we got that? Out of our pockets. You know 
what we did? We went over there. I brokered with one of the 
brokers, bought 5,000 pounds of food, took it to our warehouse, 
got one of my employees who's covered on my clock, on my 
insurance, under my workmen's comp, took him over there and he 
helped me get it and organize it in the storeroom.
    This man has become a brand-new person since he has been 
helping in room because he knows he was one of those kids, and 
now he's become a brand-new person. Well, who is this man? This 
man was a heroin addict who is rehabilitated. Unfortunately it 
took a lot of prison time, but he has a purpose in life now, 
and he can't wait to go in there. He puts his heart and passion 
in that storeroom. I go in there and it brings tears to my eyes 
to see all the--everything he's done. You see his heart in 
there. This is a man who has no money. He was a heroin reject. 
I gave him a job. They called me from prison and asked me if I 
was going to hire him. I said, yes, I am. And I put him in 
there, but I gave him a cause. People--it's not a lack of 
people. It's a lack of vision. Where there is no vision, people 
will perish.
    We take this vision into our country, we need to get--you 
know, we need to get our country excited to do something to 
make a difference for those little kids. And you know in order 
to make a difference for our 5 and 6 year olds, you have to be 
prepared to reach a 17 and 18 year old because those little 
kids know a language we have not figured out yet. But you get a 
17 year old, a 16 year old, a 15 year old and mentor them and 
give him a purpose. You let that 17 year old know there is 
nothing I can teach you about right and wrong that you don't 
already know, but what there is something I can teach you is I 
can teach you things you need to know to reach your 5 year old 
and 6 year old and 7 year old brother. You know about drugs. 
You might have dabbled with them. I can't tell you they're bad. 
You know that, but does your 5 year old brother? You know about 
adultery and premarital sex. You know about that, but do you 
know what? How about your 6 year old sister, are you ready for 
her to experiment with that? Is that the direction you want 
your 6 year old sister?
    And I'm going to tell you what, I had a line of gangsters 
and I'm going to tell you they looked like they could kill you 
let alone look at you. And they were all standing around and I 
got to talking to them about that. And they said, ``Boy, Mike, 
you're awful brave bringing that message to this--'' this was 
in the middle of the neighborhood, an ugly one. And I brought 
that message to them. When I finished, they went straight row 
looking straight at me with their hands to their side, tears in 
their eyes. I said, guys, there is nothing I can tell you about 
alcohol. You already know--you know what it does, but are you 
ready for your 7 year old brother to start drinking? Are you 
ready for your little siblings to follow that path? I said, 
we're going to--we are calling you to help us reach your family 
members. Reach these little kids and teach them through your 
language. You know that language. I don't.
    Listen to the music they listen to and you'll know there is 
a language that we have not figured out yet, but a 16 year old 
knows how to communicate with that 7 year old. And a 16 year 
old is going to receive what an 18 year old tells them, an 11 
year old is going to receive what a 14 year old tells them, a 5 
and 6 year old is going to receive what a 10-year old and an 11 
year old is telling them. So what do we do? We start planting a 
seed. Plan our foundation and plan of a way to reach the young 
kids. We as adults, we are not going to reach them. We're not 
going to reach them. We're going to reach them to go in and 
mentor in schools, helping in schools, teaching them about 
education, teaching them about not quitting. But as far as 
reaching these kids in these neighborhoods, we as adults do not 
stand a chance. We don't know their language. There is a gap.
    You notice that the people I come with we're three 
generations sitting right here, and we need three generations 
to communicate with the next generation. And this is how you 
work it. You connect that generation gap. And then you teach 
them. You know what, teach them how to love, teach them what 
caring is about. I take these kids right there--when I take 
those little kids into those bad neighborhoods, do you know 
what? They start crying.
    In my restaurant on Saturdays they say, ``Hey, Mike, can we 
go with you today? Can we go with you to give out food? Can we 
go?'' And these young kids, they go in there and they're 
looking at these guys and I said, ``What do you think of that 
pickup load of thugs right there?'' ``Oh, them are some scary 
guys. Those are the eastsiders. Those are the (Speaking 
Spanish). Those are the westsiders.'' I said, ``Well, should I 
stop?'' ``No, don't go there.'' I stop and I go and I said, 
``How are you guys doing today?'' ``How are you doing, Mr. 
Tellez? Thank you for what you're doing for our community. We 
sure appreciate it.'' And they are waving and they're getting 
out of the way and letting me pass.
    And what do those kids inside the truck say, their mouths 
are dropped. And I said, ``Brother, I'm going in with love of 
God, not with a knife or a gun.'' You see the difference in 
there, guys? That's the only way we're going to reach them. 
That's the only way. We're not going to reach these kids as 
adults. We need kids to reach kids to reach kids to reach kids 
and that's our only chance.
    And we as adults, we can help. We can go into those 
elementary schools, go into those youth centers. We can 
volunteer our time where our expertise best fits. That's the 
only way and reproduce our actions and ourselves and give 
people a reason. Can anyone in this room tell me that reaching 
a 5 and 6 year old isn't a good reason to do something? Do we 
need money to reach those young kids? Can anyone tell me if we 
need to pay them to reach those young little kids? No. Now 
we've struck a button of passion. We all love the children. Now 
it's time for us to do something.
    Mr. Souder. I want to thank each of you for your testimony 
on the first two panels as well as this panel. And if you each 
have additional information that you'd like to submit or any 
additional statement after having heard today--we covered a lot 
of topics.
    If have you materials or other groups you want to suggest 
to us, Dr. Perkins is--I wouldn't say a close friend, but I 
know him and worked with him on a number of things and we're 
following through with his organization. But as you know of 
other groups, what we want to do is build a record of the 
different groups and what effect they're having at the 
grassroots level because this is a big part of America 
academically. De Tocqueville said it was the unusual part of 
America when he wrote about democracy in America. He said it 
was the network of organizations and so on and we lost a lot of 
that. And the question is as people get more self-oriented, as 
we get inundated with Internet and television, how do we do 
that?
    And we're really looking for trying to be--to do this in a 
fair and creative way in a democracy, at the very least to try 
to stimulate because the faith-based initiative is usually 
talked about in terms of charitable choice but actually has a 
lot of components, training, tax deductions, how we calculate 
mileage for volunteers. We changed the AmeriCorps Bill to allow 
AmeriCorps to have volunteers who work to help to coordinate 
infaith based organizations that it depends on how direct of 
activities are there. We're debating constantly in education 
bills and drug treatment bills, creative ways to do this and 
we're defining in a country that's deeply divided.
    And what we're trying to make sure is that in addition to 
the traditional churches that have participated, that a lot of 
the minority driven, a lot of the fundamentalist evangelical 
charismatic type churches also get included in this public 
debate. And you've been a part of that today and appreciate it 
very much and it will add a lot to the Washington debate.
    And with that our hearing stands adjourned.
    [Whereupon, the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 91133.039

[GRAPHIC] [TIFF OMITTED] 91133.040

[GRAPHIC] [TIFF OMITTED] 91133.041

[GRAPHIC] [TIFF OMITTED] 91133.042

[GRAPHIC] [TIFF OMITTED] 91133.043

[GRAPHIC] [TIFF OMITTED] 91133.044

[GRAPHIC] [TIFF OMITTED] 91133.045

[GRAPHIC] [TIFF OMITTED] 91133.046

[GRAPHIC] [TIFF OMITTED] 91133.047

[GRAPHIC] [TIFF OMITTED] 91133.048

[GRAPHIC] [TIFF OMITTED] 91133.049

[GRAPHIC] [TIFF OMITTED] 91133.050

[GRAPHIC] [TIFF OMITTED] 91133.051

[GRAPHIC] [TIFF OMITTED] 91133.052

                                   - 

</pre></body></html>
